                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AUDIT OF CORPORATION FOR NATIONAL AND
   COMMUNITY SERVICE GRANTS AWARDED TO THE
   NEW YORK CITY OFFICE OF THE MAYOR (NYC
               MAYOR’S OFFICE)

                     OIG REPORT 11-11




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on July 25, 2011. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than January 25, 2012 and complete its corrective actions by July 25, 2012.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                       Or/in" HI'   In~pCl' l(lr   Gt'ncral


                                 NATIOO
                                      NAL&
                                  COMMUNITY
                                 SERVICE ~..-
                                              July 25, 2011

TO;           Mary Strasser
              Director, AmeriCorps"VISTA

              Margaret Rosenberry
              Director, Office of Grants Management

              Oiahann Billings-Burford
              Chief Service Officer, NYC Service

FROM:         Stuart Axenfeld   ~{.{).~ ~7ttJ-A
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Report 11-11: Audit of Corporation for National
              and Community Service Grants Awarded to the New York City Office of the
              Mayor (NYC Mayor's Office)

Attached is the final report on the OIG's audit of Corporation for National and Community
Service grants awarded to the NYC Mayor's Office. This audit was performed by OIG staff in
accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by January 25, 2012. Notice of final action is due by July 25, 2012.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov;     Thomas Chin, Audit Manager,              at (202) 606-9362 or
t. chin@cncsoig.gov; or Sheyi Idowu. Auditor, at (202) 606-9361 or o.idowu@cncsoig.gov.


Attachment

cc:   Robert Velasco II, Acting Chief Executive Officer
      James Siegal, Chief of Staff
      Kim Mansaray, Acting Chief Operating Officer
      Idara Nickelson, Acting Chief of Program Operations
      Rocco Gaudio, Deputy Chief Financial Officer
      Valerie Green, General Counsel
      Michael Berning, Director, Office of Field Liaison
      Malcolm Coles, Atlantic Area Manager, Office of Field Liaison
      Donna Smith, New York State Program Director
      Claire Moreno. Audit Liaison, Office of Grants Management
      Jack Goldberg, Audit Resolution Specialist, Office of Grants Management
      Kevin Cummings, Director of NYC Civic Corps
      Lauren Givner, Special Assistant, NYC Service


                   1201 New York Avenue, NW         *
                                                 Suite 830         *   Washington. DC 20525
                      202-606-9390 * Hollin~ : 800-452-8210          * www .cncsuig.gov
                        Senior Corps   * AmeriCorps * Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Audit Conclusions .............................................................................................................. 3

Results of Audit .................................................................................................................. 8

Objectives, Scope, and Methodology ................................................................................. 17

Background ........................................................................................................................ 18

Exit Conference .................................................................................................................. 19



Appendices

A: NYC Mayor’s Office VISTA Application Timeline
B: OIG’s Response to the NYC Mayor’s Office and the Corporation’s Response to the Draft
   Audit Report
C: Corporation for National and Community Service’s Response to the Draft Audit Report
D: NYC Mayor’s Office Response to the Draft Audit Report


                                                    TABLE OF ACRONYMS

                        ACL          Audit Command Language
                        ARRA         American Recovery and Reinvestment Act of 2009
                        CPO          Chief of Program Operations
                        DOA          Department of Aging
                        DVSA         Domestic Volunteer Service Act of 1973
                        MOA          Memorandum of Agreement
                        NYC          New York City
                        OIG          Office of Inspector General
                        USC          United States Code
                        VISTA        Volunteers in Service to America
                                  EXECUTIVE SUMMARY

The President and Congress provided the Corporation for National and Community
Service (Corporation) approximately $200 million in funding under the American
Recovery and Reinvestment Act of 2009 (ARRA), to be obligated by September 30,
2010. In response to the ARRA mandate of accountability, transparency, and efficient
allocation of funds, the Office of Inspector General (OIG) performed an audit of the
Volunteers in Service to America (VISTA) programs and AmeriCorps grants awarded to
the New York City Office of the Mayor (NYC Mayor’s Office), located in New York, NY.
VISTA programs are awarded non-competitively. Our audit objectives were to determine
whether: (1) the NYC Mayor’s Office’s financial, Memorandum of Agreement (MOA), and
program management were compliant with the requirements of the ARRA terms and
conditions; (2) the NYC Mayor Office, VISTA members, and the programs (sponsor and
sub-recipients) in which VISTA resources are awarded under ARRA were compliant with
applicable laws, regulations, and MOAs provisions; (3) internal controls were effective;
and (4) AmeriCorps State and National members and their service were compliant with
applicable laws, regulations, policy, and, where appropriate grant provisions.

Through ARRA funding, the NYC Mayor’s Office, in partnership with the Corporation
expanded its VISTA program to engage about 200 VISTA volunteers in the NYC Civic
Corps. NYC Civic Corps was launched in April 2009 to mobilize residents in the five
boroughs of NYC in public service: to build, support, and manage volunteer programs in
the critical impact areas of economic opportunity, health, education, clean energy, and
the environment. NYC Civic Corps is administered through NYC Service, an arm of the
NYC Mayor’s Office. NYC Service is also a pioneer program of the Cities of Service
initiative, a coalition launched by NYC Mayor and other mayors across the country to
promote volunteerism as a way to help cities address their most-pressing problems.
NYC Civic Corps members were deployed, in small teams of VISTAs, to 56 NYC
agencies and non-profit organizations (host site organizations) for a one-year period
from August 2009 through July 2010. The NYC Civic Corps members received a
monthly living stipend, a NYC transit metro card, health care coverage, and an education
award or an end-of-service stipend.

In conducting our audit, we interviewed VISTA members, NYC Service management,
and current and former Corporation management personnel. We also reviewed relevant
Federal laws, regulations, guidance, and other documentation. We identified several
areas of concern in the process and administration of the VISTA resources. For
example, we expressed concerns relating to a situation that appeared to be undue
influence from Corporation senior management in the review and award process of the
VISTA resources to NYC Mayor’s Office. The Corporation, in its response, did not
dispute the stated facts of events that took place (testimonies of the Corporation senior
management); rather, the Corporation justifies the actions of the former Chairman of the
Board of Directors and the then- CPO. In addition, the Corporation, in its response did
not acknowledge that, upon receiving our preliminary draft report, it proactively and
swiftly implemented our first recommendation (1a) relating to amending the bylaws to
preclude Board of Director members from influencing operational decisions for grants
that are currently under review. The amended bylaws, including an Ex Parte
Communications section, were recently approved by the Board of Directors and, in our
opinion, mitigates the risk of undue influence identified in our audit. 


                                            1
We further expressed concerns relating to the large size of the project. The NYC
Mayor’s Office received a traditional VISTA sponsorship with 200 VISTA slots, the
largest single sponsorship in VISTA’s history. Due to the large size of the project, some
red flags in the application review process were missed. The State Office official and the
Office of Field Liaison Area Manager stated that, absent the intervention from the then
CPO, the State Office would have awarded a smaller sized project and expanded it
gradually based on the success of the program. In its response to Finding 4 of the
Report, the Corporation reiterated that “in the ordinary course, projects such as this one
typically start out small and grow in a more measured way.”

Furthermore, we expressed concerns that activities conducted at NYC Parks and
Recreation, Million Trees, were not compatible with VISTA goals and objectives; in fact a
member quit the program for the same reason (inconsistency with the VISTA program).
VISTA members are to serve in low-income communities. We learned through
interviews with VISTA members, as well as our analysis, that members provided
services to benefit non impoverished areas.

In addition, we found that some VISTA members were underutilized and poorly
managed by the host site organizations; the members were asked to work from home
with no substantial assignments. We also found that the host site organizations were
precluded from the decision-making process relating to recruitment of members and
setting up project goals and milestones.

Our fieldwork testing, conducted from October 18, 2010, through February 23, 2011,
revealed the following findings:

     1. Appearance of undue influence1 from Corporation senior management in the
        review and award process of the VISTA resources to NYC Mayor’s Office;
     2. Unclear and questionable host site organization applications, i.e. vague goals
        and unclear relevance to VISTA’s mission of relieving poverty;
     3. VISTA members engaged in unallowable direct service2;
     4. Uncertainty that service provided by certain host sites met the statutory mandate
        of VISTA to strengthen and supplement efforts to eliminate and alleviate poverty;
     5. A few host site supervisors did not attend the mandatory supervisor orientation;
        and
     6. Certain host sites hired VISTA members prior to the end of the program,
        resulting in early terminations of their VISTA service.

As a result of our audit findings, we are questioning costs of $100,297 in education
awards and living allowance for violations of terms and conditions of the MOA, law,
regulation, or policy. The Corporation disputes the recovery of the questioned costs
1
  Undue influence as used in this report refers to any act of persuasion that over-comes the free will and
judgment of another, inducing that person to do something he or she would not otherwise do. In this case,
the appearance of undue influence occurred between the then CPO and the State Office Officials, which
was initiated in order to satisfy the interests of the former Chairman of the Board.
2
  According to the AmeriCorps VISTA Handbook, “[a] member assignment does not include the delivery of
individual services to a limited number of clients, that is, "direct service," or activities more appropriately
performed by the sponsoring organization's administrative support staff.”
                                                        2
because the costs are VISTA living allowances paid by the Corporation, not grant costs
incurred by the Mayor’s Office. We believe the NYC Mayor’s Office should reimburse
the Corporation for all member related costs because the member was not eligible.
Federal funds were expended and there must be accountability for any misuse or
mismanagement of those funds, irrespective of whether the cost was incurred directly by
the Corporation for the sponsor or whether the cost was incurred directly by the sponsor.


                                        AUDIT CONCLUSIONS

We conclude that the process used to review and accept host site organizations was
compromised by the appearance of undue influence exercised by Corporation senior
management. As a result, some of the host sites selected did not meet the intent of the
VISTA program. Overall, we believe the VISTA program and its specific poverty-fighting
mission was not the best fit for the NYC Mayor’s Office. There further appeared to be
widespread misunderstanding of VISTA program requirements among officials of the
host site organizations, resulting in violations of the VISTA terms and conditions.

The NYC Mayor’s Office had implemented a strong internal controls system to ensure
the proper administration of ARRA funds and compliance with the ARRA terms and
conditions. However, during our audit we identified areas in which the Corporation
should improve its internal review process, prior to making awards, for VISTA-sponsored
programs. Specifically, we are concerned by a high likelihood that Corporation senior
management unduly influenced the decisions of the Corporation’s New York State Office
(State Office) during the selection of host site organizations. Our concerns are based in
large part on the interest, evidenced by the former Chairman of the Corporation’s Board
of Directors, in a partnership between the NYC Mayor’s Office and the Corporation. The
former Chairman of the Board of Directors3 recommended the NYC Mayor’s Office to the
Corporation for VISTA funding in January 2009, while he was serving as the Chairman
of the Board of Directors. The major contributing factor to the appearance of undue
influence is fueled by the former Chairman of the Board’s intervention in the host site
selection process (an operational function).

Given the former Chairman of the Board’s ties to NYC Mayor’s Office, he should not
have intervened in the host site selection process. The former Chairman of the Board’s
ties to the NYC Mayor’s Office, as we understand, are listed below:

       During our interview with the former Chairman of the Board, he informed us that
        he had a prior working relationship with one of the Deputy Mayors of NYC while
        working on case studies related to a grant. The aforementioned Deputy Mayor
        was notified when the NYC Mayor’s Office was introduced to the Corporation by
        the former Chairman of the Board of Directors.
       While the former Chairman of the Board served as the Director of the Innovations
        in American Government Awards at Harvard Kennedy School, the NYC’s


3
  The former Board of Director was first named Chairman of the Corporation Board of Directors on June 1,
2001, and served in that role until February 2, 2009, when he became Vice Chairman. He was Vice
Chairman from February 2, 2009, to October 6, 2009, when he was named Interim Chairman. He served in
that role until May 31, 2010. Since June 1, 2010, he has served as Deputy Mayor of New York City. The
announcement to that post was announced by the Mayor of New York City on April 30, 2010.
                                                   3
         Acquisition Fund4 was selected as the winner of the Innovations in American
         Government Award in September 2008. At the time, the former Chairman of the
         Corporation Board was concurrently serving as the Director of the Innovations in
         American Government Awards.
        We observed that the Mayor of NYC contributed to the former Chairman’s book,
         “The Power of Social Innovation,” by writing the foreword for the book, dated
         November 2009.

Our interview with the Corporation’s New York State Office officials, the then Chief of
Program Operations (CPO), and the Office of Field Liaison Area Manager, revealed that
NYC Mayor’s Office had contacted the former Chairman of the Board to intervene in the
host site selection dispute between the State Office and NYC Mayor’s Office.
Consequently, some of the admitted host sites in dispute ended up being problematic to
the VISTA program as evidenced by their performance.

The Corporation’s New York State Office officials stated it had initially rejected some
host sites, which had been proposed by NYC Mayor’s Office, from participating in the
VISTA program based on past performance, the State Office’s professional judgment,
and its concerns that the sites could not meet the VISTA’s anti-poverty requirement.
The NYC Mayor’s Office sought to include the disputed host sites in the program, and
utilized the former Chairman of the Board of Directors to achieve approval of its request.
According to the then CPO, the Corporation’s intervention in the host site dispute began
after the then CPO was contacted by the former Chairman of the Board of Directors.
The then CPO stated she intervened at the request of the former Chairman of the Board
of Directors. The then CPO intervened in the process and subsequently asked the State
Office to revisit the applications of the disputed host sites and work with NYC Mayor’s
Office to make them acceptable.

According to interviews with the State Office officials, our review of supporting
documentation, and interviews with VISTA members, we learned that two of the three
disputed host sites that were accepted into the program turned out to be problematic.
One host site, Long Island Business Development Corporation (allocated three VISTA
members), withdrew its commitment three months after the program started due to its
inability to meet VISTA requirements. The other host site, NYC Department of Parks
and Recreation, was the subject of allegations from several VISTA members that the
project was political in nature and did not promote VISTA goals. One VISTA member
quit the program early because the member felt its activities did not address poverty and
were inconsistent with the VISTA program.

Our audit identified instances in which host site organizations were in violation of VISTA
regulations, including engaging VISTA members in direct service, and supervisors not
attending mandatory orientation. As a result, the supervisors did not fully comprehend
the VISTA goals and provisions. This led to the misuse of members. In addition, based
on interviews with VISTA members, some host site organizations were not prepared for
the VISTA members. For example, VISTA members that served at NYC Department of
Education, Division of Schools Support, stated they were not provided with the
resources and capacity to achieve their VISTA goals and missions. During the first

4
 The Ash Institute for Democratic Governance and Innovation Communiqué (Spring 2009 Volume 4)
described the NYC Acquisition Fund as a key element of NYC Mayor’s New Housing Marketplace plan. The
Fund is a $230 million partnership which finances the purchase of land and buildings for affordable housing.
                                                     4
quarter of their service term, they were not provided basic accommodation (computers,
phones, and office space). In their first month they had no host site supervisor. The
assigned supervisor was on vacation and no replacement was provided. In their last
month of service, they were told to work from home with no substantial assignments.
The VISTA members stated they were underutilized for an estimated 70 percent of their
service terms, resulting in an ineffective and inefficient use of Federal resources.

We further found that some host site organizations were selected without an adequate
analysis to determine if they were the best fit for the VISTA program. Our review of
selected host site applications led us to determine that, based on the information
disclosed in their applications, some host sites should not have been approved for the
program. For example, the application for New York Legal Assistance Group disclosed
its intention of engaging VISTA members in direct service. The VISTA members that
served at the New York Legal Assistance Group subsequently did engage in direct
service. Under VISTA policy, members are prohibited from providing direct service.

The State Office officials and the Office of Liaison Area Manager stated that in the
absence of the intervention from the Corporation management, the State Office would
have awarded a smaller-sized project and then expanded it gradually, based on the
success of the program. In addition, the State Office officials stated that, in the absence
of the intervention from the former Chairman of the Board through the then CPO in the
decision-making process, the State Office would have exercised greater prudence in
selecting effective and appropriate host site organizations.

The following table provides a summary of the exceptions we identified during our
member interviews and reviews of host site organization application files. We
interviewed 19 VISTA members and reviewed 19 host site organization applications, 6 of
which were NYC government agencies.




                                             5
                SUMMARY OF FINDINGS BASED ON SELECTED SAMPLES

                                         Host Site Organizations
                                                Involved
Finding Description       Members        NYC          Not-For-Profit     Questioned
                          Involved     Agencies       Organizations        Costs
Host sites with              10           2                 5                -
questionable
applications (i.e.
vague goals and
unclear relevance to
VISTA)
VISTA members                7              1                3             $50,999
engaged in direct
service
Host sites with              9              2                2             $35,342
uncertainty if services
met VISTA’s anti-
poverty requirement
Host site supervisors        4              1                1                 -
did not attend the
mandatory supervisor
orientation
Host sites                   2              2                -             $13,956
prematurely hired
VISTA members
Total                        32                                           $100,297

To address the issues raised by our audit, we recommend that the Corporation
implement the following:

       Develop clear policies and procedures, in its Board of Directors bylaws, to
        preclude Board members from interfering/participating in operational decisions
        involving the awarding of grants or VISTA resources. The policy should
        specifically address contacts with applicants during the decision-making process
        that could be misconstrued as undue influence. (Refer to finding no. 1 for further
        details).

       Establish a formal internal panel for reviewing VISTA applications and assessing
        host site applications prior to the award of grants or VISTA resources. This will
        ensure that selected organizations have a demonstrated need for VISTA
        members and are qualified and eligible to conduct a VISTA program. In addition,
        the Corporation should develop a standard procedure manual to provide
        guidance for the review panel. It should include guidance on the responsibilities
        of reviewers, formal documentation of the review process, and procedures for
        dispute resolution. We believe the establishment of such a panel will enhance

                                             6
       the transparency and integrity of the review and award process. (Refer to finding
       no. 2 for further details).

      Enhance control mechanisms to ensure that VISTA recipients comply with the
       laws, regulations, and policies. These should emphasize policies that delineate
       the requirements and expectations for VISTA recipients and outline the
       consequences of violating the laws and regulations, for example, cost
       reimbursement, adverse past performance track record, etc. To enhance
       compliance with terms and conditions of VISTA MOAs, ensure that all
       supervisors attend the supervisor orientation. Mandatory attendance will
       increase awareness of allowed and prohibited activities. (Refer to findings no. 3
       and no. 5 for further details).

      Emphasize a proactive means by which VISTA members can communicate their
       concerns or report alleged prohibited services they have been assigned to
       engage in, such as direct service or non-VISTA related activities. This will
       enhance early intervention and detection in instances of noncompliance. (Refer
       to findings no. 3 and no. 4 for further details).

      Recover the questioned costs of $100,297 from NYC Mayor’s Office for
       noncompliance with VISTA terms and conditions. (Refer to findings no. 3, 4, and
       5 for further details).

      Enhance the VISTA performance reporting tool to capture relevant data that will
       provide the Corporation with sufficient information to determine the success of
       the program. The performance report should clearly include measures that can
       be used to establish a baseline to sufficiently analyze performance.
       Implementing an effective tool will enhance accountability and transparency.
       (Refer to finding no. 4 for further details).

      Include, in all MOAs, a clause that VISTA sponsors/host site organizations are
       prohibited from hiring VISTA members prior to the end of their one-year term of
       service. This will help ensure that VISTA programs and their members fully meet
       their objectives and goals. (Refer to finding no. 6 for further details).

      Place a strong emphasis on the past performance of existing grantees when
       considering recipients for subsequent grants or VISTA resources. (Refer to
       finding no. 6 for further details).

Based on our limited review of the ongoing AmeriCorps State and National program
grant, we did not find any major issue during the member compliance testing.




                                            7
                                          RESULTS OF AUDIT

Finding 1.     Appearance of undue influence, from Corporation senior
               management, in the review and award process of VISTA resources to
               NYC Mayor’s Office.

We reviewed the application process for the NYC Mayor’s Office and associated host
site organizations and determined there appeared to be an exercise of undue influence
from the Corporation’s senior management team and the former Chairman of the Board
of Directors in the review of host site applicant organizations.

According to the Guidelines for Selection of AmeriCorps*VISTA Sponsors and Projects,
Part III. AmeriCorps *VISTA Project Approval Process, Paragraph 2.d, states, “the
Corporation State Director is given the authority to review the project application and
render a final decision within 15 working days of receipt.” 60 Fed. Reg.7172, 7174
(Feb.7.1995).

According to interviews with the State Office officials, the then CPO, the then Acting
Director of VISTA, the Office of Field Liaison Area Manager, and our review of
supporting documentation, we found that the Corporation State Office personnel had
originally rejected five host sites proposed by NYC Mayor’s Office because, in their
professional judgment, they had concerns about the projects’ alignment with VISTA
standards. The NYC Mayor’s Office was dissatisfied with the State Office’s decision and
sought to include the five rejected host sites in the program. The then CPO and State
Office officials stated the NYC Mayor’s Office contacted the former Chairman of the
Board of Directors, who then contacted the then CPO to request her intervention in the
matter. The then CPO stated she intervened in the host site dispute because the project
was important to the former Chairman of the Board of Directors5. The State Office was
then notified by the then CPO that the project was a high priority of the former Chairman
of the Board of Directors. The State Office official and the then Acting Director of VISTA
stated the former Chairman of the Board of Directors recommended NYC Office of the
Mayor to the Corporation for VISTA funding. We also reviewed supporting
documentation to confirm that the NYC Mayor’s Office was introduced to the
Corporation’s then Acting Chief Executive Officer by the former Chairman of the Board
of Directors. At the request of the then CPO, the State Office was asked to revisit the
applications of the rejected host sites and work with NYC Mayor’s Office to revise the
applications for reconsideration and acceptance into the program. The State Office
reconsidered and accepted three of the five rejected host sites.

The State Office officials stated that, in the absence of the intervention from Corporation
senior management, the State Office would not have accepted the three host sites to
participate in the program. Subsequently, two of the three disputed host sites became
problematic and performed poorly, confirming the initial concerns of the State Office:
1) The Long Island City Business Development Corporation withdrew from the program
three months after inception due to a determination by NYC Service that it was not an
appropriate host site for the VISTA program and it was not in need of capacity building;
2) NYC Parks and Recreation experienced early termination of a VISTA member
because the member felt the activities conducted did not address poverty and were

5
 During our interview with the former Chairman of the Board of Directors, he stated he had no recollection
of intervening in the host site dispute.
                                                     8
inconsistent with the VISTA program. In addition, some VISTA members that served at
NYC Department of Parks and Recreation reported they were engaged in prohibited
direct service.

Our audit also raised concerns that the project was large in scope, considering that the
NYC Mayor’s Office was a new sponsoring organization to the Corporation with no
relevant past performance of VISTA-related projects (with the exception of NYC
Department of Aging (DOA) which, according to the State Office Official, had an
unfavorable past performance from a prior NYC project. DOA was the third disputed
host site that was accepted into the program in spite of its adverse past performance
record). The NYC Mayor’s Office received a traditional VISTA sponsorship with 200
VISTA slots, the largest single sponsorship in VISTA’s history. The State Office official
and the Office of Field Liaison Area Manager stated that, absent the intervention from
the then CPO, the State Office would have awarded a smaller sized project and
expanded it gradually based on the success of the program.

We believe that the appearance of undue influence resulted in part from the
Corporation’s lack of clear policies and procedures in the Board of Directors bylaws, to
prevent Board members from interfering or intervening in operational decisions during
the review and award process of VISTA programs. Moreover, the Corporation lacks
policies and procedures on Board of Directors’ contacts with outside parties or
applicants during the review and awarding of Corporation programs, an operational
function.

Recommendations

We recommend that the Corporation:

   1a. Develop clear policies and procedures, in the Board of Directors bylaws, to
       preclude Directors from intervening/participating in the operational decisions of
       awarding grants or VISTA resources. This would avoid the appearance or
       perception of preferential treatment or undue influence. The policy should
       specifically address contacts with applicants during the decision-making process
       that could be misconstrued as undue influence; and

   1b. Establish a formal internal review panel for reviewing VISTA applications and
       assessing host site applications prior to the award of VISTA resources. The
       review panel should have a standard procedure manual to provide guidance for
       the review process, including the responsibilities of reviewers, documenting the
       review process, and dispute resolution procedures.


Finding 2.     Unclear and questionable host site organization applications.

Of the 19 host site applications reviewed, 11 did not include measurable terms or
outcomes related to the sustainability of the project activities.

According to the Guidelines for Selection of AmeriCorps*VISTA Sponsors and Projects,
Part II. Criteria for Selection of AmeriCorps VISTA Sponsors and Projects, Paragraph
A.2.d a proposed project “must describe in measurable terms the anticipated self-

                                            9
sufficiency outcomes at the conclusion of the project, including outcomes related to the
sustainability of the project activities.” 60 Fed.Reg.at 7173.

The host site organization applications listed below are samples of applications that did
not address how the applicants would help alleviate poverty or how they would use
VISTA members to build sustainable projects. Their missions and goals were not clearly
linked to the VISTA mission and, in some instances, could not be classified into any of
the three priority programming areas stated in the Fiscal Year 2010 VISTA Program
Guidance: independent living, financial development, and education:

      New York City Department of Parks & Recreation - The application did not
       specify how it would alleviate poverty and did not demonstrate how the proposed
       missions and goals were relevant to the VISTA’s anti-poverty requirement. The
       application also indicated NYC Department of Parks and Recreation will partner
       with one of the five host sites previously rejected by the State Office, the New
       York Restoration Project. The New York Restoration Project partnered with NYC
       Department of Parks and Recreation during the course of the project,
       circumventing the decision of the State Office.

      New York Legal Assistance Group - The application indicated that VISTA
       members would take part in direct service as a means of gaining a strong
       knowledge of New York Legal Assistance Group's programs and services and
       the large and diverse realm of needs that many New Yorkers face. VISTA
       members are prohibited from providing direct services. The VISTA members did
       provide direct service, violating the terms and conditions of the VISTA program.

      Long Island City Business Development Corporation - This host site did not
       seem to qualify as a participant in the VISTA program, as demonstrated by its
       early termination from the program. This host site was initially challenged by the
       State Office, which struggled with correlating its proposed mission and goals with
       that of VISTA. Long Island City Business Development Corporation was
       assigned three VISTA members from August to October 2009. This inability to
       meet the VISTA requirements resulted in misallocation of valuable resources that
       could have been utilized elsewhere, considering that the demand for VISTA
       members outweighs the supply for VISTA members.

      Year Up - The application did not specify how it will alleviate poverty and did not
       indicate if its target was solely composed of low-income families. In addition, the
       application disclosed that the current VISTA member assigned to Year Up was
       teaching professional skills to students, which is a form of prohibited direct
       service. VISTA members that served at Year Up revealed they performed direct
       services, in violation of the terms and conditions of the MOA.

The Corporation’s review and acceptance of the 56 host site organizations that
participated in the program was completed after the award of the VISTA resources,
which is not the standard process. Typically, host site organizations are reviewed and
assessed prior to awarding VISTA resources. Corporation management said the review
was conducted after the fact because of time constraints and the size of the project.



                                           10
Recommendations

We recommend that the Corporation:

   2a.   Establish a formal internal review panel for reviewing VISTA applications and
         assessing host site applications prior to the award of VISTA resources. This
         will ensure that host site organizations selected have a need for VISTA
         members and are qualified and eligible to conduct a VISTA program; and

   2b.   Develop a standard procedure manual to provide guidance for the review
         panel. The manual should include the responsibilities of reviewers, formal
         documentation of the review process, and procedures for dispute resolution.
         The establishment of a formal internal review panel will enhance the
         transparency and integrity of the review and award process.


Finding 3.   VISTA members engaged in unallowable direct service.

During our interviews with VISTA members, we learned that several members provided
direct service, which is prohibited according to VISTA program policy. For example, a
VISTA member who served at New York Legal Assistance Group performed about 55
percent of the term providing direct service. This included answering the phone and
communicating and providing guidance directly to clients. The member expressed
concerns about this to the supervisors, both at NYC Service and the host site. The
member believed there was a discrepancy between the needs of the host site and the
VISTA program’s mission. The member reported being frustrated with the situation and
not knowing how to handle it. The NYC Service supervisor made several attempts to
explain to the host site supervisor that direct service was in violation of the VISTA
program policy; however, the problem continued. Another member who served at New
York Legal Assistance Group mentioned the services provided did not entail capacity
building, but was mainly devoted to direct services such as assisting Haitian immigrants
with legal residency applications.

A VISTA member who served at Year Up reported engaging in activities that were
approximately 50 percent devoted to direct service. For example, the member
interacted with students on an individual basis and taught and trained the students on
mentoring. Another member at Year Up reported spending 10 percent of the term on
direct service, acting in the role of an administrative assistant.

Two VISTA members who served at NYC Department of Parks and Recreation stated
they performed about 20 percent of their terms providing direct service by planting trees
and conducting training to citizens on how to take care of trees. Also, a VISTA member
who served at Federation Employment and Guidance Service reported devoting 20
percent of the term providing direct service by teaching classes.

According to the Guidelines for Selection of AmeriCorps*VISTA Sponsors and Projects,
Part II. Criteria for Selection of AmeriCorps VISTA Sponsors and Projects, Paragraph
B.2.b, AmeriCorps *VISTA sponsoring organizations are prohibited by law from
“assigning AmeriCorps VISTAs to activities which would otherwise be performed by
employed workers.” 42 U.S.C. § 5044(a). VISTA members are prohibited from engaging
in direct services because direct services runs counter to projects building capacity.
                                             11
Engagement in direct services is in violation of the terms and conditions of the MOA and
is a mismanagement of VISTA resources. As a result of the direct service provided, we
have calculated $50,999 in questioned costs as follows:

                                         % of
                                                             Cost of                 Total
                            Members     Direct    Annual               Education
   Host Organization                                         Direct                Questioned
                            Involved   Services   Stipend               Award
                                                            Services                 Cost
                                       Provided
New York Legal Assistance
                               2         55%      $27,912   $15,352     $9,450      $24,802
          Group
 NYC Department of Parks
                               2         20%      $27,912    $5,582     $4,725      $10,307
      and Recreation
Federation Employment and
                               1         20%      $13,956    $2,791        -         $2,791
    Guidance Service
        Year Up                1         50%      $13,956    $6,978     $4,725      $11,703
        Year Up                1         10%      $13,956    $1,396        -         $1,396
          Total                7                            $32,099     $18,900     $50,999


Recommendations

We recommend that the Corporation:

   3a. Enhance control mechanisms to ensure that VISTA sponsors comply with laws,
       regulations, and policies. These should emphasize policies that delineate the
       requirements and expectations for VISTA recipients and outline the
       consequences of violating the program’s laws and regulations;

   3b. Emphasize a proactive means by which VISTA members can communicate their
       concerns or report alleged prohibited services they have been assigned to
       engage in, such as direct service or non-VISTA related activities. This will
       enhance early intervention and detection of noncompliance; and

   3c. Recover the questioned costs of $50,999 from NYC Mayor’s Office for
       noncompliance with VISTA terms and conditions.


Finding 4.        Uncertainty that service provided by certain host sites met the
                  statutory mandate of VISTA to strengthen and supplement efforts to
                  eliminate and alleviate poverty.

The statutory mandate of VISTA is “to eliminate and alleviate poverty and poverty-
related problems in the United States” 42 U.S.C. §4951 (restated in the Guidelines for
Selection of AmeriCorps*VISTA Sponsors and Project, at 60 Fed Reg.7172). Based on
our interviews with VISTA members and our review of selected host site applications, we
found that some of the host sites selected were not equipped to carry out the VISTA
anti-poverty requirement. The list of host sites that participated in the VISTA program
was submitted and reviewed only after the NYC Mayor’s Office VISTA application was
approved for funding. We understand the time constraints to quickly obligate the ARRA
funds; however, adequate due diligence should have been performed on the proposed
host sites to verify their eligibility and ensure that the sponsor and host sites were
capable of fulfilling the VISTA anti-poverty requirement.


                                                  12
Based on our review of the last NYC Mayor’s Office quarterly performance report
(reporting period April 1, 2010, to August 14, 2010), the year-end reports for host sites,
and interviews with selected VISTA members, we found little or no evidence that some
host sites met the VISTA anti-poverty requirement. The last quarterly performance
report provided insufficient information to determine the success of the program. It
revealed that a few milestones were not met, especially those relating to ensuring
sustainability of the program – a key element of the VISTA mandate. As a result, the
State Office requested a supplemental year-end report to obtain further information on
the successes and shortcomings of each host site organization. We found that only 12
of the 56 host site organizations provided their accomplishments in the year-end report
to the State Office. The host site organizations listed below did not submit their
accomplishments as requested by the State Office. The following are reasons we do not
believe certain host sites met the VISTA anti-poverty requirements:

      At NYC Department of Education, Division of Schools Support, VISTA members
       disclosed that the host site was not prepared for the program. The members
       were not provided with the resources and capacity to achieve their VISTA goals
       and missions. In the first quarter of their service term, the members were not
       provided basic accommodations such as computers, phones, and office space.
       In their first month of service, they did not have access to a host supervisor
       because the assigned supervisor was on vacation and was not replaced. The
       members stated they were underutilized for about 70 percent of their service
       term. After being idle for a month, the VISTA members were transferred to a
       school in Brooklyn to volunteer in the computer lab for about three weeks. The
       members did not provide VISTA related services; rather, they helped rearrange
       the tables, cleaned and refurbished the computer lab.

       In June 2010, the VISTA members were asked to work from home because the
       division they were assigned to within NYC Department of Education was being
       dissolved. Throughout their time at home, they did not receive any substantial
       assignments. Our interviews revealed that the members felt their time at NYC
       Department of Education did not accomplish the goal and intent of the VISTA
       program. They stated the services they rendered did not contribute to capacity
       building. In their opinion, they did not build any long-term solutions to alleviate
       poverty in their community. They did not view the service they performed as
       meaningful and constructive. The VISTA members stated they felt this host site
       mismanaged the VISTA resources available to it. Also, the members said they
       did not understand why NYC Department of Education was selected as a host
       site as it did not demonstrate the need for, or proper utilization of, VISTA
       members.

      In addition, during our review of the monthly performance report for April and
       May 2010, we found that the NYC Department of Education, Division for School
       Support, did not meet its VISTA goals. The performance reports lacked
       information on accomplishments and progress. This is consistent with the
       statements of VISTA members obtained through our interviews.

      The performance reports from April to August 2010 revealed that VISTA
       members serving at Broadway Housing Communities were left idle without


                                            13
       volunteer opportunities once the school year ended in June 2010. The VISTA
       program ended at the end of July 2010.

      At NYC Department of Parks and Recreation, a VISTA member left the program
       early because the member felt the activities conducted did not address poverty
       and were inconsistent with the VISTA program. Several of the VISTA members
       interviewed stated that the program offered by NYC Department of Parks and
       Recreation, Million Trees, did not qualify as a VISTA program. The VISTA
       members believed the Million Trees program was not focused on low-income
       priorities, as some of the events took place in the wealthier areas of the city as
       opposed to the low-income areas that were proposed in the application.
       According to a VISTA member, only 3 of the 20 tree workshops conducted were
       in low-income areas. The experiences of the VISTA members confirmed the
       initial concerns of the State Office, which had initially rejected and challenged this
       host site as a participant, citing doubts that its mission would fulfill the VISTA
       anti-poverty requirement.

      In interviews with VISTA members that served at New York Legal Assistance
       Group, the members said their service work was administrative in nature.

      During our review of the VISTA monitoring guide form completed by a host site
       organization, and discussions with the Corporation State Office officials, we
       learned that NYC Mayor’s Office did not involve the host sites in the development
       of the VISTA project work plans. The project work plans highlight the overall
       goals and objectives of the project. According to the host site supervisor, the
       overall work plan was prepared by NYC Mayor’s Office and the host sites applied
       it to be a part of their initiatives. In addition, we learned that host sites were not
       provided with the opportunity to participate in recruiting of VISTA members. It
       appears that NYC Mayor’s Office developed a canned project work plan for all
       host sites. The Federal Register, Vol. 60, No 25, requires that projects should be
       determined and defined by those to be served. According to the Guidelines for
       Selection of AmeriCorps*VISTA Sponsors and Projects, Part I. Program
       Directions “AmeriCorps*VISTA project sponsors must actively elicit the support
       and/or participation of local public and private sector elements in order to
       enhance the chances of a project’s success, as well as to make the activities
       undertaken by AmeriCorps*VISTA self-sustaining when the Corporation for
       National Service no longer provides those resources.” Project work plans need
       to be tailored to specific host sites’ needs since there is no “one-size-fits-all”
       solution. As a result, some host site organizations were unable to meet the
       canned VISTA goals because they did not fit into the host site’s organizational
       model.

As a result of the under-utilization of VISTA members assigned to the NYC Department
of Education, Division of Schools Support, we have calculated $35,342 in questioned
costs as follows:




                                            14
                                                                       Cost of                    Total
                            Members       % of Under        Annual                  Education
     Host Organization                                                  Under                   Questioned
                            Involved      utilization       Stipend                  Award
                                                                      Utilization                 Cost
Department of Education,                               6
                                 1         41.67%           $13,956    $5,815        $4,725      $10,540
  Division of Schools
        Support                  2           55%
                                                   7
                                                            $27,912    $15,352       $9,450      $24,802

            Total                3                                     $21,167       $14,175     $35,342


Recommendations

We recommend that the Corporation:

      4a.    Emphasize a proactive means by which VISTA members can communicate
             their concerns or report alleged prohibited services they have been assigned to
             engage in, such as direct services or non-VISTA related activities. This will
             enhance early intervention and detection in instances of noncompliance;

      4b.    Enhance the VISTA performance reporting tool to capture relevant information
             that will provide the Corporation with sufficient information to determine the
             success of the program. The performance report should clearly include
             measures that can be used to establish a baseline to sufficiently analyze the
             performance of the project. Implementing an effective tool will enhance
             accountability and transparency;

      4c.    Recover the questioned costs of $35,342 from NYC Mayor’s Office for non-
             compliance with VISTA terms and conditions; and

      4d.    Ensure project sponsors actively involve host site organizations in the planning
             and development phase of the project. Project work plans should be
             developed as a joint effort between the project sponsor and the host site
             organizations to maximize the opportunity for a successful project.


Finding 5.          A few host site supervisors did not attend the mandatory supervisor
                    orientation.

Some of the host site supervisors at NYC Department of Education, Division of Schools
Support, did not attend the mandatory supervisor orientation, including a former VISTA
member who was hired by Department of Education during the member’s term of
service. According to the AmeriCorps VISTA Desk Reference, “new supervisors
whether of intermediary organizations, grantees, or subsites, are required to attend
Supervisor orientation. Supervisors that have replaced previously trained, now absent
supervisors must also attend the supervisor orientation.” Supervisors should attend
orientation to avoid non-compliance with VISTA terms and conditions. For example, a
VISTA member that served at Year Up revealed that the member’s host site direct
supervisor, who did not attend the supervisor orientation, was not knowledgeable about
VISTA laws and regulations.


6
    The member was underutilized for five months.
7
    The members were underutilized for about 55 percent of their VISTA term.
                                                           15
Recommendation

We recommend that the Corporation:

    5. Ensure that all supervisors attend the supervisor orientation to enhance their
       knowledge in complying with VISTA regulations.


Finding 6.      Certain host sites hired VISTA members prior to the end of the
                program resulting in early terminations of their VISTA service.

The NYC Department of Parks and Recreation8 and the NYC Department of Education,
Division of School Support, hired their assigned VISTA members prior to the end of their
service periods. VISTAs are required to serve for one full year. The Domestic Volunteer
Service Act of 1973 states that volunteers serving under VISTA “may be enrolled initially
for periods of service of not less than one year unless the Director [VISTA] determines,
on an individual basis, that a period of service of less than one year is necessary to meet
a critical scarce skill need.” 42 U.S.C. §4954 (b)(2). These host sites did not obtain
clearance from the Director before prematurely terminating the term of service and hiring
the VISTA members. Despite this action, the NYC Department of Parks and Recreation
and the NYC Department of Education, Division of Schools Support, were reconsidered
for further funding by the Corporation and assigned AmeriCorps*State and National
members (eight members assigned to the NYC Department of Parks and Recreation
and six members assigned to the NYC Department of Education) for the FY 2011
AmeriCorps program.

We have questioned $13,956 in costs as a result of the early terminations of VISTA
members to accept employment with host site organizations. The calculation is as
follows:

                                                                                         Total
                                     Members     Months in   Prorated     Annual
       Host Organization                                                               Questioned
                                    Terminated    Service       %         Stipend
                                                                                         Cost
 NYC Department of Parks and
                                        1        8 Months      67%        $13,956         $9,351
          Recreation
Department of Education, Division
                                        1        4 Months      33%        $13,956         $4,605
      of Schools Support
             Total                      2                                                $13,956


Recommendations

We recommend that the Corporation:

    6a. Include, in all MOAs, a clause that VISTA sponsors/host site organizations are
        prohibited from hiring VISTA members prior to the end of their one-year term of
        service, unless the exception stated in the regulation applies. This will ensure
        that VISTA programs and their members fully meet their objectives and goals;



8
 Refer to OIG’s response to Finding 6, Appendix B, for further details on the member that served at NYC
Department of Parks and Recreation.
                                                     16
   6b. Place a strong emphasis on the past performance of existing grantees when
       considering recipients for subsequent grants or VISTA resources. This will
       ensure the grantee possess the requisite satisfactory track record necessary to
       complete the program; and

   6c. Recover the questioned costs of $13,956 from NYC Mayor’s Office for
       noncompliance with VISTA terms and conditions.


                         OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Audit Objectives. Our objectives were to determine whether: (1) the NYC Mayor’s
Office’s financial, Memorandum of Agreement (MOA), and program management were
compliant with the requirements of the ARRA terms and conditions; (2) the NYC Mayor’s
Office, VISTA members, and the programs (sponsor and sub-recipients) in which VISTA
resources awarded under ARRA were compliant with applicable laws, regulations, and
MOAs provisions; (3) internal controls were effective; and (4) AmeriCorps members and
their service were compliant with applicable laws, regulations, and grant provisions.

Scope and Methodology. We conducted our audit between September 2010 and
February 2011. The audit focused on the review of the grant disbursements relating to
the ARRA funds as well as member compliance with VISTA terms and regulations.
Accordingly, we selected a random sample of 15 VISTA members (period of
performance from August 2009 to July 2010) and reviewed their member files. In
addition, we interviewed 19 VISTA members to gain an understanding of their VISTA
experiences and obtain a description of activities they were involved in, especially
activities relating to prohibited services. We utilized a data analysis software application,
Audit Command Language (ACL), in selecting our samples. We selected 22 VISTA
members for interview; 15 of our samples were selected randomly using ACL, and the
remaining seven samples were judgmentally selected to corroborate information
received from other member interviews. Of the 15 samples selected randomly, we were
unable to contact three VISTA members after making several attempts to contact them.
The interviews were conducted in person at the NYC Mayor’s Office, and on telephone
from the OIG and NYC Mayor’s Office. In addition, we randomly selected 15 terminated
VISTA members and reviewed their member files to determine the reasons for their early
withdrawals, as well as to verify that their stipends were terminated in a timely manner.

To further address our audit objectives, we interviewed NYC Mayor’s Office personnel,
including the NYC Service management team, the NYC Civic Corps supervisors in
charge of the VISTA members, and the NYC Mayor’s Office Fiscal Unit to obtain an
understanding of the internal controls in effect over the administration of the VISTA
resources. Furthermore, we interviewed current and former Corporation senior
managers involved in the administration and oversight of VISTA programs to obtain an
understanding of the Corporation’s role in the VISTA resources award process. We also
                                             17
interviewed the former Chairman of the Corporation’s Board of Directors to obtain an
understanding of his involvement in the VISTA resources award process, and State
Office management to obtain an understanding of the review, award, and oversight
process of the VISTA resources.

We reviewed VISTA policies and procedures, and laws and regulations related to the
operation of VISTA programs, as well as information on the NYC Service and NYC Civic
Corps to gain an understanding of the environment in which they operate. We utilized
the AmeriCorps Portal and eGrants system to extract reports relevant to the audit.

Finally, we performed a limited review of the ongoing AmeriCorps grant between NYC
Mayor’s Office and the New York State Commission on National and Community
Service. We randomly selected 15 samples, using ACL, for member file compliance and
member interviews to ensure compliance with AmeriCorps regulations. We were able to
interview all 15 members at the NYC Mayor’s Office. At the time our interviews were
conducted in October 2010, those members had been in service less than two months.
AmeriCorps program started in September 2010 and is scheduled to end in July 2011.

Below is a table to show the sample size used for the audit:

                                    Sample Size Selected for:
                                                          Terminated
                              Member Files
    Grant No.     Program                    Interviews    Members     Period of Performance
                                Review
                                                            Review
  09VSANY001       VISTA          15            22            15        Aug 2009 – Jul 2010

  09ESHNY001     AmeriCorps       15            15              -       Sep 2010 – Jul 2011




                                       BACKGROUND

AmeriCorps VISTA is the national service program designed to fight poverty and build
economic opportunity. In FY 2010, VISTA enrolled 8,075 new members. VISTA
engages individuals 18 years and older in a year of service as full-time volunteers to
non-profit organizations and local agencies that serve low-income communities. The
program’s purpose is to strengthen efforts to eliminate poverty by encouraging people
from all walks of life to engage in meaningful volunteer service. The legislation under
which the VISTA program operates is the Domestic Volunteer Service Act of 1973
(DVSA), Pub. L. 93-113, 42 U.S.C. §§4950-5084. This law, as amended by the Edward
M. Kennedy Serve America Act of 2009, Pub. L. 111-13, outlines the purpose and
parameters within which VISTA may operate. As described by the DVSA, the three
main objectives of the program are to generate private sector resources, encourage
volunteer service, and strengthen local organizations serving low-income communities.

ARRA was an effort to provide a rapid response to the economic downturn that hit the
country in late 2008 with the intent to build the foundation for long-term growth. Of the
$200 million in ARRA funding received by the Corporation, the VISTA program was
allocated $65 million. The Corporation, like every other agency that received ARRA
funding, was required to obligate the funds by September 2010. The NYC Mayor’s
Office MOA was approved two months after the enactment of ARRA, in April 2009
(Refer to the timeline in Appendix A). The NYC Civic Corps is funded by regular
                                              18
appropriations and ARRA funds. The total amount of ARRA funding awarded for the
NYC Civic Corps program as of September 3, 2010, was $9,495,683, as follows:

                                Member           Amount
     #          Grant No.                                                Comments
                                Capacity         Funded
                                                             VISTA MOA- Administered Directly by
     1        09VSANY001           200          $7,312,683
                                                                       the Corporation
                                                             AmeriCorps Grant- Education Awards
     2        09ESHNY001           200          $1,950,000     Program- Administered Directly by
                                                                      NYC Mayor Office
                                                              VISTA Recovery Support Grants-
     3        09RVANY004            6           $233,000     Administered Directly by NYC Mayor
                                                                           Office

   Total                           406          $9,495,683


A VISTA program is initiated when a non-profit organization or public agency signs a
MOA with the Corporation to sponsor a specific number of full-time VISTA members. In
effect, the funding to support VISTA members is administered directly by the
Corporation, rather than by the selected organizations. For the NYC Mayor’s Office, the
Corporation awarded an ARRA grant to supplement the VISTA resources and provide
direct support supervision, training, and travel required to supervise VISTA members.
The funds were used to employ six NYC Service supervisors.

The NYC Civic Corps is an initiative of the NYC Service, a division within the NYC
Mayor’s Office (the Project Sponsor). The host site organizations entered into an
agreement, via a MOA, with NYC Service to comply with the VISTA terms and
conditions. The VISTA members were recruited and interviewed by NYC Service and
approved by the State Office. Each VISTA member was assigned a host site
organization as well as a NYC Service supervisor to provide guidance and oversight
throughout their VISTA service. There were a total of six NYC Service supervisors who
each managed 30 VISTA members and were assigned to about 10 host site
organizations to conduct monthly site visits and monitoring. The NYC Service
supervisors reported to the NYC Chief Service Officer. NYC Service provided each
VISTA member with unlimited monthly NYC transit metro cards for transportation to and
from VISTA engagements.

The NYC Civic Corps VISTA project experienced an attrition rate of about 24 percent
due to various reasons, such as medical problems, employment offers, dissatisfaction
with the program, or transfer to other volunteer programs, etc. At its peak, 193 members
participated in the VISTA program at NYC Mayor’s Office and host site organizations,
and 146 VISTA members completed their terms of service.


                                   EXIT CONFERENCE

We discussed the contents of this draft report with Corporation representatives at exit
conferences on March 9, 2011, and April 28, 2011; and NYC Mayor’s Office personnel
on March 29, 2011. The Corporation and NYC Mayor’s Office responses to the draft
report are included in this final report as Appendices C and D, respectively. We
summarized their responses and included OIG comments at Appendix B.


                                           19
                Appendix A:

NYC Mayor's Office VISTA Application Timeline
                      Appendix A: NYC Mayor Office VISTA Application Timeline

                                                                                                             VISTA Host Site
                                                                                Email notification to
                                                                                                               & Program                  VISTA first
                                                           Team                    host sites on
                                                                                                                Manager                   day of work
                                NYC                      reviewed               whether they have
  NYC Submitted                                                                                              Training in NYC
                             announced                      and                  been matched or
application to CNCS
                             participant                discussed                       not
  NY State Office
                              and host                   host site                                                                                 Re-Issue/update
                             application                candidates                                                                                  MOU’s (due to
                                                                                                                              VISTA
                                                                                                                                                     an incorrect
                                                                                                     Host site              participant
           CNCS                                                                                                                                        clause)
                                                                                                  completes and             training in
       approved NYC                                                    NYC submitted
                                           Host site                                               returns MOU                 NYC
         application                                                   participants to
                                          application
                                                                         CNCS for
                                             due
                                                                        processing




                                                                                     Around June 15,
                                                                                          2009
                         April 20, 2009                                                                       July 6 2009
                                                                                                                                      August 10,
                                                                                                                                        2009
                                                        May 14, 2009
                                                                                                 Week of July 5
April 9, 2009                                                                                                                                       January 2010
                                                                                                  and July 12,
                                          May 8, 2009                                                2009              July 27-30, 2009
                                                                       June 12, 2009
        April 17, 2009




                                                               The diagram above depicts the timeline of events from NYC’s application to the
                                                               VISTA’s commencement.
                         Appendix B:

OIG’s Response to the NYC Mayor’s Office and the Corporation’s
             Response to the Draft Audit Report
                                          Appendix B

    OIG’s Response to the NYC Mayor’s Office and the Corporation’s Response to the Draft
                                      Audit Report

We conducted two key exit conferences with the Corporation, prior to the release of the draft
report, on March 9, 2011, and April 28, 2011. We provided the Corporation ample opportunity
to ask questions and provide feedback on the preliminary draft report to address any items it
believed to be inaccurate. The Corporation provided us with a technical feedback on March 20,
2011. We then incorporated all the changes suggested by the Corporation, with the exception
of changes related to Finding 5.

In its official response to the report, dated June 20, 2011, the Corporation raised concerns about
whether our audit complied with the Generally Accepted Government Auditing Standards
(GAGAS). We were unaware the Corporation had concerns in regards to our compliance with
GAGAS. As demonstrated below, our audit was in full compliance with GAGAS.

In addition, we scheduled three exit conferences with the NYC Mayor’s Office. The first exit
conference was held on October 21, 2010, to discuss our preliminary findings based on our visit
to the NYC Mayor’s Office. Two Corporation personnel also called into that meeting. The
second exit conference was held on March 29, 2011. At the NYC Mayor’s Office’s request, we
scheduled the third exit conference for April 5, 2011, but it was cancelled that day by NYC
Mayor’s Office, which cited an unanticipated event.



Introduction and Finding 1

NYC Mayor’s Office Response:

NYC Mayor’s office believes “the report is rife with distortions of fact and mistakes of law,
violates basic audit principles, and contains baseless and scurrilous innuendo that serves no
legitimate purpose.” In summary, NYC Mayor’s Office believes our allegation of undue
influence by the Corporation’s senior management is simply wrong and that we “invented a
nonsensical definition of undue influence.” They assert that there was no undue influence by
Corporation senior management on behalf of the City.

Corporation’s Response:

The Corporation disagrees with the findings and recommendation 1b. The Corporation did not
dispute the facts or the events summarized in the report, but it questioned our conclusions and
justified the actions of the former Chairman of the Board of Directors, as well the then-CPO.
The Corporation also raised certain concerns about whether the audit complies with GAGAS.

OIG’s Response:

The overall goal of our audit was to validate overall risks, and recommend process
improvements and control enhancements to management. The OIG disagrees with NYC

                                                1
 
Mayor’s Office’s assertion that the report “is rife with distortions of fact and mistakes of law,
violates basic audit principles, and contains baseless and scurrilous innuendo that serves no
legitimate purpose.” We also disagree with the Corporation’s “concerns about whether this
audit complied with GAGAS.” Our audit was conducted in compliance with GAGAS. As
documented in our audit program, the audit objectives were clearly tied to each of our audit
steps and procedures. Our conclusions are adequately supported by evidence obtained during
the audit. The evidence obtained for Finding 1 was obtained in interviews with senior
management officials (who were directly involved), research, and reviews of e-mails and
reports. As part of our quality assurance process, each finding in the report was referenced to
the supporting documentation and was independently reviewed by an audit manager who was
not involved in this specific audit. There were no issues of non-compliance with GAGAS noted
during this independent review.

The audit procedure used to obtain an understanding of the VISTA MOA award process,
including the selection and review process of host sites, was tied to objective three (to
determine if internal controls are effective). The NYC Mayor’s Office VISTA program was totally
supported with ARRA funds. Our efforts in performing this audit procedure were focused on the
efficiency and effectiveness of operations and controls, with the objective of determining
compliance with Federal statutes, regulations, policies, standards, and public funding
accountability.

We interviewed Corporation senior management involved in the review and approval process of
the VISTA application. We also interviewed1 the former Chairman of the Board. When asked
about his involvement in the host site dispute, the former Chairman of the Board said he had no
recollection of the matter. Other parties involved had a recollection of the events that took
place. We stated the facts of the events that took place, based on the interviews we conducted,
and our reviews of e-mails relating to the dispute, to corroborate the information obtained from
the interviews. Our evidence is sufficient, validated, and adequately maintained in our audit
work papers. It is important to note that the Corporation, in its, response did not dispute the
stated facts of events that took place (testimonies of the Corporation senior management2);
rather, the Corporation justifies the actions of the former Chairman of the Board of Directors and
the then-CPO. Our conclusions are based on facts collected to satisfy the objectives of the
audit and are our inferences drawn from the findings based on our professional judgment. It is
also worth noting that the OIG auditors who conducted this audit were in compliance with Yellow
Book standards.

                                                            
1
  The former Chairman of the Board of Directors requested for a second interview upon reviewing the preliminary
draft report. We declined the request because the former Chairman of the Board of Directors reiterated in the request
letter that he had no recollection of intervening in the host site dispute. As a result, we did not see the need for an
additional interview because he could not provide additional information that could have been relevant to our inquiry.
2
  The Corporation requested for copies of our work papers relating to Finding 1. We informed the Corporation we will
not provide interview transcript or information obtained during the interview on the grounds that we must maintain the
confidentiality promised to the interviewees. It is critically important to the OIG that interviewees have a level of trust
and openness to discuss concerns or issues. We provided the Corporation other work papers we deemed
necessary. We also believed the Corporation had access to the senior management we interviewed and cited in the
report and could have easily referred back to them to validate/refute the content of Finding 1. Senior management
personnel we interviewed had direct knowledge of the circumstances. 

                                                               2
 
The NYC Mayor’s Office is not in a position to state that there was no undue influence by the
Corporation’s senior management on behalf of the City as the NYC Mayor’s Office was not privy
to the operations within the Corporation. This finding was directed to the Corporation and the
recommendations were aimed at strengthening transparency and controls to safeguard against
external influence on decision-makers in their review and selection of applicants for Federal
assistance. The Corporation, in its response did not acknowledge that, upon receiving our
preliminary draft report, it proactively and swiftly implemented our first recommendation (1a)
relating to amending the bylaws to preclude Board of Director members from influencing
operational decisions for grants that are currently under review. The amended bylaws were
recently approved by the Board of Directors and, in our opinion, mitigate the risk of undue
influence identified in our audit. Below is an excerpt from the amended bylaw:

“Section 1.11 Ex Parte Communications
   (a) Board Members may not engage in ex parte communications with any organization or
       individual on a matter currently pending before the Corporation, including, but not limited
       to, selection of an applicant for federal assistance, suspension, termination, debarment,
       audit resolution, or investigation of an existing grant recipient, and the substance of a
       proposed rulemakings during the notice and comment period without the prior consent of
       the Designated Agency Ethics Official.
   (b) An ex parte communication is a private communication between a Board Member acting
       as a representative of the Corporation and someone outside the government on the
       substance of a matter currently pending before the Corporation.
   (c) If a Board Member is contacted by an organization or individual outside of the
       government on a matter currently pending before the Corporation, the Member may
       respond by acknowledging receipt, referring the individual to Corporation staff, or
       providing a standard response that does not address the substance of the matter, as
       appropriate.
   (d) Nothing in this section shall be construed as limiting the Board’s ability to fulfill its
       responsibilities with regard to communications with the President and Congress.”

There are two major takeaways from this finding. The first relates to amending the bylaws and
the second relates to instituting improvements in the review process. As the Corporation has
already implemented our first recommendation (1a), we believe the main focus of this finding
going forward should be on improving the process for reviewing and approving VISTA
applications, including host site organizations, to enhance accountability and transparency. As
recommended (1b), the Corporation should establish a formal internal review panel for
reviewing VISTA applications and assessing host site applications prior to the award of VISTA
resources.

We are aware of and fully understand that VISTA project applicants are not selected based on a
competitive basis and that Corporation staff typically work closely with organizations to identify
needs, develop concept papers, and review and approve projects. However, we do not believe
that the Corporation’s existing guidelines for selecting VISTA projects and sponsors provide
clear guidance on dispute resolution and documentation. Establishing a formal review panel will
ensure the following:




                                                3
 
       Facilitate objective decision-making to ensure that each applicant is given a fair, uniform,
        and transparent review, especially when there is a dispute;
       Ensure the approval process is clearly and adequately documented, including
        documentation of tracking, escalating, and resolving disputes; and
       Limit any one person’s ability to influence decisions without thoroughly analyzing the
        issue.

Our audit was guided by our audit program. The NYC Mayor’s Office was selected for an audit
mainly because it received ARRA funds and was the recipient of the largest single sponsorship
of VISTA resources in the program’s history. To achieve our audit objectives, we performed
audit procedures to understand the process for reviewing and approving the NYC Mayor’s
Office VISTA application and host site selections. Our goal was to evaluate the process and
provide recommendations for improvements as necessary. Our audit program was not pre-
designed to review the actions of the former Chairman of the Board of Directors. In the process
of obtaining an understanding of the review and approval process, we discovered, via interviews
with the Corporation State Office personnel, that there were challenges with the review and
approval process.

We inquired as to the description and root cause of the challenge and requested for supporting
information relating to the challenge. We learned (via interviews and reviews of e-mails
obtained during the interviews) the challenge related to the selection of host site organizations.
Specifically, we found that the Corporation State Office’s decision to reject five host sites
presented by NYC Mayor Office was compromised by the then-CPO. There appeared to be an
undue influence situation whereby the State Office personnel felt strongly persuaded beyond
their free will to revisit the host sites and work with the NYC Mayor’s Office to reconsider the
rejected host sites for inclusion in the program. We further learned that the pressure to revisit
the host sites came directly from the then-CPO.

As described in Finding 1, the then-CPO intervened in the host site selection dispute because of
the former Chairman of the Board’s interest in the partnership between NYC Mayor’s Office and
the Corporation. The then-CPO intervened at the request of the former Chairman of the Board.
Consequently three of the originally rejected host sites were accepted into the program and
eventually became problematic. It is important to note that of the two host sites that were
eventually rejected, one (New York Restoration Project) was indirectly included in the program
via a partnership program with NYC Department of Parks and Recreation. Our point in Finding
1 is that the State Office should have been permitted by senior management to exercise its
professional judgment. That professional judgment was upheld by the host site problems we
identified in findings 2, 3, 4, and 6. Also, State Office personnel informed us they would have
awarded a smaller sized project absent the intervention from the Corporation’s senior
management. Refer to the OIG’s response in Finding 2 to review the negative consequences of
the project’s large size.

We understand that Corporation senior management had the authority to intervene in the
matter; as it is part of its responsibility to provide technical assistance. Our issue was with the
manner in which it occurred. Ideally, the then-CPO should have followed up with the State


                                                  4
 
Office to ensure the resubmitted applications of the disputed host sites were indeed the best fit
for the VISTA program. This analysis and review should have been documented. During our
interview with the then-CPO, we were informed she requested that the host sites make revisions
to their applications to better prove merit of their requests. However, she never followed up to
ascertain the revised plans were in accordance with VISTA program standards.

As indicated in the Corporation’s response, we do not state in our report that the State Office
Director should have autonomous or sole authority to decide where VISTAs will be placed. One
of the roles of senior Corporation management is to provide technical assistance when there is
an issue or dispute. The State Office should then approve the application once the issue has
been resolved. To our knowledge and based on our interviews, the then-Acting Director of
VISTA was not involved in the details of the host site dispute. The host site dispute was limited
to the then-CPO, who addressed the issue directly with the State Director and the Area
Manager Office of Field Liaison. The then-Acting Director of VISTA should have been involved
with resolving the host site dispute since he is considered the subject matter expert on VISTA
issues. Contrary to the Corporation’s response, our recommendation seeks open and
transparent communication among key managers and calls for a process for handling escalating
disputes/issues through the structured and appropriate channels.

We reported that the actions of the then-CPO were influenced by the former Chairman of the
Board’s interests. We noted that the former Chairman of the Board had recommended NYC
Mayor’s Office to the Corporation for ARRA and VISTA funding. While this action by itself may
be within the normal course of business, combined with other factors, it could appear as
preferential treatment to a prudent person. The other factors include, amongst other things, the
former Chairman of the Board’s links with NYC Mayor’s Office, as reported in the audit
conclusion section of this report (page 3). The former Chairman of the Board requested talented
Corporation personnel to assist the NYC’s Mayor’s Office with the application process. He then
intervened during a dispute over host site selections, which consequently resulted in
acceptance of some of the host sites that had been rejected by the Corporation State Office.

The NYC Mayor’s Office’s response does not dispute the fact that the former Chairman of the
Board had links with its senior personnel. The former Chairman of the Board notified one of the
Deputy Mayors of NYC when he introduced NYC Mayor Office to the Corporation. As
referenced in NYC Mayor’s Office response, our audit report did not characterize the ties
between the former Chairman of the Board and the NYC Mayor’s Office as “special,” “improper”
or “special connection.” We pointed out that, considering the former Chairman of the Board’s
links to the NYC Mayor’s Office, he should not have intervened in the decision-making process.

Moreover, the NYC Mayor’s Office responded that barring all Board member involvement in
grant determinations would in fact be irresponsible and that board members should become
involved when necessary to exercise appropriate oversight. The Corporation’s response also
echoed the same sentiments. We never stated that Board members should be barred from
providing appropriate oversight. We recommended that polices be developed to preclude Board
members from interfering in operational decisions, especially when applications for federal
assistance are currently pending, such as those involving grants or awards of VISTA resources,


                                               5
 
as that could be misconstrued as undue influence. Again, based on the amended bylaws, we
believe the Corporation has successfully implemented that recommendation. While the cited
sections [42 U.S.C.§12651b(g)(2), (5), and (10)] of the Corporation’s statute that set out the
duties of the Board provide details of the Board’s involvement in grant awards, it addresses the
Board as a collective body. Our findings and recommendation were not inconsistent or contrary
to those listed statutory duties when acting as a whole. The Board members did not vote or
provide consensus with the former Chairman of the Board’s actions relating to the host site
dispute. We also do not believe that it was intended for Board members to attend to applicant’s
complaints because not all applicants have direct access to Board members, making the
process unfair to those lacking such access.

The Corporation’s response stated that it is incorrect for the OIG to rely on Part III, paragraph
2.d. of the Federal Register used as a criteria for describing the Guidelines for Selection of
AmeriCorps*VISTA Sponsors and Projects and Project Approval Process3, and considers it
irrelevant, contending this Federal Register as a non-binding draft document. However, the
Corporation uses this Federal Register as a point of reference for organizations that want to
apply to become an AmeriCorps sponsor. The Corporation’s VISTA website presents to the
public as the procedure for VISTA application procedure and project selection. Moreover, the
“Notice of Vista Guidelines” states therein that “this notice is effective February 7,
1995. Comments must be received on or before March 24, 1995.” Based on the foregoing, it is
reasonable to assume that the Corporation intended, and still intends, the VISTA Guidelines as
a final and current operating procedure, reserving the right for later revisions. For the
aforementioned reason, we consider the guidelines operative and applicable to this finding.

Furthermore, the Corporation incorrectly assumed that our audit lacked financial testing. We in
fact conducted financial testing. In our audit conclusion section, we concluded that the NYC
Mayor’s Office had strong internal controls for its administration of ARRA funds. We found no
questioned costs relating to the financial testing performed on the funds directly administered by
NYC Mayor Office. However, we found questioned costs4 relating to Federal funds expended
by the Corporation on the NYC Mayor’s Office’s VISTA program.

We believe our calculated questioned costs were determined on a sound basis. Non-
compliance with Federal regulations, standards, and MOA is a critical issue for which there are
significant associated consequences and risks. Our principal basis is the fact that Federal funds
were expended and there must be accountability for any misuse or mismanagement of those
funds, irrespective of whether the cost was incurred directly by the Corporation for the sponsor
or whether the cost was incurred directly by the sponsor.




                                                            
3
 The Corporation State Director is given the authority to review the project application and render a final decision
within 15 working days of receipt.” 60 Fed. Reg.7172, 7174 (Feb.7.1995).
 
4
  We included a schedule of these questioned costs in each of the sections in which they were discussed. A
summary table of questioned costs was also provided in the audit conclusion section on page 6. 

                                                               6
 
Other Matters:

As suggested in the Corporation’s response, we do not believe we should have issued this
report in two parts. The only instance in which we issued two separate reports for an Agreed
Upon Procedures (AUP) stemmed from a unique situation in which a contractor conducted one
piece of the AUP; the OIG conducted the other piece of the evaluation due to budget
constraints. The NYC Mayor’s Office audit was conducted entirely by OIG staff and we did not
deem it necessary or efficient to produce two reports.

In response to the Corporation’s comment on what it believes to be the relevant applicable legal
authority with regard to the actions of the former Chairman of the Board, the focal point of our
audit was the NYC Mayor’s Office VISTA award process, not to investigate the former Chairman
of the Board’s actions. Accordingly, it was beyond the scope of our audit to examine the ethical
standards of the former Chairman of the Board.



Finding 2

NYC Mayor’s Office Response:

NYC Mayor’s Office states this finding is defective because it ignores the fact that detailed
VISTA Assignment Descriptions (VADs) were created for member participation at the host sites,
and were the basis for the activities actually undertaken by the VISTA members.

Corporation’s Response:

The Corporation stated it cannot fully respond to this finding because the report does not
provide sufficient information to assess and resolve the finding.

OIG’s Response:

As an initial matter, we provided the Corporation with the host site applications we reviewed
relating to this finding. The Corporation never asked us follow-up questions relating to the
information we provided.

This finding is directed at the Corporation and it relates to the adequacy of the review process
for the host site applications. The approved VADs are irrelevant to this finding because the
VADs were developed after the fact. The host sites were selected prior to the development and
approval of the VADs. As confirmed by the Corporation in its response to Finding 4, “in the
ordinary course, projects such as this one typically start out small and grow in a more measured
way.” Due to the large size of the project, some red flags in the application review process were
missed. The application review process was cumbersome and atypically conducted after the
fact, after the award of the VISTA resources. As a result, we recommended the Corporation
establish a formal internal review panel for reviewing VISTA applications and assessing host
site applications prior to the award of the VISTA resources.



                                                7
 
Contrary to the NYC Mayor’s Office response, Long Island City Business Development
Corporation (LICBDC) was in fact included in the final host site selection and was assigned
three VISTA members until its withdrawal as a host site. It is important to note that LICBDC
was one of the three host sites in dispute that were consequently accepted. The withdrawal of
LICBDC from the program confirmed the initial concerns of the State Office, which had originally
rejected it as a host site.

Furthermore, we had concerns that the application of the NYC Parks and Recreation did not
provide sufficient details on how it will address or alleviate poverty. Again, this host site was
among the three sites that were originally rejected but then consequently accepted. Based on
our audit findings, we believe this site fell short of the objectives of the VISTA program (Refer to
findings 3, 4, and 6). Once more, the initial concerns of the State Office materialized.

Finally, we noted that 115 of the 19 host site applications reviewed did not include measurable
terms or outcomes related to the sustainability of the project activities. For example, their
metrics were vague or could not easily be quantified. The four host sites6 listed were a separate
set of application examples we believe should not have been approved or should have been
scrutinized thoroughly based on the content of the application and other information obtained
from the State Office. For example, New York Legal Assistance Group and Year Up
applications indicated the members would be providing direct service, which is prohibited by
VISTA policies and procedures.



Finding 3

NYC Mayor’s Office Response:

NYC Mayor’s Office stated that “with only minor exceptions, VISTA members did not engage in
direct service.” The response concluded that the questioned costs should be reduced to zero.

Corporation’s Response:

The Corporation questions whether our methods support the assertion that we had “sufficient,
appropriate evidence to provide a reasonable basis for the findings.” The Corporation also
claims that some of the examples of unallowable direct service cited in the report are not direct
service, but capacity-building activities (like training citizens to take care of trees, for example).

OIG’s Response:

We disagree with the NYC Mayor’s Office that the questioned costs should be reduced to zero
because direct service is an unallowable activity as it violates VISTA polices as described in
Finding 3. The NYC Mayor’s Office’s response concurs that the activities relating to two of the
                                                            
5
  We will provide the listing of the host site applications if requested. Typically, such information is provided during
the audit resolution phase. We believe for reporting purposes the information presented is sufficient.
6
  The four host sites listed in the report are not included in the population of the 11 applications referred to regarding
insufficient measurable terms. 

                                                               8
 
host sites (New York Legal Assistance Group and Year Up) are considered direct service, which
constitutes over half of the questioned costs.

The activities performed by the VISTA members in question are considered direct service.
Activities such as administrative work, planting trees, providing training/mentoring directly to the
end users, and performing work that would otherwise have been done by an employee are all
considered direct services. Contrary to the Corporation’s response, the definition of direct
service was provided in footnote 2 of the report.

We disagree with the Corporation that training citizens on how to take care of trees is capacity –
building, as applicable to VISTA members that served at NYC Parks and Recreation – Million
Trees. While capacity- building activities could involve training or teaching community volunteer
leaders, it does not entail directly training the end users or recipients of the service. The trained
community volunteer leaders are in turn expected to train the end users or recipient of service.
Contrary to the NYC Mayor’s Office’s response, the activities mentioned in the paragraph above
were conducted at NYC Department of Parks and Recreation, Federation Employment and
Guidance Service, and Year-Up.

In reference to the Corporation’s response, we reviewed the VAD for NYC Parks and
Recreation and noted that the member’s activities, as documented and approved, related to
developing and improving training materials not actually conducting trainings and planting trees.
In a series of interviews, VISTA members explained to us in detail, activities they engaged in.
The percentages used in the calculation of the questioned costs were documented in the
narrative of Finding 3 and were provided to us directly by the VISTA members. We
corroborated the information provided by the members with supporting documentation such as
monitoring reports (prepared by host site supervisors) and NYC Mayor’s Office progress
reports.

We noticed the Corporation did not respond to the issues of direct services performed at New
York Legal Assistance Group (NYLAG) and Year Up. Its response primarily focused on
activities at NYC Parks and Recreation which constitute, about 20 percent7 of the total
questioned costs. The NYC Mayor’s Office response dismisses the activities conducted at
NYLAG and Year Up, over half of the questioned costs, as minor exceptions. The MOA calls for
full compliance with VISTA terms and conditions, not partial compliance. As a result of the
direct service provided by these members, we recommended the Corporation recover the full
questioned costs of $50,999 for Federal funds.

We reiterate that our audit was in compliance with GAGAS and we did not violate the alleged
statutes. As demonstrated above, the members involved were engaged in direct service and as
such, our findings and recommendation are valid. We believe the information we provided for
reporting purposes is sufficient.

Finally, we observed that recommendation 3b has been taken into account in the Corporation’s
development of the draft action plan to improve its monitoring program in response to
                                                            
7
 NYC Parks and Recreation had questioned costs of $10,307 of the total questioned costs of $50,999 for direct
service.

                                                        9
 
congressional requests. The Corporation proposed to establish a “hotline” to report concerns
about prohibited activities.



Finding 4

NYC Mayor’s Office Response:

NYC Mayor’s Office stated “the City’s VISTA program was structured to meet, and was
overwhelmingly successful in meeting, the VISTA anti-poverty goals.” The response further
stressed that the “NYC Civic Corps exceeded the targets set by CNCS and NYC Service for
seven goals and barely missed on two others.”

Corporation’s Response:

The Corporation could not determine if we were evaluating whether the planned and approved
activities were allowable anti-poverty activities or whether the host sites fell short of the
objectives approved in their applications.

OIG’s Response:

This finding expressed doubt that actual activities that occurred at certain host sites met the
statutory mandate of VISTA to strengthen and supplement efforts to eliminate and alleviate
poverty. Foremost, the NYC Mayor’s Office response stated that the program barely missed on
two milestones. One of these milestones relates to ensuring sustainability of the program,
which happens to be the basis and cornerstone of the VISTA mandate. It is important to note
that the target was not “barely missed;” according to the performance progress report prepared
by NYC Mayor’s Office, the target percentage was 100 percent, but only 54 percent of that
target was realized. Also, when the Corporation State Office requested supplemental reports to
confirm the success of the program, only 12 of the 56 host sites made submissions.

In addition, we expressed concerns that activities conducted at NYC Parks and Recreation,
Million Trees, were not compatible with VISTA goals and objectives; in fact a member quit the
program for the same reason (inconsistency with the VISTA program). VISTA members are to
serve in low-income communities. We learned through interviews with VISTA members that
they conducted activities in well off areas of New York City. We corroborated the information
obtained from the members with information documented in the monitoring report (prepared by
host site supervisors). Indeed, we found that members provided services to benefit non
impoverished areas. The NYC Mayor’s Office admitted that members participated in areas that
are not impoverished.

The Corporation and NYC Mayor’s Office justify the member’s activities based on approved
VADs. We understand VADs were developed and approved, however, this finding does not
question the validity of the VADs or the anti-poverty focus of the project; rather this finding
reveals that actual activities that were conducted (and not activities documented to be
conducted) were not compatible with VISTA goals. For example, the members at Department


                                               10
 
of Education, Division for School Support were grossly underutilized and mismanaged as
explained in Finding 4. The VISTA members could have been utilized at other organizations
where they would have been fully utilized. The NYC Mayor’s Office response does not dispute
the mismanagement and misuse of these VISTA members. It rather considers this finding is
minor and that our recommendation to recover questioned costs is unwarranted.

Any misuse of VISTA resources should not be regarded as minor. The custodians of Federal
resources have the responsibility to ensure taxpayers’ contributions are being utilized efficiently
and effectively and they should be held accountable. Accordingly, we recommended the
Corporation recover the full questioned amount of $35,342.



Finding 5

NYC Mayor’s Office Response:

The NYC Mayor’s Office stated “the fact that a “few” host site supervisors did not attend the
mandatory supervisor orientation- which was offered on only one occasion – is minor.”

Corporation’s Response:

The Corporation agrees with the recommendation to require supervisor training for all site
supervisors.

OIG’s Response:

OIG disagrees with NYC Mayor’s Office’s assessment of this finding as minor. This finding cites
a violation of the terms and conditions of the MOA (Section II Responsibilities of the Parties,
2q). It is not coincidental that the noted supervisors that did not attend the supervisor training
later violated the terms and conditions of the VISTA program by allowing their members to
engage in prohibited direct service. The Department of Education, Division of Schools Support,
was a host site that misused the VISTA resources available to them (see Finding 4), and the
supervisors in charge of the members in question did not attend the training.

The Corporation’s policy mandates that all supervisors attend training regardless of when they
begin the program. Indeed the supervisory training was offered on one occasion for the NYC
Civic Corps program; however, there were six supervisor trainings offered elsewhere in the
country during the service period that a new supervisor could have attended.

Lastly, the NYC Mayor’s Office responded that, considering that 56 sites were involved, this
finding is so minor that it creates the false impression that there was more of a problem that we
actually indicate. We only reported on supervisors we were aware of that did not attend the
training, based on information obtained from members we interviewed. We did not test the
whole universe of 56 host sites and did not assert that we had done so. Our coverage was
limited to the host sites in which the members we interviewed were assigned, which happened
to cover 15 host sites.


                                                11
 
Finding 6

NYC Mayor’s Office Response:

NYC Mayor’s Office stated “the allegation that one host site hired a VISTA member prior to the
end of the program is inaccurate; the other instance was minor.”

Corporation’s Response:

The Corporation stated it had not been provided with sufficient information to assess the validity
of the finding. Also, the Corporation stated that the NYC Mayor’s Office does not agree that the
members were hired before completing service. The Corporation contends that the requirement
to obtain the Director’s approval applies to the length of the term of service in the initial
application process; the requirement does not extend to a member’s early termination from a
common year-long term of service.

OIG’s Response:

Contrary to the Corporation’s response, the NYC Mayor’s office agreed that one member was
hired prior to the end of the program but, in its opinion, the instance was minor. The two
members that were employed by NYC Mayor’s Office prior to the completion of their VISTA
service violated the VISTA laws and regulations as described in Finding 6. As a result, we
recommended the Corporation recover the questioned costs of $13,956. Our rationale is that
Federal funds were incurred on behalf of the members without meeting the intent of the statute
or the MOA.

Under VISTA regulations, members are to spend one year in full-time service to low-income
communities. Allowing a Project Sponsor to hire a VISTA member in the middle of the service
period does not only weaken and shortchange the program, but it also undermines the statute’s
prescription that the VISTA member term of service should be at least a year. The members
referred to in this report had not completed their projects and, as such, their host sites had not
reached their capacity building goals. This is also evidenced by the fact that there were still
VISTAs serving at the host sites which employed those members.

The disputed member referred in the NYC Mayor’s Office’s response was actually assigned to
NYC Department of Parks and Recreations. The member’s official host site during their service
was NYC Department of Parks and Recreations, meaning NYC Department of Parks and
Recreations was assigned responsibility of the member. The member then worked on a project
with NYC Department of Sanitation, which had a partnership with NYC Department of Parks and
Recreations. The member was hired by NYC Department of Sanitation, while assigned to NYC
Department of Parks and Recreation. NYC Department of Sanitation was not an official direct
host site; however, it was a department within NYC Mayor’s Office. The Corporation signed a
MOA with NYC Mayor’s Office to ensure compliance with VISTA laws and regulations.
Additionally, NYC Mayor’s Office signed a MOA with each of the host sites, including NYC
Department of Parks and Recreation, to ensure compliance with VISTA laws and regulations. It

                                                12
 
was the responsibility of NYC Department of Parks and Recreation to monitor the activities of its
sister organization, to ensure compliance with VISTA laws and regulations.

In any case, both departments in question are organizations within the NYC Mayor’s Office.
The employment of the two members by the NYC Mayor’s Office prior to the completion of the
program violated the MOA between the Corporation and NYC Mayor’s Office. We have
provided a footnote explanation (footnote 8) in the report to clarify the assignment of the
member in dispute.




                                               13
 
                  Appendix C:

Corporation for National and Community Service’s
       Response to the Draft Audit Report
~§TI~~t1W
SERVICE........
                                                                                                                  ~
                                                                                                                  VW
                                                                                                                    ~
      TO:              Stuart Axenfeld
                       Assistant Inspector General for Audjt

      FROM:            Mary Strasser, Director,      AmeriCorpS"VISJ'~
      DATE:            June 20, 2010

      CC;              William Anderson, ChiefFinanciaJ Officer
                       Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
                       Valerie Green, General Counsel
                       Kim Mansaray, Acting Chief Operating Officer
                       Margaret Rosenberry. Office of Grants Management

      SUBJECT:         Response to Draft Report: Audit of Corporation for National and
                       Communi~y Service Grants Awarded to the New York City Office of the
                       Mayor (NYC Mayor's Office)


      Thank you for the opportunity to review the Draft Report: Audit of Corporation for National and
      Community Service grants awarded to the New York City Office of the Mayor (NYC Mayor's
      Office) ("Dra'ft Report"). We have attempted to respond to each of the fmdings in this response,
      and have also raised for your consideration certain concerns about whether this audit complies
      with the generally accepted Generally Accepted Government Auditing Standards ("GAGAS,,).I

      As an initial matter and as discussed previously with your office, the Corporation believes the
      Draft Report should have been issued in two parts. Two separate assessments have been
      combined into one report, which has made certain competing findings difficult to address. The
      audit objectives identified on page one of the Draft Report are related to the NYC Mayor's
      Office oversight and management of the 2009 VISTA program. However, though it is not
      referenced as an audit objecti.ve, the Draft Report also assessed and reported on the
      Corporation's process for reviewing and structuring tJtis project, a topic not related to the
      Mayor's Office management of its approved VISTA program. We know from past experience
      that reviews such as this of Corporation processes can be very helpful, but feel strongly that
      those findings should have been provided in a separate report, as has been your practice in the
      past.

      To comply with GAGAS, an audit must state clearly its objectives and be guided by them in the
      conduct of the audit. Based on the Draft Report, it does not appear to us the stated audit
      objectives were pursued or have been met. See GAGAS Chapter 8, generally. The fIrst stated
      audit objective is to "determine whether the NYC Mayor's Office's financial, Memorandum of


      I As provided in section 4(b)(1)(A) of the Inspector General Act of 1978, the Inspector General's audit work must
      comply with GAGAS, as established by the Controller General of the United States. 5 U.S.C. App. 4(b)(1)(A).

                        Senior Corps          *   AmeriCorps     * learn and Serve America
          1201 New York Avenue. NW       '*   Washington, DC 20525   *   202-606-5000   * www.nationalservkc.g(Jv
Agreement, and program management were compliant with the requirements of the [American
Recovery and Reinvestment Act of 2009] (ARRA) terms and conditions." The Corporation
cannot detennine from the Draft Report whether the auditors conducted any financial testing to
satisfy this stated objective. If the audit objective was to address financial compliance, the Draft
Report should have included some description of transaction testing, as well as a schedule of
Federal costs claimed and any questioned claimed costs identified. There is no such schedule in
the Draft Report and it is unclear if any testing of Federal claimed costs was actually perfOlmed.
Despite this lack of financial testing, the auditors recommend recovery of costs, but without
establishing a sound basis for determining the amount of cost recovery they are recommending.

As you !mow, VISTA projects oftentimes do not include "grants" and funds arc not "awarded."
Rather, the sponsor organization receives the services of one or more VISTA members whose
living allowances are paid by the Corporation. The costs recommended for recovery in the Draft
Report are VISTA living allowances paid by the Corporation, not grant costs incurred by the
Mayor's Office. Therefore, the findings related to monetary recovery do not support a valid
basis of a debt due or recoupment by the Federal government of fund paid to the Mayor's Office.
As a result, the recommendation in the Draft Report seems punitive in nature. Moreover, three
of the findings recommend the Corporation recover "questioned costs" from the NYC Mayor's
Office for non-compliance with VlSTA terms and conditions. As noted above, those costs
recommended for recovery are portions of member stipends/living allowances and education
awards paid by the Corporation. Given the non-grant nature of most VISTA programs, if
Corporation staff detem1ines that a sponsor organization has not complied with VISTA
requirements, Corporation policies dictate that the project be terminated and the VISTA
reassigned. Recovery of funds not actually received and expended by the sponsor organization is
not within the Corporation's legal authority and is not Corporation policy.

To compJy with GAGAS, the Draft Report must also "provide reasonable assurance that
evidence is sufficient and appropriate to support the auditors l findings and conclusions."
GAGAS Ch. 7.03. But, the Draft Report does not provide this assurance. In fact, the conduct of
the audit does just the opposite. It reUses clear questions about the sufficiency of the evidence to
support the findings. The auditors based some of their findings on interviews with VISTA
members and drew conclusions from those member interviews. However, the Draft Report
provides no indications that the auditors substantiated the statements in those interviews (such as
by interviewing the members' supervisors, program staff and community beneficiaries) or
compared the member statements against the approved VISTA assignment descriptions.
Moreover, during the course of the audit and at the exit conference, the auditors did not share
sufficient information to allow the Corporation to corroborate the conclusions set forth in the
Draft Report \vith others (such as VISTA member direct supervisors or management familiar
with the program activities) who had direct knowledge of the circumstances. The auditors
indicated that they withheld this infOimation because they had promised anonymity to the
VISTAs. Tills is unusual in an audit and makes it impossible for the Corporation to conduct an
objective evaluation offhe findings in order to better understand and attempt to resolve theln.

In addition, we were informed by your office that the now former Board Chair, a key source of
infOimatioll, requested an opportunity to speak with your office a second time to provide you
with additional information that could have been relevant to your inquiry, but that you declined


                                                                                                   2
to speak with him . Por these reasons, the auditors' approach in this situation calls into question
whether the auditors had "sufficient, appropliate evidence to provide a reasonable basis for our
findings" as required by the GAGAS .

Finally, some of the conclusions reached in the Draft Report simply do not seem 10 be supported
by the limited facts that are presented. These concerns are addressed more fully below.

DIG Finding 1: Appearance 0/ undue influence/rom Corporation senior management, ill the
review and award process o/Il,e MOA to NYC Mayor's Office.

Corporation Responge to OTG Finding 1: The Draft Report finds the Corporation's (now
fanner) Board Chairman and (now former) Chief of Program Operations (CPO) improperly
involved themselves in the Corporation's New York State Office review and selection process
for five proposed VrSTA member host sites and thus imposed their "undue influence" on the
State Director's decisions.

The Draft Report relies on the asswnption that the Corporation New York State Office Director
was vested with tbe full, independe·nt and autonomous authority to decide where VISTAs will be
placed. nus assumption is incorrect for several reasons . First, it is incorrect to rely, as the audit
does, on Part III .. Paragraph 2.d, of tile VISTA proposed Selection ofAmeriCorps *VISTA
SpollSors and projects: GUidelines, which states, "The Corporation State Director will review
the project application and render a final decision with 15 working days of receipt» because these
"guidel ines" were provided to prospective V1STA sponsors to assist them in seeking the
placement of a VISTA. They do not, and never were intended to, establish any legal authority or
limitation regarding the Corporation's processes for approving VISTA placements. While these
guidelines were published in the Federa1 Register in February 1995 and a comment period was
provided and public comments were requested, they were never adopted as regulations. They
were simply guidance on how to apply and as such, they are irrelevant here. Even if they had
been adopted as regulations, they do 110t purport to vest sole authority for making a VISTA
project decision with the State Office Director. To do so would improperly subvert the explicit
statutory authorities and duties of the Corporation's Chief Executive Officer (CEO) and Board of
Directors to involve themselves in the Corporation's programs and grants. In addition, it would
significantly interfere with the way the Corporation carries out its VISTA program business.

The Draft Report also misinterprets tile plain language of that guidance, On their face, the
proposed gllidelines address only the issue of how much time (15 days) could elapse between the
lime the State Director received an application and delivered a decision on that application; they
do not address the issue of what the State Director (or other Corporation officials) would do in
those 15 days to arrive at that final decision.

Second, this assumption is wrong to the extent it concludes the Board Chair's involvement in the
host site review process was improper. This conclusion reveals a lack of understanding of the
proper role of Corporation Board members. As provided in the National and Community
Service Act of 1990 (the NCSA), the President is to select individuals with "extensive
experience in volunteer or service activities" and who are "experts in the delivery of human,
educational, environmental, or public safety services" to serve on the Board . 42 V.S.c.
§§ 12651 a(a)(2)(A), (C). Board members are selected for the insight and value they can add to

                                                                                                      3
the business of the Corporation and its programs. Board members can and should be consulted
by the Corporation on issues relating to the possible potential success (or failure) of applicants
for Corporation resources, to opine on the content of appl ications, and to enhance the review and
award process by providing insights based on their knowledge of the field.

Third, the Draft Report's conclusion that the Board Chair's or Ule CPO's involvement with tbe
New York State Office's host site review process was inappropriate demonstrates a lack of basic
understanding regarding the need for (and the legal protection of) intra agency deliberations in
                                                                        4




furtherance of CNCS programmatic responsibiHtics as required by statute. It is axiomatic that
open and robust intra-agency deliberations between and among agency officials is essential and
protected. To that end, there is no restriction on substantive communications between the State
OffIce and other CNCS officials, including senior management and the Board, on agency
programmatic and operational matters, any time prior to the issuance of final decisions.

As a practical matter, with regard to VISTA programmatic and operational matters, 11 is
commonplace for State Office officials to engage in delibera1ive communications regarding
VISTA maliers with other CNCS officials outside the State Office including CNCS se·nior
management, the VISTA program office, and legal counsel. To limit this open communication
exchange would not only lack any basis in law, it would be poor management practice and result
in the undue hampering of communication flow and exchange within CNCS. Further, the NCSA
states the CNCS Board of Directors has a statutory duty to advise the CEO wi1h respect to
programs and initiatives as necessary and appropriate to carry out the national service laws.
Given the Board's authority to advise the CEO on national service matters, it follows that a
Board member may confer with the CEO and managerial officials with respect to such matters.
The structure for grant review suggested in the Draft Report would set a poor precedent and
would serve to diminish the Board's ability to fulfill its duties of oversight. Moreover, it would
reduce the level of accountability in the grant de·cision-making process by concentrating the
deliberative authority for those decisions in the hands of just one individual, rather than
encouraging the current system comprised of checks and balances that ensure the quality and
fairness of the process.

fourth, the Draft Report applies something it refers to as tJle "undue influence" standard to the
facts discovered during the course of the audit. But this "UfIdue influence," which appears to
have been created out of whole cloth by the auditors, is irrelevant: It does not apply to the
Corporation or its Board. It does not appear anywhere in the United States Code or in any
applicable regulations or by~Jaws? The only relevant applicable legal authority to a situation
like this one is the long-established, clearly-codified, and strictly applied Standards of Etbical
Conduct for Employees of the Executive Branch (Standards of Ethical Conduct). The Standards
of Ethical Conduct apply, by law, to both the Board Chair and the CPO. There are, in fact, two
Standards of Ethical Conduct (5 CFR part 2635, subparts E and G) that set out the applicable
standards for resolving questions like the one raised by the Draft Report. Those standards deal
with (1) avoiding the appearance of the loss ofirnpartiality in perfonning official duties and (2)
avoiding the misuse of position (which it seems that the Draft Report calls "undue influence").


2The "undue influence" definition applied by the OIG does appear (verbatim) at the online
internet research site www.Answers.com.

                                                                                                     4
Ethics officials at the Corporation have reviewed these standards and the findings in the Draft
Report and determined that neither the Board Chair nor the CPO has violated the standards. The
Corporation would, of course, be willing to review that analysis with yom office, if that would
be helpful to you in resolving Finding 1.

Fifth, the facts set forth in the Draft Report simply do not support the conclusions drawn therein .
In this case, the Corporation state office reviewed and approved over 50 sites in the Mayor's
Office VISTA program. Of the flve sites given additional consideration by the State Office, only
three were ultimately approved for inclusion in the VISTA program. The State Director made
the decision based on relevant factors and, particularly in light of the decision to approve only
three of the five, there is no evidence that this decision was based on anything other than facts
that may have come to light during the reconsideration.

The Draft Report also concludes that because the Chair had "tics to the Mayor's Office," he
improperly loterfered in the VISTA selection process on behalf of the City. But this makes no
sense. According to the Report, the Board Chairman's involvement in the selection process
occurred on an intermittent basis from January tl1!ough July 2009. For thai entire period, he was
a member oftbe CNCS Board and the Daniel Paul Professor of Government and the Director of
the Innovations in American Government Program at Harvard's Kennedy School of
Government. There is no evidence cited in the Draft Report that proves or even suggests that he
was seeking employment with the Mayor's Office (or anyone else for that matter) during that
time period. So even though it is true that the Board Chair became the Deputy Mayor of New
York City on April 30,.20 10, almost one year after the VISTA program decisions were made, it
is not reasonable to conclude that this constitutes a "tie" to the City that motivated the Board
Chair to become involved in a significant program decision more than a year earlier. Similarly,
the fact that the Mayor of New York wrote a foreword for the Board Chair's book is not
evidence of a "tie" between the two. The foreword was written in November 2009, well after all
VISTA application decisions were made. Lastly, the report suggests that the fact that the City of
New York was the recipient o[ certain awards 3 from a program directed by the Board Chair is
evidence of a ';tie." But New York had won that award (and other good government awards) for
several years before the Board Chair had any connection to the awards. Any suggestion that the
award process is flawed is outside the scope of the authority of (he OIG and the audit conducted
here. The Report also provides no evidence whatsoever for its conclusion that these events were


3 The Acquisition Fund won an IAGA award. The Acquisition FlU1d is a for-profit financial firm
that offers acquisition and predevelopment loans to reat estate developers to create and preserve
 affordable. housing throughout New York City. The Acquisition Fund is represented and
managed by three entities (none of which is the City of New York Mayor's Office): 1) JP
 Morgan Chase Bank, N.A.; 2) Enterprise Community Investment, Inc.; and 3) National Equity
 PlU1d, Inc. The Acquisition Fund has many pmtners, including major foundations, major
·financial institutions) and public and private investment groups in New York, along with the City
 of New York. Even though the City of New York is one of its many partners, the NYC Mayor' 5
 Office per se is not a partner, but rather the NYC Department of Housing Preservation and
 Development, and th.e NYC Housing Development Corporation. (See
 http://www.nycacguisitionfund.com)

                                                                                                  5
linked to one another in any way. The conclusion of a "tie" is pure speculation-not reliance on
"sufficient and appropriate evidence."

DIG Recommendations

We recommend Ihat the Corporation:

   1a. Develop clear policies and procedures, in the Board of Dil'eclors bylaws, to preclude
       Directors from inlervening!participal ing in the opera! ional decision ofa warding grants
       or ViSTA resources. This would avoid the appearance or perception a/preferential
       trealmenl or undue influence. The policy should specifically address contacls wilh
       applicants during the decision-making process that could be miscollstrued as undue
       influence; and

   1h. Establish a Jormal internal review panel Jor reviewing ViSTA applications and assessing
       host site applications prior to the award o/ViSTA resources. The review panel should
       have a slandard procedure manual to provide guidance for the review process, including
       the responsibilities oj reviewers, documenting the preview process, and dispute
       resolution procedures.

Corporation Response to OIG Recommendation:

   lao As you are already aware, the Corporation amended the Board of Directors Bylaws
       (effective April 29, 2011), including a series of amendments that further clarify
       applicable standards of conduct for Board members. At prescnt, these Bylaws:
       • State that Board members are subject to th~ Standards of Ethical Conduct. See CNCS
           Board Bylaws, Section 4.01.
       • Restate the appl icable standards set forth in the Standard of Ethical Conduct - i.e.,
           that Board members arc generally prohibited from participating in CNCS grant
           program activities with entities with which they have had a "covered relationship"
           within the past calendar year (e.g., entities with which they are an officer, director,
           trustee, or employee or have been within the past calendar year).
       • Restate the exception to the general prohibition, as provided in the Standards of
           Ethical Conduct. In particular, Board members may only participate with entities
           with which they have a covered relationship, after the CNCS Designated Agency
           Ethics Official (DAEO) determines that participation would not be a conflict of
           interest or the DAEO grants a written authorization or waiver for the Board member
           to participate. See CNCS Board Bylaws, Section 4.03. This general prohibition and
           the exception process following required DAEO consultation ensures that Board
           members avoid the appearance of a loss of impartiali ty.

   I b. In light of our disagreement wi th finding 1, we do not agree with the intent of
        Recommendation 1b. VISTA project applicants are not selected based on a competitive
        model because project applications are reviewed on an ongoing ("rolling") basis
        throughout the fiscal year. The Corporation stafftyptcally work closely \vith
        organizations to identify needs, develop concept papers, and then review and approve the


                                                                                                   6
       project. The Corporation's existing guidelines for selecting VISTA projects and sponsors
       provide clear guidance related to the selection process, including the responsibilities of
       state office staff and other members of the Corporation team.


OIG Finding 2: Vllcleat' and questionable host site organization applications.

Corporation Response to OIG Finding 2: The Corporation cannot fully respond to this finding
because the Draft Report does not provide sufficient information to assess and resolve the
finding. The Draft Report finds that of the 19 host site applications reviewed by the auditors, 11
"did not include measurable telms or outcomes related to the sustainability of project activities."
Of these 11 applications, however, only four were identified and disC\lssed in the Draft Report.
The Draft Report also does not describe the criteria it applied to establish what it means by
"measurable." Without knowing which applications are being discussed and what criteria were
applied to evaluate them, we cannot assess whether, (1) the approved applications were
compliant with VrSTA program tenns, (2) the host site implementation of the program deviated
from the approved application, or (3) neither occurred and there was no issue. One site) the New
York Legal Assistance Group (NYLAG), cited in the Draft Report is a nonprofit law office
dedicated to providing pro-bono legal services in civil law matters to low~income New Yorkers.
In our estimation, NYLAG clearly has an anti-poverty mission. We also conclude that the
Department of Parks artd Recreation docs work related to VISTA's anti-poverty mandate. That
organization's project mission) which was approved by our state office, was to develop work
force development trainings in areas of New York City (including some that are not
impoverished) designed to transfer skills to at-risk youth in an effort to counter poverty. Both of
these project missions were well within VISTA's priority areas for fiscal year 2010, and were
clearly aligned with specific VISTA guidance for Recovery Act programming. (See
hLtp://www.Jlationalservice.gov/pufl09 0606 recovel)' plan acvisla.pdO.

OIG Recommendations

We recommend that the Corporalion:

   2a. Establish aformal internal review paneljor reviewing VISTA applications and a.~sessing
       hosl sife applications priol' to the award o/VISTA resources. This will ensure that hos!
       sile organizations selected have a need/or VISTA members and are qualified and eligible
       to conducl a VISTA program; and

   2b. Develop a standard procedures manual to proVide guidance for Ihe review panel. The
       manual should include the responsibilities o/reviewers, formaL documen!otion .a/the
       review process, and procedures for dispute resolution. The eSlablishmeni of a formal
       infernal review panel will enhance the lransparency and integrity of Ihe review and
       award process.

Corporation Response to OIG Recommendation: In this finding, the OIG repeats its
recommendation from Finding 1 to change the VISTA processes for reviewing and approving
VISTA applications. As noted above, the Corporation's existing guidelines for selecting VISTA


                                                                                                 7
projects and sponsors provide clear guidance related to the selection process, inclucling the
responsibilities of state office staff, and specific criteria for project approval.


OIG Finding 3; VISTA members e'lgaged in unallowable direct service.

Corporation Response to Finding 3: Direct service is generally not allowed in the VISTA
program. However, direct service to achieve a sustainable outcome is allowed. The Draft. Report
does not describe how the auclitors defined direct service or what criteria were used to detennine
if VrSTA members were engaged in unallowed direct service. Some of the examples of
unallowed direct service cited in the Draft Report are actually capacity-building activities (like
training citizens to take care of trees, for example). It is also not clear how the auditors
calculated the percentage of time they asserted the members spent on direct service. Therefore,
tbe Corporation does not believe the process complies with the GAGAS. Under GAGAS,
auditors must plan and perform the audit "to obtain sufficient, appropriate evidence to provide a
reasonable basis" for the findings and conclusions based on audit objectives. It is unclear in the
Draft Report if the auditors based their finding on interviews with VISTA members and drew
their conclusions solely based on those member interviews, or whether they engaged in
additional evidentiary gathering and review.

In order to determine the sustainability of VIST A projects and any percentage of time spent in
direct service, the auditors should have interviewed the VrST As and their supervisors, as well as
other program staff and members of the beneficiary commw1ity. Only with the benefit of
information obtained from all of these sources could a reviewer possibly make an objective,
reliable determination. In addition, the auditors should have reviewed t.he VrSTA member's
Volunteer Assignment Description (VAD) and compared the member's activities to the approved
V AD to make sure the member was completing their service assignments as described in the
VAD. Corporation state office staff review and approve all VADs. If the VISTAs were engaged
in activities described in the VADs, the activities were, in the Corporation's view, allowable.
The Draft Report shows no evidence that the auditors included that type of review in their audlt
program.

In addition, the interviews with VISTA members took plnce approximately sLx months after they
completed their year-long service, yet, the auditors appear to have relied solely on the VISTA
member's interpretation of unallowed activities and their recollection of percentages of time
spent on those activi6es as the basis for the amount of funds they recommend recovering. To
calculate a reasonable estimate of time spent performing unallowed activities, if any, after such a
lengthy period of time had elapsed, in a manner consistent with GAGAS, the auditors should
have reviewed activity reports~ timesheets, and other service doclUnentation along with VISTA
member interviews and discussed the fmding with VISTA supervisors and program staff. They
do not. appear to have done so. In short, the Corporation questions whether the auditors' methods
support the asse11ion that the auditors had "sufficient, appropriate evidence to provide a
reasonable basis for our findings."




                                                                                                 8
010 Recommendations

We recommend that the Corporation:

   3a. Enhance control mechanisms to ensure that VISTA sponsors comply with laws.
       regulations, and policies. These should emphasize policies that delineate the
       requirements and expectations for ViSTA recipients and outline the consequences of
       violating the program's laws and regulations;

   3b. Emphasize a proactive means by which VISTA members can communicate their concerns
       or report alleged prohibited services they have been assigned to engage in, such as direct
       service or non- VISTA related activities. This will enhance early intervention and
       detection of noncompliance,' and

   3e. Recover the questioned costs oj$50, 999.fi'ol11 NYC Mayor's Office/or noncompliance
       with VISTA terms and conditions.

Corporation Response to DIG Recommendations:

The Corporation has numerous systems and procedures in place to moni tor whether VlST A
recipients comply with applicable laws and regulations. VISTA members who have questions or
concerns about compliance are encouraged to communicate their concerns and report alleged
violations. During the Ple~Service Orientation (PSO), required of aJl VISTA members, VISTAs
are encouraged to report their concerns to Corporation staff. State office staff conduct site visits
to VISTA sponsor organizations and must approve all V1STA Assignment Descriptions (V ADs)
before members can begin their service. Training staff review the V AD with each VJSTA during
the PSO and emphasize the member' s responsibility to report alleged violations of service if they
determine they are not meeting their assignment descriptions. Corporation monitoring processes
may need to be enhanced for special circumstances, such as meeting ARRA requirements when
timelines for development and selection of projects arc short and projects are larger in scope than
is standard practice. In response to the recommendations, VISTA will work with the Office of
Oversight and Monitoring to review our control mechanisms to determine if we have adequate
processes in place to monitor slIch large projects.

The Corporation disagrees with Recommendation 3c regarding questioned costs. The costs
recommended for recovery are portions of member stipends/living allowances and education
awards paid by the Corporation. There are no living allowance/stipend costs to "disallow" and
recover because no federal funds were ever awarded. Given the non~grant nature of most VISTA
programs, if Corporation staff determines that a sponsor organization has not complied with
VISTA requirements, policies dictate we end the project and re~assign the VrSTA member.
Absent a clear fraud, recovery of funds from the sponsor organization for costs not incurred by
the sponsor organization is not Corporation policy and lacks legal authority. However, program
staff are responsible for properly certifying education awards . If the Corporation detennines
during audit resolution that the program engaged the members in unallowable activities, we will
detennine the education awards to be improperly certified and require the program to reimburse
the Trust for education awards accessed by tile VISTA members.


                                                                                                  9
OIG Fillding 4: Uncertainty thai service provided by certain IIost sites met tI,e statutory
mandate of VISTA to strellgthelL find supplement efforts to eliminate and alleviate poverty.

Corporation Response to Finding 4: The Draft Report's conclusions in Finding 4 are unclear.
The Corporation could not determine if the auditors were evaluating whether the planned and
approved activities were allowable anti-poverty activities or whether the host sites fell short of
the objectives approved in their applications. It also appears that the Finding identified under-
utilization of VISTA and a lack of involvement of the host sites in the initial plaJUl.ing and
development of the program. The evidence presented by the auditors is not sufficient to
determine if a project had or lacked an anti-poverty focus. From the evidence presented, we are
only able to assess whether the program was planned appropriately to meet its objectives. To
determine whether particular service work aUeviates poverty requires analysis of detailed factual
information about tbe service work in question. The Draft RepOlt did not include that type of
information. Thus, without more than was provided in the Draft Report it is impossible to reach
a conclusion here. VISTAs themselves, as they build the capacity of an organization, may not be
directly fighting poverty, and sometimes do not see the ultimate impact of their service, bUl that
does not necessarily mean that their program fails to satisfy VISTA's statutory mandate.

DIG Recommendatiolls

We recommend thaI the Corporation:

   4a. EmphaSize a proactive means by l,vhich VISTA members can communicate Iheir concerns
       or report alleged prohibited services they have been assigned 10 engage in, such as direct
       service or non-VISTA related activities. This will enhance early intervention and
       detection a/noncompliance;

   4b. Enhance Ihe VISTA performance reporting tool tv capture relevant information that will
       provide the Corporation with sufficient information to determine the success of the
       program. The pe1iormance repo,.t should clearly include measures that can be used 10
       establish a baseline to sufficiently analyze the peliormance of the project. implementing
       an effective tool will enhance accountabilility and transparency;

   4c. Recover the questioned cos/s of$35, 342from NYC Mayor's Office for noncompliance
       wilh ViSTA terms and conditions; and

   4d. EfI.sure project sponsors actively involve host site organization in the planning and
       development phase of the project. Project work plans should be developed as a joint
       ejJorl between the project sponsor and the hosl sire organizations to maximize the
       opporlunity for a successful projecl.

Corporation Response to Recommemlations: Recommendations 4a and 4c for th.is fmding arc
repetitive of those under Finding 3 and are addressed above. However, Recommendations 4b
and 4d are unique and we agree that project sponsors should involve host sites in planning and
deVelopment. Regarding 4b the Corporation believes that the current progress reporting and
                            j


monitoring tools are sufficient for determining if VISTA projects are meeting their objectives.
                                                                                               10
Regarding 4d, the local sites may not have been as involved as they should have been due to the
size of the program. In the ordinary course, projects such as this one typically start out small and
grow in a more measured way. We will review our guidelines to detennine if we need to make
any changes to accommodate projects such as this one.

OIG Finding 5: A few host site supervisors did not attend the mandatory supervisor
orientation.

Please see below for the Corporation's response to lhis Finding 5 and the accompanying
Recommendation.

DIG Recommendatioll

We recommend that the Corporation:

    5. Ensure that all supervisors attend the supervisor orientation to enhance their knowledge in
       complying with VISTA regulations.

Corporation Response to OIG Recommendation: The Corporation agrees 'vvith the
recommendation to require supervisor training for all site supervisors. [n order to facilitate this in
a cost-effective way, VISTA has developed on-line training materials for Supervisor's
Orientation, and has shifted the responsibility for implementing the training for site supervisors
10 the sponsoring organizations.

OIG Finding 6. Certain host sites hired VISTA m.embers prior to tlte end o/the
program resulting in early terminations o/their VISTA service.

Corporation Response to Finding 6: The Corporation has not been provided with sufficient
information to assess the validity of the Finding. Moreover, the Corporation is aware that the
Mayor's Office does not agree with the Draft Report's conclusion that members were hired
before completing service.

The auditors drew conclusions without fully reviewing and understanding current practice and
how the VISTA statute is implemented. The auditors cite the law that says VISTAs "may be
enrolled initially for periods of service not less than one year unless the CEO determines, on an
individual basis, that a period of service of less than one year is necessary .... " This is related to
initial plaIU1ing and development of the VISTA project for the length of the term of service, not
an after· the-fact decision by a member to end the approved one-year term early. There is no
requirement t11at the organization with a previously~serving member get the approval of the
VISTA Director before hiring the member. The requirement applies to the VISTA Director
approval of the length of the term of service in the initial application; the requirement does not
extend to a member's early tennination from a common yeat'-Iong term of service.




                                                                                                      11
DIG Recommendatiolts

We recommend Ihat the Corporation:

    6a. Include, in all MOAs, a clause thai VISTA sponsors/host site organizations are prohibited
        ji-om hiring VISTA members prior to the end o/their one-year term a/service, unless the
         e."ception stated in the regula/ion applies. This will ensure that VISTA programs and
         th.eir members fully meet their objectives and goals;

    6b. Place a strong emphasis on the past perjormance 0/existing grantees when considering
        recipients/or subsequent grants or VISTA resources. This will ensure the grantee
        possesses the requisite satisfactory track record necessary to complete the program,' and

    6c. Recover the questioned costs of$13, 956 from NYC Mayor's Office for noncompliance
        with VISTA terms and conditions.

Corporation Response to OIG Recommendations: The Corporation has not been provided
with sufficient infonnation to assess the validity of the Finding, and therefore disagrees with the
Recommendations. Specifically, the Corporation needs the names of the members in question to
resolve the issue with the Mayor's Office.

In addition, the Draft Report misconstrues the Corporation's long-standing practice for
implementation of certain provisions of the Domestic Volunteer Service Act of 1973 (DYSA).
The Draft Report cites the DVSA provision which states that ViSTAs "may be enrolled initially
for periods of service not less than one year unless the (CEO] determines, on an individual basis,
that a period of service of less than one year is necessary .... " This statutory provision is
implemented during the initial planning and deVelopment of tJ1e VISTA project, specifically in
detenninulg the length of the term of service. The provision is not applicable to an after-the-fact
decision to end the approved one-year term early. There is no requirement that the organization
get the approval of the VISTA Director before hiring a member who has terminated early.

The consequence for a VISTA member who resigns before her term ends in order to take a paid
position with her sponsoring organization is that she relinquishes her end of service award
(education award or cash stipend). and of course, discontinues receipt of a Ii ving allowance.
There is no penalty for sponsoring organizations that choose to hire ajust-dcpaned V1STA
before her scheduled full term expires, except that the VISTA would likely not be replaced by
another at the project. The resources would most likely be Ie-directed to another deserving non-
profit organization fighting poverty.

Moreover, a goal of VISTA is capacity-building for the sponsoring organization. In certain
situations, the Corporation may conclude that an organization that is capable of hiring a fanner
VISTA had already met its capacity-building objective ahead of schedule. If a member elects to
terminate his or her service early, it could be unnecessarily prescriptive to prohibit a sponsor
organization from hiring that member lU1dcr the rationale that the member's service as a VISTA
is somehow necessary in order for the organization to fully meet its objectives.



                                                                                                 12
                    Appendix D:

NYC Mayor's Office Response to the Draft Audit Report
                                        THE CITY OF NEW YORK
MICHAEL A. CARDOZO                     LAW DEPARTMENT
Corporation Counsel                           100 CHURCH STREET                                      (212) 788-0800
                                              NEW YORK, NY 10007                                Fax: (212) 227-5641
                                                                                             mcardozo@law.nyc.gov

                                                          June 3, 2011


       VIA E-MAIL AND REGULAR MAIL

       Stuart Axenfeld
       Assistant Inspector General for Audit
       Office of Inspector General
       Corporation for National and Community Service
       1201 New York Avenue, N.W., Suite 830
       Washington, D.C. 20525

                             Re: Draft Audit Report regarding an Audit of the Corporation for
                             National and Community Service Grants Awarded to the New York City
                             Office of the Mayor (“Draft Report”)

       Dear Mr. Axenfeld:

              Thank you for the opportunity to comment on the Draft Report, which you sent to
       Diahann Billings-Burford, the City’s Chief Service Officer. I am responding on behalf of the
       City of New York (“City”). Our response will go into detail but, at the outset, you should
       understand the following: The Draft Report is rife with distortions of fact and mistakes of
       law, violates basic audit principles, and contains baseless and scurrilous innuendo that
       serves no legitimate purpose.


                                  Introduction and Summary of Response

               In his January 2009 State of the City Address, Mayor Bloomberg announced his intention
       to answer President Obama’s call for a new era of service with a robust and innovative program
       to increase “impact volunteerism” in New York City. Impact Volunteer strategies are those that:

                      •   are targeted to address local needs;
                      •   employ best practices in volunteer recruitment, engagement, deployment, and
                          retention to increase impact; and
                      •   have clear outcome measures to gauge progress against defined goals.
        To this end, Mayor Bloomberg aimed to establish a comprehensive service program that
would address New York City’s needs and broadly engage New Yorkers in efforts to strengthen
their own communities. As a key component of this effort, the City proposed to engage
AmeriCorps VISTA volunteers in the newly-conceived NYC Civic Corps. As a result of the
VISTA grant in question in this audit, the first NYC Civic Corps was launched in August 2009.
193 VISTA members were deployed in small teams to 56 sites for a period of one year, with the
goal of building sustainable Impact Volunteer capacity at the local host sites. 1

        From August 2009 to July 2010, the period of the grant being audited, the NYC Mayor’s
Office implemented a new model of how a local government could use VISTA funds provided
by the Corporation for National and Community Service (“CNCS”). Specifically, the goal was
to manage a corps of VISTA members who would build capacity in organizations to address a
variety of local challenges. The NYC Civic Corps built capacity by building and improving
volunteer programs to address needs across the City in the areas of: helping our neighbors in
need; strengthening communities; environment; education; emergency preparedness; and health.
The program was incredibly successful. For the program year in question, the City’s VISTA
members engaged 55,413 community volunteers who served 987,444 clients. In addition, the
members also developed $1,073,485 in cash resources and secured in-kind donations that had a
total value of $3,920,123.

       Furthermore, the VISTA program in question was successful when measured against
CNCS’s targets. According to CNCS, the NYC Civic Corps exceeded the targets set by CNCS
and NYC Service for seven goals and barely missed on two others. On only a single measure did
the program not produce results within 15 percent of its target.

        Yet, despite this success, your audit creates the false impression that this was a failed
program, doomed by alleged procedural improprieties. Central to your baseless allegations is the
false conclusion that Stephen Goldsmith—now the City’s Deputy Mayor for Operations, but the
Vice Chair of the CNCS Board of Directors at the time the grant was awarded—improperly
intervened in a dispute between the City and the CNCS State Office over whether a handful of
sites should have been included as host sites. As we will show below:

           •   There was no improper “tie” between Stephen Goldsmith and the City while he
               served on the CNCS Board.

           •   There was no undue influence by CNCS’s senior management on behalf of the
               City.

           •   The process for and outcomes of the grant were in all respects proper:

                  o The activities of the host sites were governed by detailed VISTA Activity
                    Descriptions;



1
 The facts presented in this letter are based on documents supplied by and discussions with City
employees.


                                                2
                   o With only minor exceptions, VISTA members did not engage in direct
                     service;

                   o The City’s VISTA program was structured to meet, and was
                     overwhelmingly successful in meeting, the VISTA anti-poverty goals.

                                              ****

                       There Was No Improper “Tie” between Stephen
                       Goldsmith and the City while he Served on the
                       CNCS Board

       While Finding 1 of the Draft Report contains your official allegation that CNCS senior
management and Stephen Goldsmith in his role on CNCS’s Board exercised “undue influence”
over the selection of host site organizations for the grant in question, you placed your most
irresponsible allegations and innuendo regarding the alleged undue influence in the Audit
Conclusions section of the Draft Report. We will therefore respond to these portions of the Draft
Report separately.

        On page 3 of the Draft Report, you state that, “[g]iven [Mr. Goldsmith’s] ties to the NYC
Mayor’s Office, he should not have intervened in the host site selection process.” You then go
on to list those “ties.” Before addressing their defects, however, some context is in order. In the
prior, unofficial draft of the Draft Report, you claimed that Mr. Goldsmith’s “prior relationship
with the NYC Mayor; and his subsequent employment with the NYC Mayor’s Office”
contributed to the appearance of undue influence. In response—in a letter from me to Kenneth
C. Bach, the Acting Inspector General, dated April 11, 2011 (copy attached as Exhibit A)—I
noted as follows:

               It is beyond doubt that the inclusion of unsupported innuendo is
               inconsistent with applicable audit standards. Under Section 4(b)(1)(A) of
               the Inspector General Act of 1978, Inspectors General must “comply with
               standards established by the Comptroller General of the United States for
               audits” of federal agencies. These standards, set forth in the Government
               Auditing Standards (known as GAGAS), clearly state that to comply with
               GAGAS audits must “provide reasonable assurance that evidence is
               sufficient and appropriate to support the auditors’ findings and
               conclusions.” GAGAS §7.03. Here, it is not a question of whether the
               evidence was “sufficient” to support the Draft Report implications.
               Rather, there was—and is—no evidence of the “prior relationship” and
               quid pro quo, and thus no basis for the Draft Report’s attempts to tar the
               reputation of the Mayor and Mr. Goldsmith.

        Apparently recognizing the accuracy of this statement, you removed the “prior
relationship” phrase from the official Draft Report. However, you were apparently unwilling to
also delete the conclusion that flowed from your unsupported innuendo, i.e., that there was an
appearance of undue influence. Rather, you instead cited facts that, even if true, are irrelevant to
this audit, and in no way show that any sort of improper “tie” existed between the City and Mr.


                                                 3
Goldsmith when he was on the CNCS Board. Stated differently, the Draft Report still falls
woefully short of the GAGAS standard that evidence be “sufficient and appropriate” to support
your allegations.

        As stated in my letter, there was no relationship between Mr. Goldsmith and the Mayor at
the time of the grant. Other than being one of several participants at a Gracie Mansion breakfast
in August 2008, Mr. Goldsmith had no discussion of any kind with the Mayor until March 30,
2010, at a function at Harvard University. Furthermore, also as stated in my letter, Mr.
Goldsmith’s appointment as Deputy Mayor for Operations was announced on April 30, 2010, a
full year after the VISTA grant was awarded. In fact, no one discussed with Mr. Goldsmith the
possibility of employment with the City until March 2010, well after the grant was awarded.

        The “ties” now alleged in the Draft Report show absolutely no significant relationship
between Mr. Goldsmith and the City at the time of the grant. The first alleged tie is that Mr.
Goldsmith had a “prior working relationship” with one of the City’s Deputy Mayors due to
“working on case studies related to a grant.” This is difficult to address, as it is unclear what
relationship is being referred to. However, to the best of our understanding, the “working
relationship,” if it could be called that, was simply the following: Mr. Goldsmith supervised a
study by a Kennedy School student that was published in 2007. While the study focused on the
City and one of its deputy mayors, Mr. Goldsmith did not collaborate with the deputy mayor, did
not do any research or field work, and was not involved in writing the study (although he did
review it before publication). It is difficult to see how such a tenuous connection is indicative of
anything, let alone how it can serve as the basis for your apparent conclusion that Mr. Goldsmith
was motivated by this “tie” to intervene.

         The second alleged tie is that the City received an Innovations in American Government
Award from the John F. Kennedy School of Government at Harvard University at a time (2008)
when Mr. Goldsmith was Director of the Innovations in American Government Program at the
Kennedy School. It is unclear why you consider this significant enough to rise to the level of a
“tie” between Mr. Goldsmith (at the time of the grant in question) and the City, but presumably
your assumption is that recognition of the City by the Kennedy School was an unusual event.
However, in fact, the City won or was a finalist for the Innovations in American Government
Award not only in 2008, but also in 2009, 2006, 2005, 2003, 2000, 1999, 1998, 1997, 1996,
1995, 1994, 1993, 1992, 1991, 1990, 1987, and 1986. In addition, the awards are made
following an extensive, five-round review process. As stated on the Kennedy School website, all
applications are first reviewed by experts, “both practitioners and scholars,” to determine that
they meet the Innovations Awards criteria. Next, “experts . . . evaluate applicants’
supplementary applications and select 25 programs from the applicant pool to advance in the
competition.” Third, further research is performed and the finalists are chosen from among these
25 programs. Fourth, evaluators visit the finalist programs for a two-day assessment. Fifth, the
finalists present their programs to the National Selection Committee. Rather than being of any
relevance to this audit, the 2008 award was simply one in a long line of acknowledgements by
the Kennedy School of the excellent work done by the City, acknowledgements arrived at
through a rigorous process involving multiple evaluators. It is ludicrous for the Draft Report to
suggest that the City’s receipt of the Innovations in American Government Award in 2008
showed any special connection between Mr. Goldsmith, as the program director, and the City.



                                                 4
         Mr. Goldsmith had no more special “tie” to the City by the mere fact of the City’s
receipt of the 2008 award than he did to any of the other award winners and finalists, or than any
other member of the Ash Center for Democratic Governance and Innovation (the portion of the
Kennedy School responsible for the Innovations in American Government Award) had to the
City.

        Finally, you state the following as the third alleged tie: “We observe that the Mayor of
NYC contributed to [Mr. Goldsmith’s] book, ‘The Power of Social Innovation,’ by writing the
foreword for the book, dated November 2009.” Again, it is hard to make any sense of this
attempt at innuendo. Are you suggesting that the writing of the foreword is proof, approximately
half a year after award of the grant in issue, of an earlier relationship? If so, I repeat that there
was no relationship between the Mayor and Mr. Goldsmith at the time of the grant. Are you
instead suggesting that the Mayor wrote the foreword as a reward for Mr. Goldsmith’s efforts
regarding the grant? Such a suggestion would be outrageous. It is untrue and there is no
evidence for it. Hints and suggestions of scurrilous conclusions based on facts irrelevant to the
audit are inconsistent with the professional standards to which you are held.

       Consistent with your invitation in the letter transmitting the Draft Report, attached please
find as Exhibit B an April 11, 2011, letter from Mr. Goldsmith’s private counsel—sent in
response to the prior, unofficial draft of the Draft Report—concerning matters relating to this
audit.

                       Response to Finding 1—The Draft Report Fails
                       to Show Any “Undue Influence” by CNCS’s
                       Senior Management on Behalf of the City

        The essence of your Finding 1 is this: CNCS’s State Office had originally rejected five
host sites put forth by the City—56 were ultimately accepted—because of programmatic
concerns. Upon the request of Mr. Goldsmith, then Vice Chair of the CNCS Board of Directors,
CNCS’s Chief of Program Operations then asked the State Office to revisit the application in
regard to the five rejected sites; three of the five were ultimately accepted. You believe these
facts show “undue influence,” because, in your estimation, “undue influence” consists of “any
act of persuasion that overcomes the free will and judgment of another, inducing that person to
do something he or she would not otherwise do.”

       There was simply nothing inappropriate about having the State Office reconsider its
decision.

        First, your definition of “undue influence” is, to say the least, unusual. Rather than
defining “undue influence,” it simply defines “influence” and then deems it to be undue. In other
words, a common sense understanding of undue influence is that the methods used to exercise
the influence are undue. Your definition, however, simply turns into undue influence any
direction (let alone request) by a supervisor to a subordinate to take an approach other than that
proposed by the subordinate.

       Furthermore, you acknowledge that the request by senior staff did not violate any
applicable rules or guidelines, because you recommend the development of a standard procedure



                                                 5
manual that would include, among other things, a procedure to resolve questioned decisions by
CNCS officials. In other words, the action of CNCS’s senior staff—to request that the State
Office reconsider its decision in light of the dispute—did not violate any dispute resolution rules
because such rules did not exist. In addition, because delegation of a function by the Chief
Executive Officer (whether originally a function of the Board or of the CEO) does not relieve the
CEO of “responsibility for the administration of such function,” see 42 U.S.C. §12651d(d)(2),
CNCS senior staff was exercising its statutory powers when it asked the State Office to
reconsider its decision.

        You also recommend that the bylaws of the CNCS Board be amended to develop “clear
policies and procedures” to preclude directors from intervening in grant determinations.
However, the bylaws already contain a provision that addresses the general issue, see Section
4.04, and this existing provision would not have barred Mr. Goldsmith’s request to the Chief of
Program Operations. 2         Furthermore, barring all Board member involvement in grant
determinations would be inconsistent with CNCS’s authorizing statute. See 42 U.S.C.
§12651b(g)(2), (5), and (10) (detailing the Board’s involvement in grant awards). This is true
even if the guidelines for selection of VISTA sponsors, cited in the Draft Report, are taken as a
delegation from the Board to the CEO and CNCS staff. See Bylaws, Section 1.01(c)(3)
(notwithstanding delegation by Board to CEO, “the Board retains ultimate responsibility for
ensuring its powers and duties are properly exercised, and must monitor, through regular reports
or other mechanisms, the Chief Executive Officer’s performance in carrying out the delegated
authority . . . .”). Finally, barring all Board member involvement in grant determinations would
in fact be irresponsible; Board members should become involved when necessary to exercise
appropriate oversight.

       Finally, it is worth noting that, rather than the complete capitulation suggested by the
Draft Audit, the State Office changed its position on only three of the five sites in question. One
would think that, if CNCS’s senior staff had truly exercised undue influence, the State Office
would have changed its position regarding all five sites. Instead, the State Office was still able to
exercise its judgment, and again rejected two of the sites in question.

      In sum, your allegation of undue influence by CNCS’s senior management is simply
wrong: You invent a nonsensical definition of “undue influence” and then, despite the absence

2
    Section 4.04, entitled Limitation on Participation, states as follows:

          (a) Except as provided in section 4.04(b), a Member shall not participate in the
              administration of a grant program (including any discussion or decision regarding the
              provision of assistance or approved national service positions, or the continuation,
              suspension, or termination of such assistance to any program or entity) if the Member
              is, or was in the previous calendar year, an officer, director, trustee, full-time
              volunteer, or employee of a program or entity that has an application pending before
              the Corporation.
          (b) A Member may participate after disclosure of the relevant facts to the Designated
              Agency Ethics Official, if the Designated Agency Ethics Official determines that the
              participation would not constitute a conflict of interest or the Designated Agency
              Ethics Official grants an authorization or waiver pursuant to the federal ethics laws.


                                                    6
of any evidence of misbehavior or violation of rules, conclude that the actions of CNCS’s senior
staff met your conveniently tailor-made definition.

                       Response to Finding 2—The Activities of the
                       Host Sites Were Governed by Detailed VISTA
                       Assignment Descriptions (“VADs”)

       Finding 2 is defective from the start. The Draft Report states, “Of the 19 host site
applications reviewed, 11 did not include measurable terms or outcomes related to the
sustainability of the project activities.” However, instead of then setting forth the facts on which
you base your finding—that 11 site applications were deficient—the Draft Report breezily
discusses only four allegedly deficient applications.

        This approach clearly violates the GAGAS audit standards to which you are bound.
Under GAGAS §8.14, auditors are supposed to “present sufficient, appropriate evidence to
support the findings and conclusions in relation to the audit objectives.” Among other things,
this standard requires your report to be complete, which means that “the report states evidence
and findings without omission of significant relevant information related to the audit objective.”
GAGAS §A8.02(c). Rather than state the evidence to support the finding of 11 deficient site
applications, the Draft Report explicitly provides details about only four, thus depriving the City
of the ability to defend itself against your apparently unsupported finding. Furthermore, this
unfairness will not, of course, be mitigated if you decide—in reaction to our response—to
include the missing allegations in the final report. Under applicable auditing standards, the
purpose of providing a draft report for comment is to “help[] the auditors develop a report that is
fair, complete, and objective.” GAGAS §8.32. While you may disagree with our comments and
explain the reason for your disagreement in the final report, GAGAS §8.36, the entire purpose of
commenting on the draft report is lost if you hide the alleged bases for your conclusions until the
final report is issued.

         Your Finding 2 is additionally defective because it ignores the fact that detailed VISTA
Assignment Descriptions (“VADs”) were created for member participation at the host sites, and
were the bases for the activities actually undertaken by the VISTA members. This is particularly
important because you attempt to argue in the Draft Report that the weaknesses you see in the
application process inevitably led to weak performance under the grant. However, as stated,
performance was governed not by the site applications, but by the VADs, which set forth
detailed descriptions of the activities to be undertaken by VISTA members and tied those
activities into VISTA’s anti-poverty and sustainability goals.

       The four host sites you discuss are addressed in turn:

        New York City Department of Parks and Recreation (“Parks”)—The Draft Report claims
that Parks’s application did not specify how it would alleviate poverty. However, Ms. Billings-
Burford attached to her email to your office, dated April 14, 2011 (attached herein as Exhibit C)
copies of seven Parks-related VADs. In each, activities related to the alleviation of poverty were
addressed. To give two examples: One VAD indicated that the member would learn about
Parks’s tree planting “prioritization strategy in low income communities,” report on the steps
needed “to effectively engage volunteers with a focus on Trees for Public Health Neighborhoods


                                                 7
[(TPH)]” and “assist Partnerships for Parks in strengthening outreach efforts to members of the
targeted communities and neighborhoods, with a focus on TPH neighborhoods.” 3 Under another
VAD, the member was to report on a Parks education program in order “to maximize outreach to
schools and engagement of young students in environmental awareness and tree care,
particularly for schools located in Trees for Public Health Neighborhoods.”

        Finally, apart from your ostensible concern with whether the site applications detailed
steps to address poverty, the Draft Report criticizes the Parks site application because it indicated
that Parks would partner with the New York Restoration Project (“NYRP”). Your complaint is
that the CNCS State Office had rejected NYRP’s stand-alone site application. As the State
Office approved this site application, however, your conclusion that partnering with NYRP
“circumvent[ed] the decision of the State Office” is somewhat mystifying.

        New York Legal Assistance Group (NYLAG)—Your only criticism of NYLAG was that
its application indicated that the VISTA members would engage in direct service. We address
the direct service issue in our response to Finding 3.

       Year Up—You claim that Year Up’s application did not specify how it would alleviate
poverty or that it was targeting solely low-income families. However, the VADs for Year Up
(see Exhibit C) have activities that are clearly described and are explicitly aimed at increasing
the capacity of volunteer programs that address poverty. As noted, VADS, and not site
applications, guide the actual work of VISTA volunteers, and there is no allegation that the
VADS were insufficient. We address the direct service issue in our response to Finding 3.

       Long Island City Business Development Corporation—The fact that LICBDC was not
included among the final host sites is an indication that, through the rigorous VAD development
process, the City was able to ensure that any host site that ultimately would not be able to
perform in a satisfactory manner would understand this at an early point in the process.

                       Response to Finding 3—With Only Minor
                       Exceptions, VISTA Members Did Not Engage in
                       Direct Service.

        You allege that VISTA members under the grant to the City “engaged in unallowable
direct service.” However, you have misapplied the prohibition on direct service and have, in
violation of applicable GAGAS audit standards, ignored our prior response on this point. With
only minor exceptions, the VISTA members did not engage in prohibited direct service.

       As explained in the VISTA Program Guidance for FY09, applicable to the grant in
question (and attached as Exhibit D), the purpose of the prohibition on direct service is to build
capacity in the host site. See 2009 Program Guidance, p. 9. Consistent with this guidance, the
Guidelines for Selection of AmeriCorps VISTA Sponsors and Projects state that VISTA projects

3
  TPH neighborhoods are neighborhoods that have been identified as having the greatest need for
trees, because they have fewer than average street trees and higher than average rates of asthma
among young people. It is believed that the placement of additional trees in these neighborhoods
will reduce the pollutants that trigger disorders, and contribute to healthier living standards.


                                                 8
must focus on, among other things, “the transference of skills to community residents,” Part I, 60
FR 7173, and must “[l]ead to building organizational and/or community capacity to continue the
efforts of the project once AmeriCorps VISTA resources are withdrawn.” Part II(A)(2)b), 60 FR
7173. Furthermore, in order to determine whether activities are direct service, one must examine
“the focus and nature of the tasks.” 2009 Program Guidance, p. 9.

         Finding 3 ignores the fact that many of the cited activities consisted of capacity-building
activities, such as training or teaching how to perform future tasks. An examination of “the focus
and nature of the tasks” thus should have led you to conclude that the VISTA members at Parks,
FEGS, and Year Up did not engage in direct services. We made this exact point in our
submission in response to the draft copy of the Draft Report, see Exhibit C, and also noted that
the approved VADs for the VISTA members assigned to Parks, FEGS, and Year Up (which
VADs were attached our April 14 response) all contained training activities. However, despite
your obligation under applicable audit guidelines, see GAGAS §8.36 (auditors should set forth in
their report their reasons for disagreeing with comments or “modify their report as necessary”),
you did not address our point or change your finding.

        As to the New York Legal Assistance Group, we agree that providing guidance to clients
about their individual circumstances is direct service. While the VADs for NYLAG clearly
describe capacity building, we agree that the VISTA members should not have instead engaged,
if they did, in direct service. Similarly, a VISTA member should not have spent time, if he or
she did, at Year Up as an administrative assistant. However, we have do not know whether these
activities actually occurred or, if they did, whether the alleged percentages of time devoted to
them are accurate. Thus, despite your obligation under GAGAS §A8.02(c) to “state[] evidence
and findings without omission of significant relevant information related to the audit objective,”
we have no meaningful way to evaluate or respond to these allegations.

        In light of the mistaken conclusion that VISTA members engaged in direct service at
Parks, FEGS, and Year Up, and your failure to provide sufficient information to allow us to rebut
the allegations of apparent direct service at NYLAG and Year Up, the questioned costs should be
reduced to zero.

                       Response to Finding 4—The City’s VISTA
                       Program was Structured to Meet, and was
                       Overwhelmingly Successful in Meeting, the
                       VISTA Anti-Poverty Goals.

        The gravamen of the complaint in Finding 4 is that the process followed for this grant led
to the inclusion of sites that would not be able to meet the VISTA anti-poverty requirement, and
that “some” of the sites in fact did not meet the goal.

        As to process: As explained above in our response to Finding 2, your Finding 4 ignores
the fact that detailed VADs were created for member participation at the host sites, and were the
bases for the activities actually undertaken by the VISTA members. The VADs, which were
reviewed and approved prior to the VISTA volunteers beginning their work, set forth detailed
descriptions of the activities to be undertaken by VISTA members and tied those activities into
VISTA’s anti-poverty goal. Furthermore, the host sites in fact developed their own VADs, thus


                                                 9
undercutting your claim that the City’s involvement in the grant process led to plans that were
inconsistent with the “organizational model” of “some” of the host sites. Ms. Billings-Burford
explained this in her April 14, 2011, email. However, again, you ignored your obligation under
applicable audit guidelines to address our point or modify your finding, thereby violating
GAGAS §8.36.

        As to the program’s success: As noted above, the City’s VISTA program was
phenomenally successful. For the year in questions, the City’s VISTA program deployed 193
VISTA members at 56 sites. These VISTA members engaged 55,413 community volunteers
who served 987,444 clients. In addition, the members also developed $1,073,485 in cash
resources and secured in-kind donations that valued a total of $3,920,123. The NYC Civic Corps
exceeded the targets set by CNCS and NYC Service for seven goals and barely missed on two
others. On only a single measure did the program not produce results within 15 percent of its
target.

       As to the specific host sites you discuss:

        New York City Department of Education—Contrary to the impression created by your
finding, the NYCDOE host site met most of its goals. By the end of the school year this team of
VISTA members trained five community based organizations, and recruited and trained 37
mentors who served 148 students at 10 of our City’s most challenging middle schools. The City
is providing this information that should have been included in our progress reports, but was not
included because of a computer error.

      In comparison to these achievements, the allegations in your Finding are minor, and your
recommendation to recover questioned costs is unwarranted.

        Broadway Housing Communities—Contrary to your assertion, the VISTA member was
not left without VISTA-related work for the month of July 2010. Rather, while there may have
been somewhat of a gap, the member was reassigned to the NYC Service office as soon as it
became aware that there might be an issue.

        New York City Department of Parks and Recreation—Despite the allegation that the
City’s Million Trees program did not meet the VISTA anti-poverty goal, as Ms. Billings-Burford
explained in her April 14, 2011 email, many of the locations where the VISTA members worked
can immediately be identified as being in low income areas. These locations included public
schools, and developments run by the New York City Housing Authority (NYCHA), which
provides public housing for low income residents throughout the City. Other sites were located
in the City’s most disadvantaged neighborhoods, including Jamaica, Queens, Bedford-
Stuyvesant, Brooklyn, and East New York, Brooklyn. In addition, the VISTA members
supported the work of a program, the MillionTreesNYC StewCorps, that used tree planting as
part of a larger effort to transfer skills to at-risk high school students so that they can be more
competitive in the workforce. Trainings for the StewCorps took place around the City. While
some of the work force development trainings took place in areas of the City that are not
impoverished, all StewCorps efforts were designed to transfer skills to at-risk youth from low-
income families in an effort to counter poverty.




                                                10
        New York Legal Assistance Group---Our response to your allegation regarding NYLAG
is contained in our response to Finding 3.

                      Response to Finding S---The Fact t.hat a "Few"
                      Host Site Supervisors Did Not Attend the
                      Mandatory Supervisor Orientation-which was
                      Offered on Only One Occasion-is Minor.

         Finding 5 alleges that "some" supervisors at the New York City Department of Education
and one supervisor at Year Up did nOl allend the supervisor orientation session. Even assuming
that this i5 accurate, you have written a finding that-particwarly considering that 56 sites were
involved-is so minor that it creates the false impression that there was more of a problem than
you actually indicate. Under GAGAS §8 .16, auditors are supposed "place their findings in
perspective," by for example, "rclat[ing] the instances identified to the [relevant] population."
Your finding in ract emphasizes how well attended the training session was, especially given that
the State Office scheduled only one session, in mid -August, disregarding the City's concerns
about the practiqlity of reaching all host site supervisors.

                      Response to Finding 6--The Allegation that One
                      Host Site Hired a VISTA Member Prior to the
                      End of the Program is Inaccurate; the Other
                      Instance was Minor.

        Finding 6 alleges that 1he New York City Department of Parks and Recreation hired one
of the VISTA members placed at Parks pdor to the completion of the member's year of service.
This allegation is inaccurate; Parks did no such thing. Furthermore, in Ms. Billings-Burford's
April 14,2011 email, she stated that fact, and included a letter from a representative of Parks to
that effect. However, once again, you ignored your obligation under applicable audit guidelines
to address our point or modify your finding, as set forth in GAGAS §8.36. As to the New York
City Department of Education, the occurrence was minor.

                                           Conclusion

        As we have shown, there was no improper "tie" between Stephen Goldsmith and the City
while he served on the CNCS Board, there was no undue influence by CNCS's senior
management on behalf of the City, and the process fol' and outcomes of the grant were otherwise
proper. J respectfully request that you correct the mistakes of your Draft Report when you issue
your final report.

                                                        I'Y truly yours,

                                                /         '~1)!J. ~~
                                                    Michael A . Cardozo

MAClay

c: Diahann Billings-Burford


                                               II
                                     EXHIBIT A




Letter from Michael A. Cardozo to Kenneth C. Bach, the Acting Inspector General, dated
                                   April 11, 2011
                                                       THE CITY OF NEW YORK

MICHAEL A. CARDOZO                                      LAW DEPARTMENT                                                       (212) 788-0800
Corporflf.ion CounMl                                       100 CHURCH STREET                                            FAX (212) 227-5641
                                                         NEWYORK, N.Y. 10007-2601                                     mcardozo@law.nyc.gov


                                                                            April 11,2011


        VIA E-MAIL AND FACSIMILE

        Kelmeth C. Bach, Acting Inspector General
        Office of Inspector General
        Corporation for National and Community Service
        1201 New York Avenue, N.W., Suite 830
        Washington, D.C. 20525

                                     Re: Draft Audit Report regarding an Audit of the Corporation for
                                     National and Community Service Grants A warded to the New York City
                                     Office of the Mayor ("Draft Report")

        Dear Mr. Bach:

                In accordance with the process outlined in ernails between our offices, I I write in regard
        to certain statements contained within the unreleased draft of the Audit Report.

                In one breathtakingly irresponsible paragraph, the Draft Report implies-with no factual
        basis even alleged for the irnplications--that the City of New York somehow improperly
        benefitted from, and participated in, the purported improper actions of Stephen Goldsmith (the
        former Chalrman of the Corporation for National and Community Service ("CNCS"», in his
        then role on the CNCS Board.          According to the Draft Report, Mr. Goldsmith intervened
        inappropriately in the grant process at issue in order to become Deputy Mayor of the City of
        New York ("City"), based on his purported relationship wi th the Mayor of the City. As J v,; II
        detail below, the impression created by the Draft Report is devoid of any factual basis: Mr.
        Goldsmith's relationship with the New York City Mayor began nearly a year after the
        completion of the grant process, and had nothing to do with the VISTA grants at issue. Thus. the
        Draft Report is irresponsible. inflanunatory and, frankly, irrelevant to the remainder of the audit.

        I On Apri I 5, 20 I [, I requested that we set up a ca II to disc uss the su bstan Iial factual inaccuracies in the unreleased
        Draft Report. Vincent Mulloy, counsel to the Inspector General, responded by suggesting that I put in writing "the
        facrual findings in the draft Ihal [I] believe are inaccurate.'· He went on to say that you would keep the process open
        an additional week "to consider the City of New York's perspective." In an e-mail laterthatday.Mr. Mulloy agreed
        that, provided the City provided a writing by April 11, 2011, you would not release Ihe Draft Report until you
        consider lhe arguments we provide herein for why it would be inappropriate to release the Draft Repon as written.
        It is beyond doubt that the inclusion of unsupported innuendo is inconsistent with
applicable audit standards. Under Section 4(b)(l)(A) of the Inspector General Act of 1978,
Inspectors General must "comply with standards established by the Comptroller General of the
United States for audits" of federal agencies. These standards, set forth in the Govenunent
Auditing Standards (known as GAGAS), c1eady state that to comply with GAGAS audits must
"provide reasonable assurance that evidence is sufficient and appropriate to support the auditors'
findings and conclusions." GAGAS §7.03. Here, it is not a question of whether the evidence was
"sufficient" to support the Draft Report implications. Rather, there wa')-and is--no evidence of
the "prior relationship" and quid pro quo, and thus no basis for the Draft Report's attempts to tar
the reputation of the Mayor and Mr. Goldsmith.

       The following paragraph appears in the "Audit Conclusions" section of the Draft Report:

               The NYC Mayor's Office has implemented a strong internal controls
               system to ensure the proper administration of ARRA funds. However,
               during our audit we identified areas in which the Corporation [CNCS]
               should improve their internal review process, prior to making awards, for
               VISTA-sponsored programs. Specifically, we are concerned of a high
               likelihood that Corporation senior management unduly influenced the
               decisions of the Corporation's New York State Office (State Office)
               during the selection of host site organizations. Our concerns are based in
               large part on the interest evidenced by the fonner Chainnan of the
               Corporation's Board of Directors in a partnership between the NYC
               Mayor's Office and the Corporation. Other factors contributing to the
               appearance of undue influence are the facts that: the fonner Chainnan of
               the Board of Directors recommended the NYC Mayor's Office to the
               Corporation for VISTA funding; his intervention in the host site
               organization selection dispute between NYC Mayor's Office and the
               Corporation during the MOA review process (an operational function); his
               prior relationship with the NYC Mayor; and his subsequent employment
               l1,ith the NYC Mayor's Office. (Emphasis added.)

       The two italicized allegations with respect to the Mayor's relationship with Mr.
Goldsmith, which lie at the heart of section of the Audit Report's conclusions, are false -and are
addressed below.     We understand that, through private counsel, Mr. Goldsmith is also
responding to the Draft Report.

       Mr. Goldsmith had no "prior relationship" with tbe Mayor.

        The Draft Report implies that Mr. Goldsmith supported the City's grant application
because of some unspecified "prior relationship" with Mayor Bloomberg. However, the Draft
Report contains absolutely no evidence of such a relationship, and it could not do so because, at
the time of the events in question, and indeed for nearly a year thereafter, there was no
relationship between Mr. Goldsmith and the Mayor. Other than being one of several participants
at a Gracie Mansion breakfast in August 2008, Mr. Goldsmith had no discussion of any kind
with the Mayor until March 30, 2010, at a function at Harvard University. Considering that the


                                              -2-
VISTA grant was awarded in April 2009 and the ARRA supplement was awarded on July 31,
2009. this was hardly a "prior relationship."

        Mr. Goldsmith's "Subsequent Employment with the NYC Mayor's Office" in 2010
        Had Nothing to Do with the CNCS Grants to the City One Year Earlier.

        The Draft Report implies that Mr. Goldsmith received his job as Deputy Mayor as a
result of the award of the grant at issue. There is absolutely no evidence for this scandalous
charge. Mr. Goldsmith's appointment as Deputy Mayor for Operations was announced on April
30, 20 I 0, a full year after the VISTA grant was awarded. In fact. no one discussed with Mr.
Goldsmith the possibility of employment with the City until March 20 10.

                                               . . * '" *
        The factual inaccuracies set out above, and the oUlrageous conclusions drawn from them,
would have been avoided, I respectfully suggest. had someone from your staff asked City
officials, including Mr. Goldsmith since his appointment as Deputy Mayor for Operations, about
the facts and time-line surrounding his appointment and relationship with the Mayor. But as best
I can discern, no one ever asked City officials, including Mr. Goldsmith, about them.

       1 must add that I believe your OfJice has been extremely dilatory in infonning the City of
your conclusions.

        In light of the Jack of any support for the scurrilous implications of the Draft Report as it
relates to Mr. Goldsmith, the Mayor and the City of New York, we respectfully request that the
problematic portions of the Draft Report be deleted prior to its official release. The City will
respond to the remainder of [he Draft Report after it is officially released.

                                                            Very truly yours,

                                                (/h-rJ)f) ~y--
                                                        Michael A. Cardozo

MAClay




                                               -3-
                          EXHIBIT B


April 11, 2011, Letter from Private Counsel for Stephen Goldsmith
                                     ()1"lllT   pi   11I-'l'l'(' \111"   l.t'lltT,d
                                 I




                                 NATIONAL&!
                                 COMMUNITY
                                 SERVICE ...........-
MEMORANDUM




DATE:          July 15, 2011

TO:            Ken Bach
               Acting Inspector General

FROM:          Vincent A.  Mulloy~~
               Counsel to the Inspector GeneraJ

SUBJECT:       Regarding whetber CNCS OIG Assistant Inspector Genera! for Audit has an
               Impairment of lndependence concerning the former CNCS Board Chalnnan


        You asked me to review former CNCS Board Chairman Stephen Goldsmith's
contention, contained in his attorney's April II, 2011, letter to you, that CNCS OIG Assistant
Inspector General for Audit Stuart Axenfeld has "a conflict of interest" or an "impainnent of
independence" with regard to matters concerning Mr, Goldsmith and ought to have been recused
from the OIG audit of Corporation grants to the New York City Mayor's Office, where Mr.
Goldsmith cuncntly works. In considering the question, I spoke with Mr. Axenfeld and other
DIG staff who were familiar with the circumstances surrounding Mr. Goldsmith's contention,
and reviewed OIG and other relevant records.

           In sum, I confinn your initial assessment of the matter, which you communicated 10
Mr. Goldsmith last February in response to the concerns he expressed to you by telephone about
Mr, AxenfeJd coming to interview him. You told him that you had looked into the matters
surrounding Mr, Axenfeld's involvement in the St. Hope Academy settlement in 2009, which
was the basis of his concems, and explained his limited role; that Mr. Axenfeld is a professional
and has no personal bias against Me. Goldsmith; and thaI he has approached the audit of the New
York City Mayor's Office in an impartial, fair and objective manner. At the time, Mr. Goldsmith
accepted your explanation and agreed to be interviewed by Mr. Axcnfeld and his audit team the
following week. Me. Goldsmith then engaged counsel, who renewed Mr. Goldsmith's objection
in a letter sent to you on April 11,2011, after the draft audit report was released to the New York
City Mayor's Office.

          The events and circumstances that Mr. Goldsmith's attorney describes in his letter,
which are to form the basis for Mr. Axenfeld's impainnent of judgment, that being Mr.
Goidsmith's involvement in the settlement of the government's case against St Hope Academy
and its executive officers, were unknown to Mr. Axenfeld, and, for that matter, every DIG staff

                   1201 New York Avenue, NW           *
                                                Suite 830                  *
                                                           Wash.inglon, DC 20525
                      202-606-9390   *
                                     Hotline: 800·452-8210  www.cncsoig.gov *
                        Senior Corps   * AmeriCorps * Learn and Serve America
member working in the OIG during that period of time. Accordingly, having had no knowledge
of Mr. Goldsmith's involvement in the settlement of the St. Hope Academy investigation and
suspension, there can exist no basis for his claim that Mr. Axenfeld has a bias against him and
there is no evidence of an impainnent of independence of personal judgment in the preparation
and execution of the audit of Corporation grants to the New York City Mayor's Office.

        Contrary to the impression created by Mr. Goldsmith's attorney in his letter to you, Mr.
Axenfeld had never personally met Mr. Goldsmith prior to their meeting for the audit team's
interview of Mr. Goldsmith in New York City on February 23, 2011. Aside from observing him
at regularly scheduled Board meetings, Mr. Axenfeld's contacts with Mr. Goldsmith before this
meeting were limited to speaking \Vitil him by telephone to set up the February interview, and, in
April 2009, arranging for and participating in a telephone interview of Mr. Goldsmith with other
OIG auditors as part of the OIG's Evaluation of the FiscaJ Year 2008 Budget Process, issued as
OrG Final Report 09-16.

        Former Chainnan Goldsmith's attorney contends that Mr. Axenfeld is personally
impaired in his judgment regarding Mr. Goldsmith based on allegations that, as a Board member
of CNCS 1) Mr. Goldsmith disagreed with, or, at least could not act upon, the fonner Inspector
General's disagreement with the Corporation's legal settlement of a suspension action against an
AmeriCorps grantee, St. Hope Academy and its executive officers; 2) Mr. Goldsmith refused to
act on the fonner Inspector General's request to discipline the Corporation's General Counsel for
entering into the settlement agreement; and 3) Mr. Goldsmith registered complaints against (he
former Inspector General and Mr. Axenfeld with the Integrity Committee of the Council of
Inspectors General for Integrity and Efficiency (CIGLE); and so therefore Mr. Axenfeld is
personally biased against him.

         As explained above, Mr. Axenfeld's role in the St. Hope Academy investigation,
suspension, and settlement was limited, as he was, and is, the head of the Audit Section of this
office, and the case arose out of efforts by the Investigation Section. Furthermore, no one in the
office familiar with the St. Hope Academy matter, including Mr. Axenfeld, was ever made aware
of Mr. Goldsmith's involvement. Those things described in Mr. Goldsmith's attorney's April
11, 20 Il, letter to you, recited as proof of Mr. Axenfeld's impairmeut, are not things that Mr.
Axenfeld was aware of, or remembers, or, for that marter. things that anyone else in the OIG
familiar with the St. Hope Academy investigation, suspensiol), and settlement was aware of or
remembers.

      For example, Mr. Goldsmith's attorney writes in his April 11, 2011, letter that "Mr.
Goldsmith was directly involved in the registering of complaints against Mr. Wal.pin and Mr.
Axenfeld as a result of their conduct during th.is investigation."

        This statement is news to anyone in this office who was familiar with the St. Hope
Academy matter. Mr. Axenfeld, and others serving in the OIG at the time, were aware that a
letter of complaint was sent by the Acting U.S. Attorney for the Eastern District of California to
the Chairman of the Integrity Committee of the CounclI of Inspectors General on Integrity and
Efficiency (CIGIE) on April 29, 2009, but there was no indication that the complaint was sent on
anyone else's behalf other than the Acting U.S. Attorney, as it was signed in his name only. In


                                                2
that letter, the Acting U.S . Attorney complained of actions taken by the Inspector General at the
time, Gerald Walpin, in the St. Hope Academy investigation and settlement, but there was no
discussion or complaint against any other OrG staff, includjng Mr. Axenfeld. 1 No one in the
OIG, including Mr. Axenfeld, was ever aware of a complaint filed by Mr. Goldsmith against Mr.
Walpin, or for that matter, against Mr. Axenfeld, and this office was never asked by CIGJE to
respond to such a complaint. Having no knowledge of such a complaint, it follows then that this
cannot fonn a basis for Mr. Axenfeld's personal irnpainnent of judgment regarding Mr.
Goldsmith..

        Mr. Goldsmith's attorney also writes: "When the case against St. Hope Academy and
Mayor lolmson was settled, Mr. Walpin and Mr. Axenfeld strongly and vocally disagreed with
the settlement and called on Mr. Goldsmith to discipline CNCS General Counsel, Frank Trinity,
who supported the resolution. Mr. Goldsmith rejected their requests and similar complaints they
raised regarding an alleged conflict of interest between Mr. Trinity and the U.S. Attorney of the
Eastern District of California."

        This statement is also news and factually inaccurate concerning Mr. Axenfeld's actions .
Mr. Axenfdd never met, exchanged email, or had telephone or any other communications with
Mr. Goldsmith regarding the St. Hope Academy investigation and suspension. He did not
"strongly and vocally" express his disagreement with the St. Hope Academy settlement to Mr.
Goldsmith" or make "requests or similar complaints," nor did Mr. Axenfeld ask, or have any
knowledge of anyone else asking, Mr. Goldsmith to discipline the General Counsel.
Accordingly, having never made complaints or requests for Mr. Goldsmith to reject, there is no
basis to the claim that Mr. Axenfeld is biased and his judgment impaired.

        As you explained to Mr. Goldsmith bye-mail last February, Axenfeld's role in the St.
Hope Academy investigation, suspension, and settlement was limited to providing a fiscal review
of St. Hope Academy's grant records, which was perfonned at the request of the Assistant U.S.
Attorney. Also, along with InspectOr General Gerald Walpin, and Assistant Inspector Gencral
for Investigations R.J. Walters, Mr. Axenfeld in April 2009 cosigned the Special Report to
Congress concerning the SL Hope Academy settlement, which expressed t:hjs office ' s
disagreement with how the Corporation and U.S. Attorney's Office for the Eastern District of
California had handled and resolved the St. Hope Academy matter. At no time did Mr. Axenfeld
have any contact or communications with Mr. Goldsmith, nor was he aware of what involvement
Mr. Goldsmith had in the St. Hope Academy matter. It bears Doting that no part of the April
2009 Special Report to Congress takes to task any Corporation Board members for the
settlement. It instead focuses on the events leading up to, and the propriety of the tenus of, the
civil settlement agreement on the St. Hope Academy suspension entered into by the
Corporation's General Counsel and the Assistant U.S. Attorney.


I In a decision dated October 19, 2009, the Integrity Committee ultimately determined that the
Inspector General's response to the complaint sufficiently and satisfactorily addressed the matter,
and that no further inquiry or investigation was warranted.




                                                 3
        Finally, it should be noted that Mr. Goldsmith's attorney's characterizations of the former
Inspector General's conduct in the St. Hope Academy matter appears deeply at odds with
statements that his client made to Congressional investigators looking into the matter in June
2009. Mr. Goldsmith's attorney writes that «Mr. Walpin's actions in explaining his handling of
tbe St. Hope Academy matter (which actions were undertaken largely in concert with Mr.
Axenfeld) played a material role in his termination by President Obama." Yet, Mr. Goldsmith is
quoted as testifying to Congressional investigators that Mr. Walpin's argwnents to the Board on
May 20, 2009, about the St. Hope Academy settlement were "totaHy appropriate," "articulate,"
that he made "a persuasive case," and that Mr. Walpin's complaints to the Board '<did not
amount to 'cause to get rid of Gerry. ,,,2




2Joint Staff Report, Senate Finance Committee and House Oversight and Government Reform
Committee Ranking Members, House 111 01 Cong., The Firing of the Inspector General for the
Corporation for National and Community Service, (Nov. 20, 1999).

                                                 4
                                                                    DLA Piper LLP (US)
                                                                    1251 Avenue of the Americas, 27th Floor
                                                                    New York, New York 10020-1104
                                                                    www.dlapiper.com

                                                                    Anthony P. Coles
                                                                    anthony.coles@dlapiper.com
                                                                    T 212.335.4844
                                                                    F 212.884.8644


                                                   April 11, 2011
VIA E-MAIL AND NEXT DAY AIR



Kenneth C. Bach, Acting Inspector General
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, N.W., Suite 830
Washington, D.C. 20525

       Re:     Draft Report of Audit of CNCS Awards to NYC Mayor’s Office

Dear Mr. Bach,

       I am counsel for Deputy Mayor Stephen Goldsmith, formerly the Chairman of the Board
of Directors of the Corporation for National and Community Service (“CNCS”). I write this
letter at his request regarding the draft Audit of Corporation for National and Community Service
Grants Awarded to the New York City Office of the Mayor (NYC Mayor’s Office) (the “Draft
Report”). We respectfully seek:

       (1) corrections of certain material factual errors contained in the Draft Report,

       (2) reconsideration of certain unsupported opinions and assumptions which appear
throughout the Draft Report and taint its reliability and usefulness,

       (3) review of whether there exists the appearance of bias on behalf of the lead auditor on
this assignment, and, if so, a written disclosure in the Report of that bias, and

        (4) a further interview of Mr. Goldsmith in a manner that properly and transparently
addresses any issues of concern to your Office’s auditors, as opposed to the cursory interview
conducted by the auditors which did not fairly address or present matters that the audit team was
reviewing, and thus inhibited their capacity to obtain full knowledge of the facts.
                                                                                   Kenneth C. Bach
                                                                                     April 11, 2011
                                                                                         Page Two


Furthermore, I respectfully request an opportunity to meet with you in person to provide more
detail about the matters raised herein, and to respond to any questions you may have.

       Mr. Goldsmith submits this letter with respect for the work and integrity of the IG’s
Office. The fact that the Office has earned respect for its processes and integrity as a general
matter, however, should not preclude the careful assessment of any individual audit to assure that
it comports with the Office’s goals and purposes, as well as basic fairness.

       As the GAO manual on Government Auditing Standards points out, high quality auditing
is essential to government accountability to the public, and government audits provide key
information to stakeholders and the public to maintain accountability. To achieve those auditing
goals, however, auditing of government programs should provide objective, independent and
transparent reports supported by credible evidence. As shown herein, we respectfully submit
that this specific Draft Report, in its current form, does not meet those beneficial standards. In
this regard, I understand that the City of New York shares many of our concerns relating to the
Draft Report, and is submitting its own letter, as well.

       I) MATERIAL FACTUAL ERRORS IN THE DRAFT REPORT

       In the Audit Conclusions on page two of the Draft Report, several “facts” are identified
as factors that contributed to the “appearance of undue influence” over the decisions by the
CNCS New York State Office. Not only are these “facts” linked in a highly speculative and
unfair manner, each of these supposed “facts” is either false or unsupported by evidence. The
factual errors in the Draft Report start at the most basic, but display a lack of thoroughness that
informs the entire Draft Report. According to Government Auditing Standards (“GAS”), any
finding must be “supported by sufficient, appropriate evidence with key facts, figures, and
findings being traceable to the audit evidence.” See GAS § A8.02(a). The Draft Report does not
meet this standard.

       First, as a basic matter, the Draft Report’s introductory section fails to properly identify
Mr. Goldsmith’s official title and role at the relevant time period. The Draft Report suggests this
undue influence in the VISTA process arose from Mr. Goldsmith’s role at the time as Chairman
                                                                                   Kenneth C. Bach
                                                                                     April 11, 2011
                                                                                       Page Three


of the Board of Directors. In fact, the American Recovery and Reinvestment Act of 2009, which
provided funding for the awards to the NYC Mayor’s Office, was passed and implemented after
Mr. Goldsmith stepped down as Chairman of the Board. While Mr. Goldsmith remained on the
Board as Vice-Chair, such a basic mistake reflects a lack of proper factual scrutiny by the audit
team, or bias.

       More broadly, a central conclusion of the Draft Report posits that the auditors “are
concerned of a high likelihood that Corporation senior management unduly influenced the
decisions” of the State Office during the selection of the host site organizations. The Draft
Report at page 2 identifies the evidentiary basis of the auditors concerns and, as whole, they are
insufficient on their face to support the Draft Report’s findings. In this context, the use of
charged words like “concerned,” “unduly” and “high likelihood” in the absence of supporting
evidence is unfair. We address the deficiencies in the evidentiary bases for the findings of the
Draft Report as regards Mr. Goldsmith as follows.

       The first purported evidentiary basis for the Draft Report’s findings is that Mr. Goldsmith
had a “prior” relationship with Mayor Bloomberg. That statement is false. Although Mr.
Goldsmith and the NYC Mayor had met at an official event on one occasion prior to the VISTA
awards, they had no prior relationship whatsoever. Mr. Goldsmith never had a personal
discussion or meeting with the Mayor prior to the VISTA awards process, and therefore never
had any communication about the award process. As set forth in GAS § 7.66, the “concept of
sufficient, appropriate evidence is integral to an audit.” For the Draft Report to base its
conclusions, even in part, on such an elemental mistake is egregious.

       The second purported evidentiary basis for the Draft Report’s findings is that Mr.
Goldsmith had “subsequent employment” with the NYC Mayor’s Office. As Mr. Goldsmith told
the auditors, he was not employed by the NYC Mayor’s office until 11 months after the VISTA
awards, and he had no discussions of any type, whether direct or indirect, regarding employment
by the NYC Mayor’s Office when the VISTA awards were made. Mr. Goldsmith was not named
Deputy Mayor of New York City until May 2010, nearly a year after the NYC VISTAs started,
and more than a year after the grant decision would have been made. The Recovery Act VISTAs
                                                                                   Kenneth C. Bach
                                                                                     April 11, 2011
                                                                                         Page Four


began work in New York City on July 30, 2009, which means the planning and award process
happened months before. As such, Mr. Goldsmith’s subsequent employment by the Mayor’s
Office had no possible relationship to the VISTA awards. Under GAS, government auditors
“must obtain sufficient, appropriate evidence to provide a reasonable basis for their findings and
conclusions.” GAS § 7.55. Obviously, there is not a reasonable basis to link Mr. Goldsmith’s
subsequent employment to the VISTA award process. Indeed, such a link in the absence of any
evidence would appear to raise questions about the objectivity of the auditing team.

       The third purported evidentiary basis for the Draft Report’s findings is the assertion that
Mr. Goldsmith “intervened” in a dispute between the NYC Mayor’s Office and the State Office
over the selection of host site organizations. Mr. Goldsmith has no recollection of speaking
directly with the State Office about the site selection process. The Draft Report provides no
evidence of any “intervention” by Mr. Goldsmith, and the assertion that he “intervened” when he
never communicated with the State Office appears to be a material misrepresentation of the
available evidence. Consistent with the absence of any evidentiary basis for the finding of an
“intervention,” the Draft Report does not provide basic information, such as the nature of the
intervention, the dates and times of any relevant communications, the parties to such
communications or the method by which the intervention was supposedly accomplished. By
failing to include this basic information, the Draft Report does not meet the standard for
completeness specified in the GAS, specifically that a report state “evidence and findings
without omission of significant relevant information related to the audit objectives.” GAS
§ A8.02(c).

       The fourth purported basis for the Draft Report’s findings is that Mr. Goldsmith should
not have made any recommendations regarding the VISTA program generally and that he acted
improperly in suggesting a potential partnership with the NYC Mayor’s Office. This assertion is
a gross mischaracterization of the actual facts, and completely ignores the proper role of a Board
member. First, Mr. Goldsmith did not have conversations directly with the selection committee
nor did he even know who was on it. He did what he always did consistent with his fiduciary
duties as a member of the Board. To properly carry out their obligations, Board members should
gather facts, collect good ideas and refer them to the staff for follow up on the merits. Further, in
                                                                                           Kenneth C. Bach
                                                                                             April 11, 2011
                                                                                                 Page Five


this instance Mr. Goldsmith viewed the NYC initiative as an effort to transform service at the
local level through a national cadre of large city mayors using volunteerism to ameliorate the
conditions of the recession. He asked Kristin McSwain, the Chief of Program Operations, to
consider New York, as well as other cities, and Ms. McSwain fully supported that level of
involvement and interest as fully consistent with the Corporation’s goals of achieving the most
effective deployment of its grants and awards.

         Throughout his tenure, Mr. Goldsmith actively and appropriately engaged his statutory
role as a Board member by presenting ideas and opportunities to strengthen CNCS’s mission.
Mr. Goldsmith in particular had been active for a decade, under explicit instructions from the
Senate (Sen. Bond and Sen. Mikulski at the time) and two White Houses, to make sure that
program management was effective. He has championed many Governors’ programs and
organized the Governors to advocate to the Congress and the White House for the Corporation’s
continued funding and role. Board members communicate with many different groups in order
to discharge their duties, and bring new initiatives to the staff for evaluation, and to provide
“customer service” to their stakeholders, on the merits. This is not only routine, it is necessary to
assure the responsible and highest and best use of taxpayer funding.

         At all times Mr. Goldsmith’s conduct was wholly consistent with the Board’s bylaws and
the CNCS authorizing statute. See bylaws § 1.01(b); NATIONAL AND COMMUNITY SERVICE ACT
OF   1990, as amended (the “Authorizing Act”). It is plainly unfair to criticize conduct that is
consistent with the applicable bylaws and with the responsibilities of a Board member -- the fact
that the Draft Report does so only compounds its inherent bias. Indeed, the CNCS Authorizing
Act specifically charges the Board with the obligation to “review, and advise the Chief Executive
Officer … with respect to … programs and initiatives as are necessary or appropriate to carry out
this Act...,” and further charges the Board to “ensure effective dissemination of information
regarding the programs and initiatives of the Corporation.” § 192A(g)(5)(A). The Authorizing
Act further provides that the Board may “make grants to or contracts with Federal and other
public departments or agencies, and private nonprofit organizations…”1 § 192A(g)(10)(A). In

1
 The auditors also misconstrue the Recovery Act funding – which was one year funding – by suggesting the State
Office should have made a smaller award, and then expanded it later. The Congressional and White House mandate
                                                                                                  Kenneth C. Bach
                                                                                                    April 11, 2011
                                                                                                          Page Six


light of this specific legislative grant to the Board, it is clearly appropriate to have Board
involvement, in any event. Put simply, there are no legal or other grounds to support the Draft
Report’s suggestion that Mr. Goldsmith’s conduct was not proper in all respects.2

         II) MR. AXENFELD’S IMPAIRMENTS TO INDEPENDENCE

         Upon learning of Mr. Axenfeld’s role in this audit and his intent to conduct an interview,
Mr. Goldsmith immediately informed you, as Acting Inspector General, about a potential
conflict of interest presented by Mr. Axenfeld’s involvement and requested his recusal.
According to the GAS, an auditor “must be free from personal, external, and organizational
impairments to independence, and must avoid the appearance of such impairments to
independence.” GAS § 3.02. Maintaining independence is important so that the auditor’s
“opinions, findings, conclusions, judgments, and recommendations will be impartial and viewed
as impartial by objective third parties with knowledge of the relevant information.” GAS § 3.03.
Mr. Axenfeld does not possess the requisite independence in relation to Mr. Goldsmith to assure
that his findings will be “viewed as impartial.”

         You are generally aware of Mr. Goldsmith’s concerns regarding the role of Mr. Axenfeld,
and thus they are only summarized here. As you know, Mr. Goldsmith previously articulated
issues with the quality of Mr. Axenfeld’s work and concerns about his personal bias. In or about
September 2008, the CNCS IG Office, led by then Inspector General Gerald Walpin and with

was to accelerate the VISTA awards in order to ameliorate the effects of the recession, particularly in urban areas.
The risk identified by the staff was CNCS acting too slowly in making VISTA awards, not too quickly – in fact,
when some of the VISTA Recovery Act dollars were still not allocated a year later that became an issue of
sensitivity.
2
  Further, as you know, you suggested to Mr. Goldsmith that the audit team initially expressed a concern regarding
whether Mr. Goldsmith may have inadvertently violated § 4.03 of the bylaws. Even a cursory reading of that
section of the bylaws, however, demonstrates that such a concern is wholly misplaced. That section affirmatively
supports my client’s views, and rejects those of the audit staff. The section requires recusal from “involvement in
the administration of a grant program” only if a Board Member was associated with the program in the prior year.
And, since one cannot merely construe § 4.03 as surplusage, it by clear implication authorizes a Board Member’s
“involvement in the administration of a grant program” in the absence of such a prior association. The audit team
does not even cite this language. Instead, the auditors assert that wholly appropriate conduct by Mr. Goldsmith (that
plainly is well short of the allowed “participation in the administration of a program”) is wrong if a year later there
comes into existence a relationship with the grantee. How could any Board Member possibly perform under such a
speculative and unknown standard that is fundamentally inconsistent with the bylaws? And what is the authority of
the IG’s Office to engage in such a speculative and rampant deviation from the fair application of the bylaws?
                                                                                    Kenneth C. Bach
                                                                                      April 11, 2011
                                                                                        Page Seven


Mr. Axenfeld’s participation, began an investigation into Kevin Johnson, the soon-to-be elected
Mayor of Sacramento and a community group he helped found called St. HOPE Academy. St.
HOPE was a recipient of grant funds from AmeriCorps. Mr. Goldsmith was directly involved in
the registering of complaints against Mr. Walpin and Mr. Axenfeld as a result of their conduct
during this investigation. When the case against St. HOPE and Mayor Johnson was settled, Mr.
Walpin and Mr. Axenfeld strongly and vocally disagreed with the settlement and called on Mr.
Goldsmith to discipline CNCS General Counsel, Frank Trinity, who supported the resolution.
Mr. Goldsmith rejected their requests and similar complaints they raised regarding an alleged
conflict of interest between Mr. Trinity and the U.S. Attorney for the Eastern District of
California. Eventually, Mr. Walpin’s actions in explaining his handling of the St. HOPE matter
(which actions were undertaken largely in concert with Mr. Axenfeld) played a material role in
his termination by President Obama.

        The past history between Mr. Goldsmith and Mr. Axenfeld is a clear example of the type
of impairments described in the GAS that mandate an auditor to recuse himself from an audit.
See, e.g., GAS § 3.07(e) (“preconceived ideas toward individuals, groups, organizations, or
objectives of a particular program...”); § 3.07(f) (“biases, including those resulting from political,
ideological, or social convictions that result from membership or employment in, or loyalty to, a
particular type of policy, group, organization, or level of government”). Mr. Goldsmith raised
these very concerns with you on or about February 5, 2011. You assured Mr. Goldsmith that
there was no cause for concern and no conflict of interest presented by Mr. Axenfeld’s
involvement. On or about February 8, 2011 Mr. Axenfeld spoke to Mr. Goldsmith directly and
assured him there was no conflict of interest. It is apparent, however, that Mr. Axenfeld’s
involvement was not consistent with the GAS, and that he should not have been part of the audit
team.

        In addition, during the February 8, 2011 call, Mr. Axenfeld explained to Mr. Goldsmith
that he and his fellow auditors would need to travel to New York because they had numerous
documents to show Mr. Goldsmith. Yet, during the interview with Mr. Axenfeld no documents
were shown and most of the issues described in the Draft Report concerning Mr. Goldsmith were
not discussed or explored in the type of detail necessary to “obtain sufficient, appropriate
                                                                                     Kenneth C. Bach
                                                                                       April 11, 2011
                                                                                          Page Eight


evidence...” In fact, the interview with Mr. Goldsmith regarding VISTA involved only a few
questions that were perfunctory and of no consequence. This approach appears to demonstrate
that Mr. Axenfeld’s findings are compromised and will not be “viewed as impartial by objective
third parties with knowledge of the relevant information…”

                                    *                *                       *

         Our goal in writing this letter is not to criticize any individual or the Inspector General’s
Office. Rather, we simply wish to bring to light the apparent deficiencies in the Draft Report, so
that it can be corrected prior to completion. At a minimum, the audit’s conclusions and the
evidence upon which those conclusions are based should be reexamined by an independent
auditor and the factual inaccuracies and unsupported conclusions should be removed. Both the
revised draft and final report should, at a minimum, comply with the General Auditing
Standards, which govern this and all inspector general audits, and we respectfully renew our
specific requests set forth at the outset of this letter.

         Finally, we expect to copy the current Board Chair, Vice Chair, and CEO with this letter
and ask them for the opportunity to present relevant information. Our goal, of course, is to work
with you in your important professional responsibilities, and, as noted, we are pleased to meet.
We believe the report takes the good work that Mr. Goldsmith routinely did for a decade to
protect and strengthen the Corporation and turns it on its head into a liability. I hope you will
agree.


         Thank you for your time and consideration.



                                                   e y t uly
                                                         uly
                                                          ly yours
                                                             yoouurs
                                                                  rs



                                                   nnthony
                                                     tthhon     Coles
                                                         o ny P C oolleess
cc: Vincent Mulloy, Esq.
                           EXHIBIT C


Email (redacted) from Diahann Billings-Burford dated April 14, 2011
From: Billings-Burford, Diahann
Sent: Thursday, April 14, 2011 3:16 PM
To: xxxxxx@cncsoig.gov'
Cc: xxxxxx@cns.gov'; xxxxxxxxxxx
Subject: NYC Service Response Prior to the release of the Draft Report
 
Good afternoon, 
 
Below is a letter pertaining to the Draft Report.  I will be sending a hard copy as well, but I am sending 
the electronic copy, as I understand that time may be limited. 
 
All the best, 
 
Diahann  




MICHAEL R. BLOOMBERG  
Mayor, City of New York 
 
DIAHANN BILLINGS‐BURFORD 
Chief Service Officer 



        Re:   Draft Audit Report regarding an Audit of Corporation for National and
        Community Service Grants Awarded to the New York City Office of the Mayor
        (“Draft Report”).

Dear Ms. xxxxxxx,

As the Chief Service Officer in the New York City Mayor’s Office, I oversee the NYC Civic
Corps, which is an initiative of my office, NYC Service, and a proud AmeriCorps program. I am
writing prior to the release of the Draft Report to offer factual information that I believe should
impact portions of the Draft Report. The City of New York will submit a more detailed written
response as allowed under your audit process after the release of the final Draft Report.

From August 2009 to July 2010, the NYC Mayor’s Office ran the largest VISTA program in
New York State and implemented a new model of how local governments can interface with the
Corporation for National and Community Service (CNCS) to maximize the power of civically
engaged New Yorkers to meet CNCS’ goal of supporting programs that provide vital assistance
to institutions and organizations that serve the public, including: national and local nonprofits,
schools, community organizations and public agencies. During 2009- 2010 we implemented a
program that helps thousands of New Yorkers through this economic downturn. Specifically, in
its first year the NYC Civic Corps engaged 89,157 community volunteers who served 987,444
clients. The corps members also developed $1,073,485 in cash resources and secured in-kind
donations that valued a total of $3,920,123.
Again, my goal is that this letter and accompanying documents will present factual evidence that
should impact some of the findings shared in your draft.

       The Mayor’s Office disagrees with the finding that select VISTAs engaged in direct
       service.

In your Draft Report finding 3 is that VISTA members engaged in direct service. The Draft
Report contains the following examples to support this finding.

       Furthermore, a VISTA member that served at Year Up reported engaging in activities
       that were approximately 50 percent devoted to direct service. For example, the member
       interacted with students on an individual basis and taught and trained the students on
       mentoring. Another member that served at Year Up mentioned spending 10 percent of
       the term on direct service. The member stated they acted in the role of an administrative
       assistant.

       Moreover, two VISTA members that served at NYC Department of Parks and Recreation
       stated they performed about 20 percent of the term providing direct service by planting
       trees and conducting training to citizens on how to take care of trees.


       Lastly, a VISTA member that served at Federation Employment and Guidance Service
       reported devoting 20 percent of the term providing direct service by teaching classes.

According to the Guidelines for Selection of AmeriCorps*VISTA Sponsors and Projects, Part I.
Program Directions, “AmeriCorps programs must focus on the mobilization of community
resources, the transference of skills to community residents, and the expansion of the
capacity of community-based and grassroots organizations to solve local problems.” In addition
to meeting this clear definition, the NYC Mayor’s Office relied on CNCS guidance to define
this term when crafting VISTA assignments. Each of these activities was explicitly listed in the
official VISTA Assignment Description (VAD), which were approved by CNCS staff.

I have attached the VADs for Year Up, NYC Department of Parks and Recreation, and
Federation Employment and Guidance Service (FEGS) to support this point. Specifically,
Activities 5 and 7 on all three Year Up VADs. On the Parks VADs, xxxxxxxxxxxx’s Activities
7 and 12, xxxxxxxxx’s Activities 6, 7 and 9, xxxxxxxxxxxxx’s 6, 7, 9 and 12 all explicitly state
training as an approved activity. xxxxxxxxxxx’s, VAD at FEGS Activity 3 also includes
training as part of the VISTA’s assigned plan.

       Two of the host sites mentioned indisputably met the anti- poverty requirement.

The claim that VISTAs assigned to New York Legal Assistance Group (NYLAG) had no impact
on poverty is inconsistent with the facts given NYLAG’s mission. The following paragraph
appears as support to Finding 4 in the Draft Report:
       Based on interviews with some VISTA members that served at New York Legal
       Assistance Group, we were told that the services they provided had no impact on poverty
       or VISTA.
 
NYLAG is a nonprofit law office dedicated to providing free legal services in civil law matters
to low-income New Yorkers. Founded in 1990 on the premise that low-income individuals and
their families can improve their lives significantly if given access to the justice system, NYLAG
works to: empower individuals, protect fundamental legal rights and promote access to justice
among vulnerable New Yorkers. The statutory mandate of AmeriCorps*VISTA is “to eliminate
and alleviate poverty and poverty-related problems in the United States by encouraging and
enabling persons from all walks of life, all geographical areas, and all age groups * * * to
perform meaningful and constructive volunteer service* * *where the application of human
talent and dedication may assist in the solution of poverty and poverty-related problems and
secure and exploit opportunities for self-advancement by persons afflicted with such problems.
In addition, the objective of (AmeriCorps*VISTA) is to generate the commitment of private
sector resources, to encourage volunteer service at the local level, and to strengthen local
agencies and organizations to carry out the purposes (of the program)” (42 U.S.C. 4951).
NYLAG and the work of the VISTAs supporting the mission meet the “anti-poverty
requirement.

I have attached the mission of NYLAG, which can be found on their website, www.nylag.org,
and NYLAG’s VADs to support this point.

Under this same finding, the claim that the Department of Parks and Recreation’s team was not
focused on low –income priorities is inconsistent with the approved assignments and the work
the team accomplished. The audit relies on following to support this finding:

       The VISTA members believed the Million Trees program was not focused on low-
       income priorities; some of the events took place in the wealthier areas of the city as
       opposed to the low-income areas that were proposed in the application. According to a
       VISTA member only 3 of the 20 tree workshops conducted were in low-income areas.

 We pulled information for all where the VISTAs worked that year, and many can immediately
be identified as being in low income areas. This list includes Middle School 61 in Brooklyn,
NY and Intermediate School 93 in Queens, NY. Each of these public schools has 81% to 90% of
their students coming from a family that received public assistance. It also includes
developments run by the New York City Housing Authority (NYCHA), which provides public
housing for low income residents throughout the five boroughs of New York City and also
administers a citywide Section 8 Leased Housing Program in rental apartments. Other sites are
located in our most disadvantaged neighborhoods, such as Jamaica, Queens, Bedford Stuyvesant,
Brooklyn and East New York, Brooklyn.

In addition, the VISTAs at the Parks Department supported the work of a program, the
MillionTreesNYC StewCorps, which used tree planting as a larger part of engaging volunteers to
transfer skills to allow at –risk high school students to be more competitive in the workforce.
Trainings for the StewCorps took place around the City.
This program did in fact have work force development trainings in areas of New York City,
including some that are not impoverished, but all StewCorps efforts were designed to transver
skills to at-risk youth in an effort to counter poverty.

In addition, to the VISTA VADs mentioned before we are also attaching xxxxxxxxxx’s VAD at
the Parks site; all illustrate the nature of StewCorps’ work. I have also attached the complete list
of where the StewCorps workshops took place to support this point.

       The NYC Mayor’s Office took corrective action and drafted VISTA Assignment
       Descriptions with each host site at the beginning of the term of service.

The auditors have stated that:

       During our review of the work papers from the Corporations’ monitoring effort, we found
       that the VISTA mentoring guide form completed by a host site organization and also per
       discussion with the Corporation’s senior management, we discovered NYC Mayor’s
       Office did not involve the host sites in the development of VISTA member's work plans.

In fact, NYC Mayor’s Office did involve host sites in the development of the VADs. The VISTA
New York State Program Director and another State Program Director along with NYC Service
developed VADS with every site at the beginning of the service term during host site and Pre-
Service Orientation (PSO) training. All VADS were tailored for individual VISTAs under
CNCS supervision during the orientations.

I have attached an email sent by xxxxxxxxxxx, a NYC Service staff member, to the host site
supervisor at Jewish Association for Services for the Aged, and one email sent to xxxxxxxxxx
from a host site supervisor from Computers for Youth to support this point.

       The Parks Department did not hire any NYC Civic Corps members.

Finding 6 of the Draft report is that certain host sites employed VISTA members prior to the end
of the program resulting in early terminations. One of the sites listed under this finding is the
New York City Parks Department. This is incorrect. The Parks Department did not hire any of
its VISTAs.

I have attached an official letter from xxxxxxxxxx, Director of MillionTreesNYC, NYC Parks
and Recreation, to support this point.

In light of the information that I have presented in this letter and the supporting documents that
accompany this letter, I respectfully request that the relevant portions of the Draft Report be
revised or deleted prior to its official release.

Again, in accordance with the audit process, we will submit a full response to the final Draft
Report, after it is officially released. The intent of this letter is merely to provide you
documentation that we believe contradict some of your tentative findings. We also question the
remedy of recovering funds from the Mayor’s Office given that 1) the remedy is not addressed in
the Memorandum of Agreement and 2) the funds in question were paid directly from CNCS to
the VISTAs.

      Thank you for your consideration,
                                          Very truly yours.

                                          Diahann Billings-Burford




          --
      Cc: xxxxxxxxxx, Corporation for National Community Service
          EXHIBIT D


VISTA Program Guidance for FY09
                                                     La
                                           INA~-['i'ONA
                                           COrvlMU1\J ITY
                                           SERVICEt'UJ



              Volunteers in Service to America-
                            VISTA


                     Program Guidance
(   ,y'
          i           Fiscal Year 2009
               October 1,2008 - September 30, 2009
 Contents
COIlI~llh      ........................................................... ... ... ... .... ... .. ... .. .. ..... .. .. " .. ... ... ..... .. ... .. .......................... " ..............   2

Inlrudul:liun ....................................................................................................................................................... 4

Key Chllngcs ill Fiscal Yl'ur 20U!} ................. .. .... .. .. .... ..... .. ... .... .. .. .. .. .. .. .......... .... .............................................                          ~


I.        Ovcrvi,'w        Dr AmcriCorps                 VISTA          Pr!l~rlIIlL ..........................................................................................                      4

      The Purpose              or V IS 1';\ .... .. .... .. ......... .. .............................. .. ..... ...................................... 5
II.       Fra rncwork fu r VISTA I'rllgru 01111 i IIg .................... .. .. ... .. . .. . .. ... .. .. .. . .. .. ... .. .. .. ......................................... 7

      !~nective Programming ('hmaclcrislics ....... .. ... .. .. ............................................................. 7
      Key Principies ........................................ .. ... ... ...... .. ..... .. ... .. ..... .. ,... .. .................................... 7
      r~nsurc a [)ivcrsillcu Portfolio ....... ,.. ,........ ,.......... ,,', .......................................................... 9

III. Programrning Arclls ................................................................................................................................... 9

      Inliependenll.lving ... ,.. ,........ .. ......... .. . ,............... .. ..... .. .......... .. ......................... " .............. 10
          !luusing ,. .                              " .. . ,.. ..    ...     ... . .. .. ... ,." .. .. .. .. .. " .. ... ... .. .. ...... ............ ... ...................... _ 10
          Employmellt ....... .. " .... .. " .... " .. ... ." .. .. .. " ... .. ,.... .... ... ...... .. ... .... ........ " ..... ........... ........... ... .... . 10
          Trallsitioll ... ,....... , ...... .... ... . ,..... .. ... ................. .. . " .. " ..... ..... ........... .. .. ........ ... .. ............... ..... 10
      Financial [)cwloplllcnl ...... , .. .. ,... ............. ........................ .. .. ..... .. .................... ... .......... .. ... 10
          Assel Developmcnt ...                                                       ." " ...... . .. ,.". " .. .. .. .." ................... " .......... ....... .... " ....... II
          l:inJncLJll.llcr.\cy . ,....... .... .                                     . ... .. .. .... , ...... .. . .. ....... ......... " .............. .. .. ........ .. .. ... .. .. " II
          Communlly I'\'onllillil' Developmcill . . , .. ." ... , .... " .. .. " .. ... ....... " .... " ,............. .... ,...... ............... II
      I~ducalion         .............. ,...................... , ........... .. ................. ,... .. .. ........ .. .. ............................. , .... II
          BriJ~illg  Ihe DigiwlDiviuc ... ,." ... .. .. " .. .. .. ,... . .,,' ''' '' ,." ... .. ....... " ... " ...... ...... ....... .. .. ...... .. .......... 12
          l~dllcJ(iunill AJ\',lnc~'II1Cnl       . , .,", .. .. ..... " , " .. .. ... " , .. ,." ,               .... . ." " ... ,.... .... ..... ......... _ .. 12
          KnowkJgc ;,nJ rcchllil.:~tI Skill~...                                                " . .• .. ... ... ... ,. ................ .. ... " " ... ".. 12

IV. VISTA and Corporatioll "ilralcgil'                                 Iniliali\'l'.~      ........ .. .............................................................................. 12

      Mobilizing MlJr~ VullilltCl:rS ..................................................... .. ... .. ................................                                                          13
      l-;:nsuring <..I Brighter hllurc for /\11 or Amaica's youth ...................................................                                                                          13
      l~ngaging Stuucnts in Communilil:s ......... ,..... ,.................. ,...............................................                                                                 13
      r ILlrncssing Bahy 1~()()mcrs' I:.xrerknce ......... " ...... ... .... .. ........... .. ....................................                                                            14
      S u ppOrl i ng 1) i s<lslcr PrCrafcuncss :lnJ 1~l:sr(lIlSl: ...........                                              00 . . .   .... .........................................           14

V. VISTA Rcsoun:cs ................................ .. ... .. .... .... .. .. .. ... .. .. .......... .... ............................................................ 14

      Corporation Slale lllTiee ................. ...... ... ... .... ..... .. .. ,....... ...... ............................................                                                 14
      Standard Projecls .............. ...... .. .... ... .. ............ .. ...... .. ..... ... .. .... ... ... ... ..................................                                        14
      (,rants .......................... ... ,..... ..... ,........ ............ .... ........ .. .... .. ..... ... ... ....................................                                   15
      Cost Share ................... ........... .. ., ... ......... ..... .. ..... .. .................. .. ........................................                                          15
      VIST;\s ................................... ..... ... ..... .... ... .... ..................................................................                                             15
      I.calicrs ....... ,................. .. .......................... .. ..... ... .... ... ., ......................................................                                       15
      Summer ;\ssoeiales ... ,....... .. ..... .... ......... .... ... ... .. .. ... ...........................................................                                               [6

VI. Project MoLlcls ............................................................................, ............................................................ 16



                                                                                                                                                                                                    2
  Single Site l)rojeL'ls ,_."               _..... ..... ......... ... " ... ... .... .... . .... .... ... , .. ..... .. ... _.... _.................... 16
  Multi-Site Projects ....... .. .............. ........ ... " .......... ... ... " . .... . ' ... " ............. ..................... 16
  Multi-Slate Pro.i~cts ............ ,.' ..... ,.' .. _.... ' ............... .. .. ... .... .... .... ......................................... 17
  Nal iOlla! Demonsl rill i 011 Ilroj(C1S" .... .... ..... .. .. . ...... ..... .. ...... " ... ... ................................... I 8

VII. VISTA Projl'd           Ih'.~()url·c!l ......................................................................................................................   18

  Corporation Slale Olflce .......... ............... ,.........................................................................                                     18
  V 1ST!\. Campus ................. .. .. ,............................................. ,.............................................                              19
  Resource C'clltcr" ........................ .. ... ,.. ... ,.................. ,.... ,................ ..................... ... ..........                        19
  Technical !\.ssisluncc .................. .. ,... ... ... ... ,.... ... ... ,... .. .. ,.. ... .. ...... .... ................. ,.................                 19
  LislScrvs ...........................................................................................................................                              19
  ()nlinc Rcsources .... .. ,............................................................ ,..........................................                                19




                                                                                                                                                                     3
        Introduction
         rhe plll"rn~e () 1'1 he FY ~()09 V I" I /\ l'nlgralllllHIIg. (i lIldillli:C i ~ 10 III fl)nll .' lakchilidcrs, ille luu i IIg
        CUTrelll ilnJ prll'ipcct i \'c ., p\\n~\lr". (l r I Ill' rn Igr:lIl1l1lal it.: high I jgbts for Ihc lisca I ycur. This guiualh:c
        is illtcllLicd In dil'ct.:llh\.' dl'Yl:I\lplllclllnr VIS 1;\ prnjc(.'[s, 'iUprU(1 the VISTA mission through lile.
        Cnrpoflltioll', '1(:llegiL illil,:11 i\ l· .... ;\1111 IIIII lillL' the llillinllll\ progralllllllll)!. prinrilies I<lr [he VISTA
        progralll.

         A t:omranilll) !II Ih is gil id:\III.:C. [he V IS I A Dc,\" Ih: krL'\ILl·. is nva i lable II) CIlrpnnlt ion State Orticcs
        1111 Ihe VIS I'A '''lraIlC[ . . ile ilt hllp ,! 'llltrand l'lb gO\ ' \ i:-I;L'!k· ,,~r~lCll;n:!l~c/[p~.~~!.!!l . The VISTA
         Desk Rcf'cn:m:c is IIpuatetl c(lllliIIlH)\lsl~ <llld clllll;,ins dl!l;libl illrl)(matiol\ ror Inc Jay-Io-day
         illlpkmclllatillil UllJ IlIjlllagcll1L'lIlllr V IS I A projects .Intl is also a n!sl)lIrcc ror managing VISTAs,
        Icudcrs, UIlO SlIllllTIl'r a~slh:iates,



        Key Changes In Fiscal Year 2009

          Sct.:litlll ' rllpl~                    I ('hllllgl'
                                                                                                                        - - - _ .-
          I           ~~rpose                       Adds current and relevant Information on poverty
          II           Framework for                Adds the sections EHectlve Programming Ch aracteristics -and -
                       VISTA                        Ensurmg a DiverSified Portfolio
                      P.FE~rammmg
          III         Programming Areas             Organizes around three programming areas Independent
                                                    liVing. Financial Development and Education with sub-focus
                                                    areas In each and lar9_e~ _ p..9p~l~tions
                      Project                       Section moved to the VISTA Desk Reference
                      Im(?lemenlatlon
                                                                                                      - ..   -------------~
                      Strengthening                  Seclion moved to the VtST A Desk Reference
                      Periormance and
                      Accountablljty



        I. Overview of AmeriCorps VISTA Program
         AlllCriC(lrp~ VISTA is thc nalional 't.:rvice program de~igned spedliealfy 10 lighl poverty .
         Authorized ill 1964 anOI(I\llllkJ ill 1965;lS Volullleers ill Sl.'rvil:l.' lu Amcricll.lhe program was
         incorpor.lh.:d inlo the Allll.'riCnrrs Ilcl",urk Ill' prngrlJllls in 11)C)J , VIS 1'.1\ has bc~n on the front lines
         in the light agains\ Pl1\'Crty ill ;\1lll:l'il.'iI f{\r !\lorc Ihall -1.1 years ,

        V IST;\ sllppnr1!> dl(\I'1.~ t(l "I k'vi~\le p\)\il.'rt~ hy l.'nelluraging individuals from i111 walks of lile to
        cngage ina ycar () r rlill-l i Ill~ st.:rv il:c. \"'I( h01l1 fl!gard 10 regu lar w(ll'k ing huurs, w ilh a sponsoriog
        organil.ulion (:;PIlIl'OI') II) cre;l(l! Dr CXrilllU pnignlllls tksigll(.;J 10 bring Individllals und communities
        Oul     or
               poverty.


        About VISTA Sponsors
        Public, rrivat~. <lIlU (';lith-hLlsed IlUllpmllllHgam/,;tlil)))'\ - as wcll a~ local. slate and federal
        orgllniziitiolls <':£111 nprly III bt.: a sponsor, SrOllsllrs IIlllSI be able III dired Ihe projetl, supervise the
        V ISTAs, and pr()\ ide nCL'es,>afY ad III i Illstral i W SlIrrllrL to (;omp Ictl.' thc goals 0 f the project.
(   )   Sponsors u<':VL'lllr auu IllillHlgl' pr(l.il'Ll~ \\ i(1l Illl' illvol\lClTlt'l1[ or the <':olllJnUnilit:s that will be served.



                                                                                                                                            4
I )q;an ilal      inlls ~all 01 ppl)            1(\   b~l'<llll\.' iI -;pl 'll~m        hy    I' i~11 ill~   1111P   ,1\ II \"_~; III..!l'Ii~).r~ nr ~()ntacl iIlg
the   Corroralillil SI;lIl" ( lnil:l'                     ill IIil'ir ,1;1Il'

Ahour          VISTA,~
V IST/\s ,"111'11\: lr,lll\ ;1111\:111., ,.1' Iii\: I h~} Ii,\., wid "~n c i ll ~(\lllC III' 1)1Ir ",,,Iion's I'lourcsl IIrhan lind
lllra l arl.'as, h l\;11 V IS'I i\ 111;11..l!~ J ) C;II' InIH'" 1'1I11-llme ~1I111nHtIIl\':llt to ~ervc 1I11 :l spcc i.fric project
Wllh;\ '\PI)II"I " III I dill II r"r lliei .. '-.el I li.'I'. V IS I ;\ '; rl·t"cj. ... ~ ;1 Illlldl"'" livil,l g i'dlo\VHllCC :lnu helll,h
h~'lll; Ii I ~ d ll n ll l~ I hl' 'II'   ,\-'j'\' Il'C,   :tllli 1101 I l- I hl' \ 'p l ioll (II" l'l'CI.: I I' i n~ ;l ':i,I. 7   i"   'il.-~;JI   t\ mCl'iC(Jl'ps
L JIllall1ll1 I\I~;HJ {II a                 '\)11.200 '1ll'elid .Ilkl' CIIlllPklll\g Ili c ir ; c I' ll i\;I.: ,

I n lisen I year :!009, Iilorl' thun 6,O()() V I STi\ S II III ~crvc \V itn over I, 100 sponsors, They wi II
Icwrage II lima n. lillllllC iill, alld maleri a I rl'SUIJrl'eS 10 dcvl.'lop se If-'itlstlJ i n i ng solutions to problems
ill low- irll.;ulllc CDIlHllUlll1 ics :Ie I'ns'i Ihe CIlllll1 ry




The Purpose of VISTA

V ISTA i~ a redel'nl program ell" I'~l'd \'v it h .Ii Ie, iillillg.                                  pll\'l:r\y      in the U11 iled Sillies. Since its
<1UlnlJriLOtioll ill 1964. ils plll'pnsc has nl'el1:

               tu strengthen lind sl/IJfllcmenl el/orls 10 diminole and lIlleviule pOl'erly anti puverly-
              re/(lle£! IJ/'{)hll.!ms ill Ih<! Uniled ,\lttleS h»'I!IIL'olll'lI.e:ing lind enabling persons (rom all
               \I'{/Ik.~· oj lij~. 011 gell,t:,J'lIIJ/Jic(l1 (fJ"/!(/.\', (IIulll/l (lge grollp,\", im.:II/Jing low-income
               indil'iilllu/s, eldl!rl)' lind I'd/red "Jmt'rimns, /0 perlimn meuning/id {Inti constructive
               l'olllntl!e,. ,\','nlet! in uJ.tt'lJcie.I', il/slilliliolJ.\'. lind .I'il/WI/On.I· where Ihe app/icalir)J1 (~/
               hllmlln lolem (lnd dedinll ion I//u)' 1/.\'.\'/,1'1 in I hI! .W/UI ion (~(p()verty (Inti poverty-
              reluled 1)/,ohlelJl.\' lind ,I'l'o/rll lind eX},lo/1 OP1J{)l'llIlIilil!.I'./ol' .\"I!l/~lIlJvllncemenl by
              fll!l".I'otJ.I' oj/tided \I'itll slIt'h pJ"uhlem.\',

i'u lInucrsl<Llld hllw Ihl' V IS! t\ pr!l).!.r'll\1 carries Ollt iIs 13" rposc, it is helpful 10 \:Ons ider a rew
                   r
L:haraCICrisl ics 0 poverty   ill the t.: IlItl'd Slilles, wh ie h has Illany f:lccs and causes.

       •       i\cL:l'rding 10 the Ccl\'~lIS I!lln:all, which rL'por1s the official powrty measure io the United
               Sl(lICS, I h irtY-l'ighl III i I! i(ln IKOP!c I ivc ill poverly loduy, To dct c rill ine who is in poverly, I he
               C~I1SUS [3un,'''u ()SI.!S 1I ..,ct nl' II\0n..:) income thresholds 11'.<1\ vary hy lamily size and
               compos il iun. I r II fill II i Iy' ~ 1(ltal i n(;()IIIC is less I hem I he I~dcrll r Ihre~ho Id, Ihen thllt fam i Iy
               lind \:very i IIU IV idua I ill il i ~ lon sidcred III he r i vi Ilg in {)ovCI1y. For cX;'lInple, 10 be
               clll)siuercJ poor in 2()()~." lillnil! ui" n.llll' living ill Ihe conlincntal U.S. would have an
               income         11   r less I hall I he          reJer~d I hl'e~h\)lu II          r $:! 1. ~OO.
       •      Some pcnplc I i \Ie ill poverty [i.)r a SiluJ1 t i(ne liS I hI.: result or l:I sit Ilat lonal cire umSlance such
              as ullcmployment. chronic illnL's~, uisClbility, uivuret'. or death urn ramily member. Nearly
              40% () r those enteri Ilg. PllV<..'rty had a hnllseho Id JlK'Ill her lose a job, Employment is the most
              cunlmoll trigger evenl ror c.,il illg po\'cl1y ( 10,5%) (Transition Lvenls in the Dynamics of
              Poverty. ~O()2. Th<..' lll'null IIlSlilul<..').




                                                                                                                                                                      5
     •    () I" ,\ IlICl'lci\ 11-: Ii ~ il\~ h~ 10\\ I Ill' po, l\n~ I inL'. ,lhulll 75"/', ;lr~ ill ~cIH.'ral inllal p(\v~ny, wll ie h
          rdl:rs 10 pL'upic 11\ lilt,!. ill pIn l'rI) I"or I,,,u nr Ill\ll"l' g~llcrali()ns. Wilhout inlcrvelllil)ns, it is
          very li"cly Ihill pc.:llpk li"iug. in gCllcrllli{lllal P(\\"c.:rl~ will rCIIJ;Jill in Ihis slille flIT Ihc
          rcmainder ui" Ih~ir live~. Studies ~1Ig.gcSllh\\llhe IOllger a pcrsllil has nCl!n poor, Ihl! Ic~s
          Iikdy i, i" I hal he.: PI" ~hc ... \ III l'Sl'" pc p(l~ crl)! (I"i II). I) n ivcrsily (\ r Miehigan). Furlner,
          wilholll inh:r'vl'nlil)!I,~, il i~ :11<';0 'l'r~ li\...\,:I), Ihal Iheir chilJrcn will jllil\ (hem in n:m:.Jilling in
          poverly. Inu i 'v iLilia Is III gCllcnlt IUllid pOVt'rly olIL-1'l do 1101 sec Cl c hoke or know how to
          accc,~s propcr rcsolln:cs.



     •    III ~ OOel, 16 III ill i(ln A IlIt'I"IC<ln~ Ii ~ cd III ...~evl'rC rOVL'r! y," <lcwnl i ng In Ihe U, S, Censlls
          Ilurca II (pL'llp II.: Ii \ ing. "I k~~ I hall h<ll r I)/' IIH.: poverty kv~ I: c, ~., an inJ;v itillar mak ing
          $.:l,IWO pcr ] car lH ks~). A ppn)\. 'Illilic Iy .1,:) 11\ II I iOIl iml i v iJun Is cxpcricncc h()melcssne~s
          ;n Ihc U.S. l'a-:h .\car t)i'lhal 1Illlllncr. an(llil 60().[)()O III'C lillnil;cs and 1,)5 million children
          (Nal iOlln I A II ialll.:~ Iu 1: Ild Iloll1<"'ic.:sSIl(.'ss)

IJcCilUSC I hefe is 110 singk PilI h illl\) ur Olt\ ul" pm'\.'l1y, \~;I h muny eVCIIl!\ Ihmw ing peor Ie inlo
poverty anti mally l'YCllts helping. pcnpk l'.,il ('Will pII'vl'l'ly, Ihe VIS rA program suppons locally-
dri vcn sol III iOlls to lit-hi i I1g Pl) ... tfly. <.;peei nell Il~. as 1l111(.'J ill I hI,: Domes I ie Vollinteer Scrv it;c Act,
the progrum is Jl.!si~IH.:J:

     •    To strcngthell Inca I lI!,(cnc iL·s ,lnu uf[!.iln 1/,,11 ions til carry oul Ihc purpllse             or Ihe organ i"Llllion.
     •    To encotlrngc vo 1lIlIlcc,;r Sl'rv it'c :11 I hl' Ilk',11 kvc I.
     •    To generale Ihe cUlllmillllcnl          (11"   pri\'Hle seclor I'CSOllrCl:S


Accordingly. in eh()()s i IIg \\ II Ie h ,Ipp! leal i()11 ~ 10 SlirpOrl, V IS I"A projecls unu "ponsors arc cvaluuted
baseJ on lhei r carabil il~ 1(1 Sllppnr\ Lhl.! V I S I'A prugralll III rOllgh e ITol1S             or
                                                                                             bu i lei ing long-term
~nllllions to rover!y ill Iheir C(lJ)mlllll il), A prnjL'c\ III LiSt:


          Ilwolve henL'liL."iHril.!!> ill prujl:l'l ue \ ~ I(lPI11L'lIl ~tnd i mrklllenlUl i()n Ihroughuu I Ihe life 0 r Ihe
          project.
     •    Address Ihe Ilel'ds Ill" 1()\~-iIlClll11<: COllllllllllilics <lilt! othl'rwls(.' comply wilh the provisions of
          Ihe Domesli~ VI\!WIIl'l'r Sl'l'vicl'S Al'l or 1()7J, (DVSJ\) as ,lInL'nded (4~ U,S,c. 4951 cl
          seq.) arrliL'ablc 10 V IS I J\ ami .111 aprlic<lblc publishcd reg.ulations. glliJelilles and
          Corpor<Jlion policies
     •    Lead 10 bl1 i It.!, ng org:1Il i/.al iOIlIl! illldhir e(llll In Ull ily cap;}c ity 10   COlli   illllC (he e ITorts of the
          project ollce V I STJ\ rcsourCt'S arc \~ il hdrawil.

     •     Describe.: in nll:<lSllrahl~ ICfillS lilt' rlillicip<lled sl:lf-~lIlricil'IH;y results at the conclusion of the
          pr()j~cl. 11lC lulling. ,hl' SII~I:linanilil~  .11' Ihl' prlljcl'l aCli"il il'S.
     •    CkiJrly sla(t,llIl\'v VIS l'J\s \\lIl De Iraint'd, sllp~rviscd,             ,mu supporh:d to ensure Ihe
          aehievcllKIII     Drpmgl":.llll glJilb (lild ubjecliw:>.

     •    Be internully consislent: Ihe rrohlcl11 sl:.Jtemcnt which JClnonSlralcs need, the project plan,
          the assignmcnl. Hilti all pliler l'llmpOl1l'lIlS IllIlSI nc rcialL'd logically to cach other.

     •    Ellsurl' Ihal V [STA lind C\ll\lIl1l1l1,ly rC~I'lirces ure <';lIrlici~nl to Llchicvc projecl goals.

     •    I luvt, Ihc managcllll'nl :lIld lechllil':ti earllbilil~         10   illlpiL'lllcnl 11\<..' Pf(ljcct sllccessfully,




                                                                                                                                          6
           •      IllIve all appropri"ll' IHllllhl.:f III' I'cq III': ,;t~J VIS 1'1\ s 10 Illah: h Iht: pmjed goa Is: lhc sk ills allu
                  qua I i Iii: al iOlls JI.'SC rihed ill Ihe Ilppl it: al illn l\lll~( hI.' Ilppfl 1111' ialC for the ass ignment(s),




    II. Framework for VISTA Programming
     v IS I'A projecls \,:ol\lai,1 Illc l'ielllCI1IS rl.'lpllred          h~ I:.IIY,   Me dri\'en hy Ihe necus Ill' the 100:al
                   arlo' IkvL'lllped ;\Ild illlpkllll'lIlcd \I ith Ihe peppic who arc hcnclieiaries or thl' rrojccl.
     (;11l1111111111Iy.
     and arc i1 part Ill' a divcl'sl' p\lrtl'llliu 01' pruiecl\,


     Effective Programming Characteristics
     Programming priorilies ;Ire dl.:ril, cd i'rnm Ilh:al. >;Iale and l1atiollal m:eus or trends, :md Ihey may
     change ovcr ti'lle as nceds I:hallgl' ,

     Programilling shnlllJ             ne prll1wril~         based on addre,'lIlg Illt.:allll'cds, and Ihe Corporation Stale Office
     should he gu ided hy loca II) -Lim Cil progr;\I\\ IIdllg ,



     Key Principles
     1~iI(; h V 1ST J\ rrojed IlHISI 01.: dc,'e Illpt;:d i 1\ acctwd;\l1ee \~ il h I he par:\lHetcrs de lined by law, feucra I
     regulaliolls, and the kt..:y VIS 1',\ prillcirks: I\llfi-pI)\'crty l:oClis. Capal.:ily l3uilding, Slistuitlubic
     So lut il)nS, and CUllI Illlllil 'y hllpll\\'crmcl\t.

     Alltj-Poverty Fo(us
     II y law, Ih . . Jllll'pllS . . (I [' V l"i I J\ i:-;
                                                    \0 ,IlJlptln l ' llllI'ls 10 lig,h I povl'rly. I'hc gUlil or every project must
     ht..: 1(1 help illdivldllal~ , I!HI lli1HII1Ulli1 11.' '' IIlIt pI' III \ ~'rly, 1101 simply make poverty more tolerable,
      I hl" pn1l cct o;holiid lill."II.' !t1l "'II~-h..·l'Ill ,,11111111'1:' ralher 1\1;111 shori-Ierm services,

     Community Empowerment
     Organi n\l ions work illg \V ilh V IS) J\ l1Iusl l'II'illn: I hal! lit, 1m Ij~' t;1 l'I1~;J~C ' rl.t5idcnh 'Of the low-
     il\l:olOc CO III 111 lIll i Iy In phlnll i "g, dl'vl'lpplllg . and illlpkillt.:llt ing 111(.' projCl:1. 1'hI,! projl!CI must be
     rcsponsive ilnd r(.'lcY>lnt III Ihe lives "I' Ihe eOIl\l\1Ullil.\' 1'\': ~HkIlIS, illid :.hlluld 1<11" i,lItl .l ilhcl'l'lll
     Cllmm un ity slrengl hs (Inti n.''''Ollr~'cs , I hi ... i ~ nllt IIlIh I cqll ircd h! 1;1\\ :Ind kdcra I rq;;u lUI ion. it hus
     proven to be h ig,h Iy .... I"I'ecl i v~' ill !!\Hlralll""l'll1~ ilppt'ppri;lIl', '"~I;I ill\lhk progral11m lng,

     LJnlik<.: VIS'I 1\_ ~l)lllt: " q't:lIl'lIaliull'o Ihi'l"             ,If hl'nL'ficiaril'''; Incn:ly as clients Ihat receive services,
      I'IlI:ir ill\l)lvcIllCll'I 1/\ Iht: prtl,~~t i, 1111l1inllll, (In~11 jll~t lilling \lilt !Ill evaluiltion, In other words,
     "prlllhs illll:l 1,,-' pb\\ pi,!~1t:l..'i' Ii I/' ill' IIL' t"ll' 1:1 l'il'S, 1I0t 11 III! 'he In . F VCIl aprl ieanl organ i zations who
     Ihin~ bClwlil:lar) ,1\\'ol\l.:ll1",,"t is 1/11\101'1"1\1 may kl il lillll(l Ihe wayside when they arc short on time
     ,Inti i'C:;OUfl'\;"I ,1 Ilw.'_ hl'li~\ e Ihal »II'l'lIl I,d 1"1Il1dl'r..; ,Ire !lilly int~rcsled in "gl ilLY" oUlcomes,
     lJ n fortul1ately , s i IlC\.' (herc i, k~~ C11111111 11 11 ity ow Ill'rsh ip and COli Iro1, Ih is approach may decrease the
     dHH)eCS the pro.iel:l l:oolilllll'S , Wit/,oul helleliciary iIlV()IVl'II1CIlI. the project may not fully rellt:ct
     the ~()I\lm\lnity neeu,

     That is why Sp()II'illrS worh. illg \\ il II V IS J J\ HI'l' f<.'qu irl'd 10 clIsur(.' that the project engages residents
     nf the luw·illcorne U)llltnllllity ill planning, tll've!op"Ig., and implemeilling Ihe project. This
     'Ipproa<.:h <Jllows /ow-incol1)(.' illdiYid\l(ll~ the rrl'euoill III spl'ak for Ihemselves in determining the
)
r


                                                                                                                                            7
proji:t:IS that ;;\1 it thl: Ir spl.:(i lie IH.'l.:ds, II \11'11.'11 r~'SIlII ~ in 111111 Ivai ivc. I.:IT\.:\.:( i VI: progra III (II ing \hal
SlIpports last lug I.: hallgo.: ill th~ Ulillill ull it), :IS \\0 d I :IS I11l',111 ingl'lIl cxpi:ricnccs for the V J STAs.

 l'he O,)rporat lUll Siale OI'liCl' 1l1l1,t !<lke carc 10 l'I1S\I r\.: that :.Ill iI pp Iic:.llll, eager to receive VISTA
rCSllll[Cl'S hy proviJing II well-dn dupi:J projcci plan, al~o surJicil.:llt1y invulves project
hellcficiar les, Ir Ihe POll'llI illl VIS I"A ,pnnSI)rS' oonru \1 r J il'cclOrs i~ I1nl is 1101 made up                  at least   or
5 I % ur the low- incoillc bl.: nl'lic iury C\\lll 11111111 t) , !Ill:) 11111S1 CI'I.!:llc an au v isory groll p w iln a
composit ion of ,ll tellsl 5 1')/0 u r ii's illcrnOcrs rr(\111 Ihe low incnnll' com IllU n ity, !"he role of the board
ur auvisory group is:

      •     To the c;'dcnt prClcticnl. :IS,i~1 the spnnsur ill the initi:d planning of a new project proposal
            and ill Iho.: planll ing of a WI" i11 Wit il)n projcct :1I)pl kal inn.
             1"u ro.:vio.:w ant! proviul:' \~rittcn l'l1nllnet\ls c()ncl:'rning any project application prior 10 the
             subml%iun 01' the aprJil'lIliull, ;\ l:'0PY l)1' slich commcnls ~hall i.lccompnny lhe application,
              ro meet wilh Illl: \pons(ll" ~ \ta IT :11 pcri\)d ie intervals, but 110 less than tw icc per project
             year, for the purp()sc ur review illg i\IIU comnll'nting un the development and implementation
             of the jll'lljct.:t. Such pnl,ict.:\ n:vic\\ lind cUlTlIl1cntary should be directeu toward the adequacy
             (l r I he prujet.:t tu mect I ilL' ;Ul'llI i i"leu Ilcl.:ds 0 r the projt,.'ct bene ficiaries.



             To suhmit. if il so 1'I1uosl.:s, wrill~n l'o.:po/1S and/lH corics                      or minutes of its meetings to the
             sponsor t() aCl'omp~lily till' l'rojl'l'( l'1'llgre:-s I{crort.


Capacity nuiltJin~
V IS I'i\.-. an,' .IS:-I!.'.lIl'd 10 ~Il\ ll\';(ll'~ II \ ~, .... p"l 1(1 the abi I ity of organ iZllt ions to fight poverty, Through
act i\ ilks ~lIcll :1 ~ r(llll! r.1l'"lg. l·,I;lh 11,IIIIIL'111 () I ,'nllllllccr rel.."ru it ment and m~mugCll1cnt ~yslems,
cOin "lUll ilv 111111'1'::1\.."11,   dllJ   P:1I1111'1'\llIP tll'\ dllpnlc Ill. V IS I'As he I p sponsors           (0   uenicve lilst ing
su IIlI ions 10 poverty.
I~xampks          or t.:Gpacity huilJing include:
             Ileiping      spllll~ors       lk\clnp     Ill'W    progJillll' and ~~I'ViCl'S or \,;.\p.!}I~ C.l(iSlillg programs and
             seryil.:~s

             lIe Iping     ~p()nsol's       illlprllvc I he q lilt! it)'   0 I\:~ ist Ilig   )1mgmms anu :ierviccs
             Inercilsing I he lIumher (\ r In ..... · income bellc Ii\: iaries                ~erved   through programs and services
             prov ided by (he ~pOIl SOl' Ilrg,lIll ilal iOI1
             Improving scJ'Vicc lIlililillilln by benelici,lril's (t.:.g .. more of them slay in a program long
             enough tll l'xpcrieJl<."c rcal hellc Ii IS)
             Assist iug \v i til      rurf1H.'r~h ips    ilild   eullu bl)rat ion:-.
             I klping to improvc 1)I'g,allinlli\lni\1 illi'mslrllClure (e.g .. by ucveloping volunteer recruitment
             and truinil1g sy,ll.."llls ur dndllPing and revisillg policies litH.! prol:cdurcs)
             Increasing organi/,mional rl'Sourecs by                        L'~tahlishing     or .:xpun<.ting   ~   pool of volunteers to
             assist with progrums and services
             Im:rcasing linalleial resoun:cs !llld hl'lping to oIJild slistHil1!Jhlc funding streams for
             organ i I.at ions
             Condllcling rublic oulrl'al'll III incrl'a~c rarlicipation in programs and services




                                                                                                                                                 8
     In llrJl:r 10 hu i Id l::ql<lL' il ~, V I S I ,\s thl Iwt IH:l'tlll'll1 (I in.:c t \en' il:l' , Olit'll, :IPP I ieallis aSSliine Ihnt lhe
     pmh illitl( III agu i IlSI d i I'l'C I 'L' I'\ iCl' IIll'all" (hal V IS 1'/\:. 111l1~1 do " () niLe wl\rk'" I lowe vcr . ofnce \"'ork
     <':llllltl he (tire<.:1 sel'"ice jll ... 1 li~e ItIIlH';Il!,!. childrel1 is dirl' ct sCfvicl:. Direct \crvicc docs lint refer 10
     I he illl CI\~ily. d ilYlcUit), or Illc ~\ (l1'\.. ' pl;)ce II r 1111: l;h"S, bul i';llhcr to (ne Ic.le\ls IIIlU nal lire of the
     (a~ks ,      VISTAs arl' COIIIIIHlIl i t~ I1Il1btl'/,L' rs , 11(11 temporary l'IllP lnyccs, Juelllly, V ISTA~ work
     thelllselv\,:s llllt \)1'" job alld el'l:<l1c ') ... lcllh that rClililin 1Illig 1I1'h.:r their ~L'rvice cous,


     Sustainable Solutjl)n~
     VIS I'As arc ~horl·1\.: nlll'\':"(\lII'CL'S \\hn work to e))~ure the long-term slIsl;linahility ul"anti·povcrty
     projects , A II VISTA rn)jcels Shl )lild hc UC\ l' It'pl."d \\> jlh a gO(l1 or till l'vell tULlI phase-oul of the Ileed
     (or VISlAs ,




     Ensure a Diversified Portfolio
     II is thc n:: spomioilil} Ill' c:u.:h t'llI'p'lrali(l1l Sidle t )IT,cl..' 1\1 L'II SlIn: Ihn! Iheir l:urrcnl portfolio of
     V 1ST 1\ projc~ts is d i\ e r:-; e, OtH Ii ill t ..... llb \ 11' progJ,1Il11l1)llle arclls as we It as gcography. An
                                                           or
     add i( IOIl;)1 li lctnr 10 COliS ilkr i~ I hI..' 1:- pc       "pllilsor~     I'rl1l11 small gra ssroots organ Izations to large
     i lI!Cnncu iary ngcnclcs ,

     VISTA pro,iecL, h:lvc all u\>~:raLle likl,yt.:k \11' Ihrcl" li\ t' ),l:ar ... : new pro.i~t.:1 dcvclllrll1ClI1 lakes place
     throughuut lhe yt.:nr, I Il)Wl'h'l', lliL're Illlly he :I \\, : Iilllll~ pl'lIDJ lor i"1l1;d fHl ljC(;1 :Ippwvnl alld cJ\~lling
     V 1ST1\ p lal.!elllCnl depend ing Oil I he Ilumber or V IS 1/\ p"ljL"eh hei Ilg do~cd, rhe 1111101111 t (I r
     rc~ourccs available, <JllJ a I\(';W "fl~)Il"nr ' , altrihlltc, ill I'l:,'.!ard . . III the pllnl\.1Jill. For iIlSt::lIl(':c, is the
()   applic<lllt nrgalli/.alioll 11h.' ... i:,nh utliv~' r~it! SPPlh'fi' III ;! m:II"r Cil~' whcre VISTA i'l'~(\IlI'l:CS already
     c:,ust or the lirs( ,~r(lIlSor ill a    rur,"  ,1I'l':1 (ll IlIl' ~Iall' Il'm! llll'i'l'lt( I! h;h 1111 V I STA fl'so\Jrce8? 1'he
     'iceonu example w!l1Ilu lill a !!ilP ill Ihe Sl:ltl' IJI 'lil'c', (I(orlll)li\l .lIaJ would h\.' mosr likl"ly tu rccL'ive
     VIS I'l\s lirs!.

     Of ClIlIf.\'t!, /III ,'1J/)JI,mf\', re/:llrtlle,\',\' "l orRI",iwlion   ~)'I'/!, f.:t!oJ,:"'I'/ly   or   e,\·i,~/iflf.: !!lflfllJ IIJ II
     ,\pOII.\'Or, 11111,\'1 hllve projecl," t/t"'iKlled Il}(!t'i/iclllly 10 /iKht !'overly,


     Key Lt!gisilltion

             •     f)olllcsl   ie V\)I(II\(cel' Sl'n ier AL'I (as alllclHled by 1'\,01 ie I ,iI W 106- 170. December 1999)

             •     NUl il/Ilill Sl'l'vlee t I'II~t \L'l (as 'lIl1clH.lcJ hy Puhl ic I ,aw I [)()-170, December 19(9)

     Key I{egulations

        I,       Code ol'l-'l'dcl'al Rq.!,ulllllllll". 1 illc ,IS. (lMh \ ~06 . 1210· 12 I I, 1216·1220, 1222. 1226



     III. Programming Areas
     This secliollllutlillc!), al a lll:Kro · yil'w. l)OvlTly·rl'lutcU issues ul'fccting many communities around
     Inc COllnlry. II alsll prov idl'~ l' ,'\<\l1\plcs    or
                                                        how V IS I'A projeds 111 ight address these areas , When
     dcveloping lieI'. prujl'cls ill thi~ lisenl )l'ar, COrppl'Hliol1 \)Iak Ollicl.."s may consider Ihese
     programming /HellS as Illc) rel"lc Illlhcir slak's local pril'l ilIL'~ l\.lkll in coordination wilh State
     C(lmmissions), and . mO~1 importalilly . lin; "pcl..' ilie Ilcl,d .. (If ), ll: ;ll t,.'llllilnunilies,



                                                                                                                                                9
e   I:or I"ISi:il I year 2()()l), ('{lrporaIIOIl   ~Iall'            nHl~
                                                           ( >I"I"Ii:l'S  \\ i sl! In consid\.:r II! rcc progr:J11l1ll i Ilg areas:
    I ndepcmklll I i "lng, linlll\c ia I dl'\ 1..' 10PI\I':1I1. ,lIld cducat i(lll,



    Independent Living
    I':ach year, millions or adulls, SOIll" III' \vhOIll lIrc n:,pulIsibk lor Ihc l';I1'~ ur c..:hilJrcn, lind
    thcm.sc Ivcs IIllable III or IIIH:qll ippeu i"llr S\lCl:l'SS Ii.d III(kpCIIUCIII I i vi IIg. I nLiqll·ndt'1l1 Ii\' illg rro~r;lIll~
    help 10 empowcr 1()\\I-illl'()nH! inlii\ idllal" and provide jJ;llll\~;I~ S (Ill!             (\r  IH)\CI"Y. VIS 11\ SUpPllMS Ihl:
    developmenl Dr SlISll1lllllblc sy~II.·lns Ihtll i ..~si ... ( inulvllllI:d ... III li.l\ IL'.itllllg :111 ()t',h\: l'lelllents Ihlll
    cOlllri Dule I,) I IV illg Sl..·~ lITl'I)' and I IIdepl.'lI dL'11 I Iy.

    Ilou.'Ilng
    V 1ST A supports rTllgrallllll i IIg Jl'd icalnl to Cl HlIICL'1 ing 1:1111 i I ic..:s :llId i I1div idllals 10 emcrgency
    hOllsi ng ilnu lTan.'" il Inllal SlTV il'C~, IlI"{)V id ilt~ :IIT(wdahic pcnmmenl housing, U 11<.1 encouraging
    UUVOCliCY \V II h p( lllliial Inlls I II Ilc"d

    In particular, V I S'j'A "lIPPOr1S rrlljl'~ts Ih<ltl.:nhallCL' Ihe capacily              or
                                                                                  community groups to empower
    inuiviulltlis to be involvL'u in prL'sL'rving anu mainillining affordllhlc housing anu pursue ilnd ensure
    e4uitublL' ucvelnplllL'l\t and I'l'vil(lli/alinn Ihal is inl'lusiye of residents.

    f.mploymcnt
     VISTA SllrpOTIS prl)gnlllHll i Ilg Ih:1\ L'lInb ks Inti IV IJ 11,11 ~ 10 obtn in or Irain for employment thaI is
    .'Ill l"fic Icnt 10 II voiu llJ" c.xil pm L'rl~, prm ioe J1~'cL' ... si I il.'s. lind allow ind i v iu uals 10 save for the future.


    Transilion
    V I STJ\ suppOrtS prognlm III i I\g. I()I' ) (Ill I h ImllS i I II \I1lllg II) :ldull hond and lor auults to access the
    systems, npporl III) il ies, :lilt! rc lal i l \llsh I ps 1(1 SlIl'CL'SS l'til Iy 1i VL' ()II I Ill: i r own. I J1 purt icular, V I ST A
    supports programs ded ielllL'd 1(\ :)'0 0; i ... 1jllg rriS(lllerS fL'L'llIeri ng ~(lL' idy lInu yOU! h aging-out of toster
    L'ilrc.


    [':xamplcs () f V IS' I " prujecb fOl'uo;ed (lll i IHkpL'I1Jl'nl I i v i ng illc luue:

          •    V I STA S I'L'CI"lI il anu mobil iJ:t' ;Idlills 10 serve as menlors {) r youth with no support system as
               lhey transi t iOIl (0 :ILltrh hlll\u ,:\tld .~L'ck lilll.lI\L' ia) slabi I ity and permanent hOllsing,
          •    V I STA S COI1I1I'L' I d iSUu\'<llIlagcJ YOUl h wi III {)Pport unil ics to "dvunce ur complete I heir
               L'ulicalillil (jilt! l'lllplll) 11Icn\.
          •    V I STA S orgllni/.I.' \'OI\lIlIL'L'r-bast't1 Ii: 11;1 lit advl)cacy org,llllll.al ions thal ensure decl!nt housing
               as well as 1.'()l\lled rL'~idL'llIs \\ ilh IlIL'<J1 oprolttlililics.
          •    V I S'I'As UC\ l' lor Ll1lJ111l1iII it.\' \ 0 l\lIIlL'~'r program" 10 III il i Ie baby hoomers as udIJ II mentors
               fllr l'.x'(Jl"kndcrs lInu IhciT J;II\1i1il.:~. 1311by OIH\llICrS menlnr cx-otTen<..Icrs in Ii fe skills, .such as
               plln:nt ing, 011 i IJ i ng rdal i()n~h ips, and III her v ilill 1I Teas (t.lr ~ lIecc~sru [ living.
          •    V I ST;\s JCVl.: lop L'lllll III 1111 il)' nrograills (ha I til i li/L' stlldenls as volll nlccrs in (.;onllccting
               homL'iL'ss alld L'lJcrl~ \'\.'IL'J'(IIlS \V i I h resourcl.'s I hal urc a V;J i lable 10 them.



    Financial Development
    Acquiring t'quily, tin<Jl\ci:iI edul'alillil. and gC!lL'Taling silvings an,' crilical to helping move people
    towaru lin<lnc ial slabi Iii)'. rL'L'ogn ilL' ~Intl ;1 void I inall\.: ia \ prL'UaIDrS, begi n 10 reduce the h igll costs of



                                                                                                                                           10
    PO\'Crly, IllcrL'as\: CI~Cl'S~ 1(1 ,(llIlh.1 lillalll'"iI pr(ltilll'i'i anJ ~t'r\ iees in low-income eommunilies. :Iml
    cilpitilJi/.c lin lillllllci;rll)pplll'lllldl~

     rile U 11 ilcJ Stales is L·,\.periclll: lilt! g.roV.1 h ill t he Ii II am: la I assel u i .. parity bl'l wcen wea Ithy al1u low-
    il)CIllllC Americans. It is csl i1lla(cu Ih.\I (\1)(; (>til or r()ur Aillcricans arc as~el-poor; Ihey hllVC
    ilisurfkicill Ilet w()rlh fill' b;lSit· Ill'CC\'iitics fin mort' \lInll lhlye 11101l1hs. even at Ihe poverty I~vcl.
    V tS'I'As can h;JW LI dirl'l'! illl]1uL'! lIll dcwloping. lilll1llcially slable Cllllllllllllilies through financi,ll
    :lSSl"l uevc Inpl11elll.

    J\S)lct  Development
    Asset <It've IOllmell1 reilla i liS pill' n r IilL: 111(lsl pmll' I.... III I:!. prngrJI n a rcas by wh ie h V I STAs ell 11 lrllly
    diCe! SIIS'" In" 11k' ella Ilge III parlllL'r,h ip \~ i III \Ov. - U\COllle COlllllIli nit les anu the organ izal ions
    '>erv ing I hem, rhe V IS I'A pr!lgnllll (1L:t1 icaIL's Illcillbers to III ic ro enterprise in illalives. whic h hel p
    low- i 11C( IIIlC inu i v id lJ<I Is hCl:l)IIIL' .. d J'-Sli rtieicill b~ dn c loping I heir own busi ncsses. <Ind to programs
    focus i IIg bo( h (\11 ~L'llend Ii 11(111\: iii I I i!nllc y alid a~~l'l . . <1 \. i ngs programs. sLich as I nu i ViUlIlll
    [)cvdOPI11L'lll Aec()lIlll~      (I])A),


    Finllncilll Litcntl'Y
    V ISTA StlPP()r\~ pro~ra IllS tIL-die;! Icd to l·ll1po\o\·cri ng illd i \ iUllltls allu [ow- income communit ies (0
                                               ,II
    lake au Vi\llli.lgc of OppOl'llIlI i llcs HI I'w i Id wen 1111 Ihnl wi II lil( i mate Iy Icud to ~n exi t rrom poverty.
    Tht: abilit)' 10 budget, pl'lII. IlHlIHtgC. <LilU t:.tpil<lli/,c nn rtlllll1cial opportunities are importalll skills 10
    II II. out arc vi lat 10 (ho~L' , .. ilh I i III iteu Ii lIL1nt.: jill rCStllI n:cs a val lab It:. Illdiv iUlla! IInllncial I ilcracy is
    the Erst linc of dl'fcll,c agaln"t fraud. Jeccptilln. <llId the high financial ~osts that often plague low-
     income COIllIlHlIl it il·s.

    Cummunity Economic Dcwlopmenl
    V ISTA SUPP()r1~ rrogrammi ng Ihat l'ol\lriblllcs 10 Ihl: L'tonoln ie dcvclorrnent of low-income
    comlllunities. By Inlproving the slislainubic gl'Owlh In living standards, VISTAs arc able to
    h(.lvc a lasling impi.lcl on the {:()mmUniIY :lnJ builJ Ihe (;coflomic inrraslruclurc [hal will
    provide langible and intangible bl!nclils Ii.)r resiJcnts ui' thl: surrolinJing area.

    j';xllInpks of VISTA projects rlll'll.~L'd          (\11   lilliHlCia! JC,,"eloplllcnt InLluJc:

         •     VISTAs recruil I;llllllllL'crS for Vnhllltccr IncollIe Tax ASslstul1c.:e projects (VITA), as well as
               l'or ouln:aL:h :Icl i vil ies (0 il1l(\1'111 I( I\V - i i1CnlllC persons .tbl\{lt Ihc \:arncJ Income Tax Credit
               (1·:rrC).
         •     V I STAs 1'ec.:rll i t pro- !Junu ['111 illl C la I pn1i'css iOlla Is to htl!>1 persona I flOunce workshops. in ru rat
               eOllllnUIl i I it's.
         •     VISTAs d<.; vclup schulll· based Ii it<.lllC ia I ! i tl'r;lC) progrnllls. inc I tid i ng K I OS Accounts (J DAs
               (iw youth), w il h . . . Iudeilis. \\ lin bolh bL'lldi I Ii-om I he program and conI ri bllle lu the pnlgram
               ilS vlIllIIllcL'rs. fur C.'\ll mplc, us IL'I krs a! yOIl! II crcui! till iOIl~.
         •     VIS I'As giJflll:r the experlise ofrclil'cd b;lby boomcrs who ael as coaches 10 low-income
               perS()Il~ in pOII;ng tugdhcr i/1\-c,llHcnl alld husinl· ... s plans.




    Education
    Education COllI ilHlCS lu be onl' nf I Ill' InnSI il1lportant componcnts of S()cc<.'ssfully Ildvancing and
    securing opporlun il ics. V I STA ~lIpr(lI1S prngr(l!l11l1 ing I hal assists i lid i v idua Is and comm unit ies
)   lhrough edut:atiollul Opr(lrt\lllilies.



                                                                                                                                          11
Britll!inj! t h l' DiUi Iu I Ili\ illl'
I.IH.:aIi y, VIS' (\, l.'onlilHtC h' 1'1:1) ;1 ,il!l1i1it:anl mIL' itl helping community nrgalli/,atiom; a~sc~~ Iheir
Ic-:hnolog} 1lL'~'lk JC\I:/op ;IIlJ dC'I~1I 1...·l· ,ll\I\h\~~ plans: scI lip sl.:hool-basl.'J Ilr ncighburhulld-hased
~()ll\p\ltc.:1" Ic.:al'lllll).! (1.:I\I~'r~: ~Cl'url' rl'S()ItI'(l'~ rur hilnl\l.iln: and sol"twarc: anJ rl.:cruil cummunity
vl)hllllL!CrS Ii.lf a ~ ;Iriely Ill' ,11.:11 \ il ie" illl Ilid ilit! hlll'dwarc.: illstallut ion, instruction. mentoring. and
sturting Wlnpltll'r luhllratol'il'S.

F:uuc .. Honul AcJvancl'Int.'nt
V 1ST As conI illlll.' to p lilY II rille in tlcwluring progr:IIIl" Ih:ll promolL' ellUl'at iun among aHisk
children through carly I.:hildho()d l'dlll:ation: el\l'l1W;I~~' cducatillllal aeces:. anJ ilssisrilllc.1,} 10 youth:
and COlllH:C\ youlh w ilh the rCSOl)n:cs (h<ll will ":i,d I IIl'llI 10 eLlIIL'!!c , rhl; colli plcl ;"" of hig.h school
greatly IlITc\;ts lhe I:hall':~'s Ill' onc's abilily to pruvid~' s"ni\,;i~nlly for tilllrn::;dv(;s and to gain a fulure
of prosperity, Pursuing CdUI:'llillll ncyolHl hi)!./l school prnvidcs mure likelihood of a prosperous
future,

Knowledge .. nd Tcchnicul Skill!!
V ISTAs pin y a vital ro Ie ill tkvc lur ing ~JlI(;1l1 ion alll! ... k ills prujects Ihat makc i nd ividuals more
mar\<ctnble, currcnt. lind increase thl:ir oppOr1ltnily for employment anJ cureer advnncement,

Exam pIes of V JSTA projccts f(1CIlSL'U 011 euucatiotl inl:I\I(lc :

     •    VISTAs iniliatc Lllkr s<:hoo\ rn>j..:cls ror chilclrcn rrom a tnnal nation to hone their
          cotnput ing sk ills ,
     •    VISTAs h!lnll'SS the proh:ssit1llul .:xrcricn~c or hab}' boomers by setting lip Ii prufessional
          und aClllktn ie Il1cnturing program.
     •    VISTj\~ Jcwlor an Fnglish pmgr<llll thul includes (jl':1) preparation in which vollinteers
          begin giv ing. i'ol'cig,ll-hortl inu i v idllUb Ull ()Pportull ily for prosperous advancement.
     •    V ISTAs recruit slllJCI)I~ tu assisl Inw-im:omc youth in preparing materials,
          searching. npplying ('or Iinilncial aid unc.l scholarships, and applying 10 colleges on-
          line,


IV. VISTA and Corporation StrategiC Initiatives
The Corporation for National and Community Service (eNCS IH ('Ilrporlliion) identified five c.ross-
rrogram strategic init iii I ives II) I he ir strategic plan to locus nn dill ill)!. 2(106 t(! ~1I1 0: Mobil izing
More Voluntcers. Ensuring II Iltighll'r ruture for A II or A mcril:a' s Y()llIh. Lngngi ng Students in
Communities, I lilrncssing Bnhy Booll1ers' I':xrerlcnct:, LInd Suppurting Disaster Preparcdness. This
strategic pilln i!i avail<lblc atl.!JIQ.:~~'n\\~~.JJl!!..ill.lHiI~cl'\kl' . gnv/al1l1ut/locus areas/index.asp.

The strategic in il ial ives arl' dice li v~ in foclls i Ilg the CurrOl7t! iUllS r~.'~llli 1't;(,!S LInd high light ing its
erforts in addrl'ssing :-icrious dcw IOPl11l'lll issues nr llllf IHlliol1. V IS r t\ projc<.:ls incorporate these
initiatives <IS approrrialc in I>nkr to eJlhonn: thcir t:tTIlI1's lI1l:el rhe r\.·quisirc llrthe program which is
to eliminale poverty,

For over 43 years, V ISTA has been in lht: lc.lrcJ'rn/l1 of helring cotnmllnities across America to help
themselves fight povcl1y. VISTAs JCVl.1tc il ycar lli'lheir lives 10 challenge poverty's root causes,
They do Ihis by mobilil.lng cOllllllunity volunteers and local resources. and by in<.:reasing the



                                                                                                                           11
    ~'apil\;ily     or
                 pepple ill Iml '1IlC()lllC Llltnlllllililil.:" III~'1( "~'n'I(1.: i'i \\'1111 'POIlSU(S Will) \In: (;fl'!lllllg
J   probraills IOI.·lhOfl' iI brif,thler flllll('l' I'llI' IllW-iIlI:Illlh.' ~l)lIlh , I hc) 1.'lIga!!.1.: :-Iudcnls allt.! baby
    buomers ill lien' icc. t\ lid. I hc) ill in I~ i I h 1\)\\ - ij)(\lt1ll: CUIHIllUIl i lie s III rCI,;OVcr fWIlI disustcrs.

    I he VIS rA progr;III1":II(\lillllcs In (lllllrihllic 111 tllllIl) ways III Ihe Cllrlloralioll's s(r:Jlegic illitialives.
    Hdow :trc sumc 1.'\:lI11pk', III' hu\\' 1111.' ,Ir:llcj.!.ic illili:l!i\ I.' , ;I\'I: Ilsl.'d 10 illcl'l.:ase VISTA pmjccls'
    clTcctivcllcs" ill ligillill~ pO~crl~ .



    Mobilizing More Vo/un teers
    The VIS l'i\ prog.ram \,' I)lllill\ll." Itl :Hld "lI'iI'Iillahilil~ \I) .Illli P"Il',I\ proljl'l.:h"~ hclpillg iIllI'IOVl;
    lhc i r ("Pill: II y In n:l'rtlil :1 lid ~'II~agc l'1 1111111111111 ~ v\ \lillllc~'r\; . I ~~ IlIerl':I'> I Ill). I he If UIIIl CI]JlIC Ily lu
    recrllit :lIlJ "wlla~c C()(lII1\l,,,il~ I 'lllllltl.'l'r~, projecl' k"'l'1\ Iht:ir dCPl·odl.:lley IIIll)lIhidc episoJic
    voluilicers who, ,illhllll~h high Iy 111(11 iv:lIl'd :LIlli I\,dl Illl';""I\~ . ~;IIlr\1)1 pro\'id\.· Ih\.' kVl'llJl' ~(llllinllil)'
    ncclled for IllCllltlrillJ! ;111.1 1l11)L'f pWt,(r;\,,)s Ihal rcqllin,,' 11I1ig-ICI'IIl C0l11111illl)Cnl.

    Strategies lu e tl'ccl i I,'e I) II\1Ihi Ii/\,'           "'Ilfl' \   (~llIlllco:rs III 1.'1111" I II': C    allli - pon:rly programs inl.: luul.::
          •        IlIl'orplIl'<ltc v,,/ull!L:I.'r ~cltcrat il)1I alld II \llllagl.'llll·1l1 i nlo                 1..••'\ isling   programs
          •        IIL:lp organ i/.al i\lIh dl.'vel! II' pllrll\cr~h ip!\               1\   il h 1.:.\ iSI ing vo lunlcer I.:cn lers      ilnd   con neetor
                   organ i/.al iOI1"
          •        Ilclp urgan i /.:1 I iOl1s opl.'raling ill )ow- i rlC()tnC                  C() II) II Iltn   i lies 10 uevel()p long-term
                   rl' lal iOIl<;iti rs \II illl col kge" :11111 IInlvlT"il Ie ... III \.' I'II..'ct ivdy laplhe enormous and diverse
                   I:ilcnls allJ ,Ii. i II ... Ihl..'Y (all pro" idc (In :1 Strsla i Ilcd kVl"l



    Ensuring a Brighter Future for All of America's Youth
    V IS'!'A       is elllli III III III~ I.' tin·\.' Ippi II).! :lIld IIIW,' idlll\..'. n;SOlll'L'L'~ Ih<ll wi \I COlli ribllle 10 I he lire of low-
    ill~(lille Ylltllh 11t(,("I!~h ~1I~1t P"I!l'\.',", :1:"" :ll'lI(klilic             alll..'r :,chun1 programs, access 10 child Cj:lre for
    IVmk. i ng      parl'nl ....   11Il:llll1rlll~ pr(\;.:rillll~,     :1I1d d II Itlrell' s I i Icra~ y programs. Sl)me V I STA projecls
    ,,1':11" 011111 pIll Clllpl\;I:-''' ,>II 1'1':1..:ilill!!    '11I.'llrIL populal iOlls            ur JisadvulIl!lgcd yuuth. such as Ihe
    childl'l':ll   \Ii' pr; ... ,\11l·1 ~   :lIld ~ ,IIIIIi :1~\llg   11111 ,l[   J"",lcr    ~arL",


    Stratcgil's 10 pnwiJe.: (IPPIl1111flilic~ 1"1.\1' ~ullth i'flllll til' ill di:.:ujl'(\lIlugcd \.:in:ulnslanccs    include:
          •        P!lrlicip;\IC ill targ.cll'd prolilOlioliall'l'i'0I1s III aUracl youlh to nlHional service
          •        Impk1llL'Il1 ,\11111111.'1' :ISSll(ia!L'~ prujcclS ailllt:J al L"l1gllging yuulh in community service
          •        C"II:thorall' II ilb !l:dcntl alld IHlllprolit pilrllH:rs ill prisollcr re-elltry proje(ts
          •        D:.;vc\op rdal i(ll)"hips wilh gnve I'll 11 II': lila I :lgl'IlL'ics III udJn;ss issues or l:hi Idn:n aging oul of
                   1()~lcr   care



    Engaging Students in Communities
    As service il-amillg hCnlllll.':S i Ilcrc(\si Ilgly IV itiesprl.'ad ,lIld tn(\n: high s.:hoo Is uml un iversitics
    rcquire scr\' icc !cal'l\ illg I~.r g.radual iUIl. V IS I'i\ CClIl pia), a L"ril iC(l I rok in bt!i Iding the lIecessary
    rramework to CIl'cClivd y levl'I'a!,;c Ihilt resuurce III .";llppI)rl low illcome commllnities in fighting,
    poverty.

    Strategies 10       cng"gl' ";l\ldl.:ot s in ~llrp( In IIlg '\)w- i ne(lm~ L"OIllI1HlIlit it'S incluue:
         •      I Ie I P V lSI t\ 1)I'{ljC<':(S 10 i'\.'(.:ru il und Illilllilgl.: sl \ld~J\ts rn)m lIi.:arby high Sl.:hools, colleges and
                un i vCr~IIIl:~ III (lllllribull' 10 bCllcring Ilcarh) low- inc()me commlill i lies,



                                                                                                                                                               13
     •     / k'/ P v IS I ,,\ pflljelts III tiL:l l'lllr rL'1a1 i( lll"h i p~ 1.\ il h l'dut.:a! \()lliJ I jllst illli ions lilal rcq u i re
           ,en Ile k;1 rnil\~ II) hll i III a 'lI,t:l i 11<1 hk 1\\\\0\ PI' ,tlllie Ills \\ hI) e.'( peri\.'lIcc and develop Ihe
           habils Ill' C:(\IIC~'I'II~'d cill/l:ll'i 1\\1" ih~'ir p(\l)r~'r kllow ~·ili/.I:IlS,
     •      IJlli III Ihe Cilpac il)   II   r c.\. iSI III ~   V t S I 1\ pn)jt'lls In cffect i VI.: ly allru\.'1. recruit nnd rnanage
           loull high 'ch(\nl alld IJlli"er,it~ ~llldeills a..; \'I)luIlIL'ers tll tutor al ~d1001s                    in low-incOllle!
           areas



Harnessing Baby Boomers' Experience
Ilaby BOOlllers hri l1g a WC:II! h II r "'PI'\<.- .111(/ Ii IC-I:.\.p\.'rienecs 10 their V r STA service Ihal enriches
their 1.:()lltribilti()ll~ II> Sllrp\111il1~ low-inl(lI))L' 1:()ll)inllnilics, V IS rA cnntintlcs to lap this valuable
nat innal re'iOurCL' til sen c ,IS V IS I As (lilli/ur as I.: I) \ll1111III ily vo !unlcers rCl.:ru i ted through V 1ST A
rrojccts,

Strategics 10 harncss Ibhy I ~()()Il1L'r,,' I.: ,\.IKril!lli.:c in scr\' Illg low-income cumm unit ics inc I ude:
    •    Partlc I pale in Ihc Curpllral iUll-\-" ide 130()ll\\.',. pmlllut iUllal anu recru 111nL'nt l:am paign
    •    Devotc rC'>()\ln,!e~ Ill\~ ,Ird reel'U it illg Ba by IluUIlIL'Pi us V I STi\ s unu ilS commu n ity volunteers
    •    [)cvc Inp 1ra 10 i Ilg and tcelln leu I assislallce (hat fOL'lIses ()fl the read i ness of nonprofit
        orgall I lat iOlls to appca I to alld liS!:: t hc sk ills 11 r Bahy 1300mcrs


Supporting Disaster Preparedness and Response
v ISTA re~()gn I'~es thL' IIII P()rl(lII{;L' Dr d i sa~t<!r prepn rednL'SS. l'L'1 iei'. and recovery e rrorts in low-
iIlCOl))C C(\\l1I1lUllil ies, As a L'apHcity-hllilding rL'SOlIl'(;C that supports long-term. sustainable sllllllions
10 poverty. V IS rA . s mO~1 L' ITL'L'! i\'l' ,l\ld :rppropritllc I'l)\(' rL'I~lcd to d isaslers is une focused on long-
term recovery ad i v i I ics III InIV -1I1euIIH: l'()lmn\ln IIlc,\.
Stratq~iL's f\)f r\.·l:o\'L'I·)' ill lu\\,- i Ilel 11I1L' are:IS i ilL' lllde:
     • Ilu i Idillg I Ill' C1l pilI.: ily ur orgall il-ilt i()lls Ihat :lrc rd'lll itt.! ing illlhl~lnli,; III re. SliPPOr1 ing
          pennallL'nl housi Ilg. uno rev ilill il:ing the local ccon()\TI its.
     •    Incr":lIsing 1111: t\vcrall k-vel nf VISTA projL'L'iS th<ll foclis on developing fll'fordablc housing
          and L' reat I ng. johs in arL':I~ rL'L'overl ng rrom disasll:l's
     •    L~l\ildillg partnerships nlld securing funding sourL'es needed for sUSlllinahlc recovery and
          growlh i II a I()\~- i llL'\ \\)11: Ilc i~hh\)rh()od,



V. VISTA Resou rces
To leverage fCSOIII\'es and !nCL'! loclIl cO\lllllunity needs. V 1ST A makes usc of several Iypes                                      or
project rL'Slll\ 1'1.'1::;, 'I h~'~L' <Ire desL'I'ihed 11.: low,



Corporation State office
Corporat inn Slille OJ'liL'I'S \~()fk l'losdy \\' Itl1 sponsuring (lrgan il.<1t Ions 10 ensure development of a
projccllypc Ihal is most effecti, e for :lChievillg (;ummuility gnuls.

Standard Projects
StalluarcJprojects are Ihost' projeds III \\' h It II tilL' Cnrporat ion pla(;cs Ll certa in number 0 r V 1ST As
wilh 11 sponsl\f. alld the 'pOIlSI)r funds Incal ()pcratll1~ anJ Ingistl<;s cosls. In standnrd projects.




                                                                                                                                               14
VISTAs 1'(,:L'l'i~l: a II, ill~ :!lII\\\;IIIL'L' bi\'~L'\..I\-' i'1'01ll (ile ('\lrp\lr:lIll1l\ allu olhcr 1i(:llclils as dcscrilicd
     ,1~lt((i~'/"j~' J /.\'1:1 I/I'III!>(:)' II"J/,/hllllk,
ill (he

Grants
hIlH.1S Illay ne it v, ankd        10 ur~<l1I i 1,111 IllIl ~ 10         ;iSSISI ill Ihe ~11 pPllrt       of LI V ISTA project. FII nels Cll n be
lIsed ror Olll:       u(   more Id'lllL' rill h)\\ i ng.:
       •      Surervistllil III' Ihe V IS I";\s, k<llkrs, ,11'0 slimmer aSStiCialeS
              SL'rvicL'-rclaIL'd 1r<1IISrllrlill(1I1l C'\PL'IISC,o; Ill' V IS 1'/\-;, lenuers. and slimmer associaks
       •      rra illillg fpr V IS I As ;lIld kadc rs \\ IICIl II is ill Ihc i Ille r~slS II r Ihe VI S r /\ advClm;ing Ihe
              rmJeL'1

                                                               r               r
III SOniC IIISI,II1CC';, \\ II h I h~' "PIHll \ :tl \ I till' V IS 1\ D i I'l'l.: 1m.              c:\ i.;( illg   sponsors Inay   lie awarded
funds 10 imrkl1h:1I1 IhL' VIS '1\ livill!!, allll\\allL'C,


Cost Share
III   "rder   10 L',\jJllIllI   Ihe IHIlIlIIL'I' (II y' 1\ 1/\., (hal         C!11l   he "urr"I'lL'd wilh Ihe lilllih,.'u kllL-ral rllrldi!1~
L'ach ~ \,':lr, "'POll'>.PI '. lli;'1 h:l\ l' IhL' lill:Llh'i,d IIll'an" dr\.' L'IlCllllr:lgculll ... hare :I pllrtillil \)t' (he co..,l"
.I~:-\l(: ialeu wil h 'WPPUI'I i Ilg V IS 1'/\~, I II ~I Isl-.,h:II'\.', llie '.pPll~llf ~l)VI:"S I lic I i v ing a lIuw:lnct!' 0 I' 'lome
llr ;,/1 ul' ib VIS'I ;\., (\\ Illch 1',1I1l1~' 1'1'11111 't9,')I)(\ hi 'l> 1·I,7S,1 pCI' VIST/\ pcr yCJr, depcnding 011
geograph ie local iOIl), III e .'icilallge ror ,his invcstlTll:HI. Ihe Cnrpl>l'ill iLm 1.'0\ cr., a II Ihe I'cma ining
program ellSlS for l',l\:h V I STI\. I he C(lrporal k)1I pa}, I he V I S I /\ ~ JirL'cl J) and invoices I he
sponsors tnl)lllhly I'm Ibe livillg allowallce or l'l)sl-shal"l' VISTAs,

I;or IhllSC prllJcclS (slaIlJ,lrd .lIlt! ~lIprlll'l) ITccIvill~ II1\'lJicL's. Ihe spol1sor's portion                            or Cosis does nOI
hnve 10 be p:lid ill ,IlIV:tIlCL.', hili flllllL'r llW)' Iic reilllnllr~L:d \)n (\ tlHlrl!llly basis,

Wh i Ie cost-shari 11 g call h~ all L'l'J'ed i\'\: \1leallS 10 leverage rlllld i I1g. i I should Ilever be collsiuered a
rcqu ircnlcnt ('()r lK'Clllll ing l)( (L'ma i t1 i ng a V I ST/\ "pDllsor, V IST/\ fecogn izes t hat many po/entiat
sponsors, part iClilarJy 1111),,(; nll)s( iI) Il\..:cd or V I ST/\ resolt ree fDr capac ily bll i Id ing, ml.ly not be able
(0 Sli pport a L'IlS( ~h"rc agrL'elllL'Il(,

l:or more ill i'ormOl I ion llil lhL'           ellS! 'illa n.: rarl tlersll i p. plea~e v isil
hjJ.R://\~ ~\'\'~ '1()II.' I.. ,kllrp~,gll\   /Ii \1'_1 I I'g<l II i l:llll,lll'/;\PI?!)i \ j,ta ,d~I1,


VISTAs
/\ V 1sT"                ),l·ar-IIIIl!!. hd 1·1 I 11K' ClIIIUII!! lilt: III 10 "L'I'\ e 011 II "pee i lic project al a IHlHprotit
                IlIakl.'" ;,
                 or pllbli~ :lgL'lll'~ VIS 1 . \" li,~' ;\lld, ...·f\'l' ill '111n~' 11(' 1'111'11:11;011', pI\tlrest urhal1 alld
ol'l.!:tlli/allllil
rurlll ;lI'I:as They dllilol prill idL' dit'L'Cl <.;el'vice,>. '\I)ch ;\~ I (l\llrlng. children nr hllilding homes,
11l~lead, I hey Ii leliS Iheif L'lfnl'" 1\11 hit i Id Ing Ihl: nrg;1I1 i/ill iUliaL aUI n ill istr:H i ve. IInu Ii l1:lIlCial e:JplleilY
of "pollsor" Hilt! apII/X rUlir ,",1.::- prillupll..·" ('l:e p;lgl' ,I) III their "el'Vi~c.



Leaders
V I ST/\ l.e<ldn" "L'''\ c i 1\ I;)r~c V II.., I .1\ jll'lljCl.'I " (II' ill I'q!II)II" l,l'adL'r" :.lfe i lid i v idll:! Is whll have
s\lcecssl'ull,\ CI\lllplclL'd :J .' l',ll 11111~ IL'I'lIl tti' ~I'I'\ Il'L'. I'hl:1I :Iilll i, III L',\P;lIld allJ hllilu Ille l'apacily lIf
the VIS I;\s Ihey !cad ill ';I\(wtiifl,lliun \vilh Ille P('(I.il'cIS in wlll..;h (ht·) ~ervc, While LCOlUer.; do I1U\
Jireclly stlpe!,,,j"L' V],; l.'\~. IIlL"Y Clil pla\'                :I   -;Inlil:!!,ic IPk ill as"isting pro\L'Cl supervisors wilh
recru it menl, relell! iOIl. lind pcrl'onllancc,



                                                                                                                                                    15
Summer Associates
SlImmL'r A SSO( iah:s :tre indi, id II;! Is \\ 110 ~L'I'\ L' H (Ir I () lVL'cks b~'lwL'L'11 May ;}II(J August. l-:x ist i ng
~ronsors II f year -roulld V IS I " IWlljL'CI'> (lrL' l' I igihle it) apply to Cllrporat iutl Slale Offices for :JdLl ing
Summer "ssllciah:s Itl IhL'ir pn~il'l'Is , In dL'I'l'lllpill).! Ihe L'I.IIKCpl pupl.!r fllr Summer Associates
prograillming, spOllsors ill~'\'l'p()ral~' ill'livitll.!S thaI ~h()\lld rcsult in a credible       cnort 10 help people
L'SL'<lpC poverty, 01)1 ,il11pl) In;l\...c Ill)\CI'l) Ilion: tolerable. Unlike year-nmnJ VISTAs, Summer
i\ssm:iaICS IIWy carry \1111 din';cl servicL' ilcli"ilics ,




VI. PrOject Models

Single Site Projects
I'he majority Ill' V IS I'A pr(1j~'cls i11\'01 'IL' 11 lac illg (lilt: or 1l1Orc V IS'I As w it"
                                                                                             a sponsori ng sponsor at
one locul ion , r1\l.!rl.! is IIll Iilll il (hc) \llld aVii i labk funds and ~ponsor capacity) to the number of
VISTAs placed ..vilh a S(J(lIISor .

Whl.!n app Iyin!! I hnlllg.h d j ralllS . Ihl' ~P(\IlS()f slIhlll ils II <.:OI\\:L'pl paper and full applical ion ror the
project. A sillgk ~ile pmjl.!\:l III(\J~'1 j.; I'l'll:rl'l.:d In as "prilllc" or "prime-lInly" in cGranls, Figure 1
shuws :::OIl1C l'hal'<l\.'ll'risll~' ~ (Ifil l)I'illl~' prni~1:1 lIIodel.



                                                      Prime Project Modcl
                                            •    Clllllpide 11 I,;onl..'ept puper
                                            •    Compiclc a full application
                                            •    Wllrk \\'ilh Ihc Illeul slatc office
                                            •    IIl1ve olle or 1110rt: V ISTAs placed
                                                 ut silc(s)



                                            Figure I,    Prim~'   projl'ci mOlh'l




Multi·Site Projects
In mull i-sitc plaL't:lI1clll projCl: 1-;, V ISTA ~ arc pbced in u s Inglc stale through t:ith~r (a) a sponsor
Ihat operales "I Illlliliple ~il~'~ ill Ihe l'olllilluilily, I'l'""I\"I, III ,1 ;llI.: UI' (h) .. spunsor Ihal has agrceIl\L'III~
wilh lo<.'al orgillli/,lIl'jnll'\ llwl ~~'rw ;1." ~lih-l'c\.'ipil.!llh , I Ill' 'PllIISI)r proPflSI.!S Ihe Illlmber Dr silc~ anti
the nlimber lit' VIS I'A~ 111 \.'iI ..' h .,ile. hilSl'd 011 Ihe ~'''pC~'ll'J IlukllJlIL:S tIl' Ihe IHl'j~'<.:1. Gencr;'}lly.
V ISTAs in th is modd I~orj.. 1()\~Hnj larg<.', srollsur-IJ\.·lll II icd !!OO Is: howl.'vt:r. ~'!lC It si Ie nlUY have
Jirren.:l1[ gmds .

Whl.:n applying lhTllug.h dj"<lII(-;, Ih\.' Cnrporalinn SUIIL' ()j'{icc slUlTdclcrmillcs, in consultation with
rhe prime spon:-:or, \\ hcli1l.:r \hlo: pro.iccl is il "prillll' " or "rrimc plus sub" modt:1. The decision is
basc-d on ful'lors such liS lhc ,lIllllunlll{'rl'spollsihilily the sponsor tukes wht'n there are sub-
recipients, n1il~nil\1Je Dr Ihe pflljel.'t. and pro:\ll11il)' Dr the sires.



                                                                                                                              16
~   If Ihc -;pollsm applies mil1~ I hI..' prime proj~'ctl1l()ucl. lh~ prime -;PllIlSor ~lIbll1ils Ol1e c\)ncepl paper
    :lIlU full i1111»)ie;1I illn rllr I he 1..'111 i!'~ pnJJl!'~t (Figu 1'1..' I, I. I r Ihc ~rOl1sor i'\ appl ~ iII)!. lI~ing I he prime plus
    sub IHoue I. Ihe ~pllnSllr SlIhlll ih il ((lilcept paper ililU full II ppl kat ion fur Ihc llverall project; sub-
    applications are \UhlllitlL'd rill' Ille '\lIhrccipi~lllS in lh~' pmjcc.:t. Fig.lIrc 2, shows some charactcristics
    ora prime plus ,u b pn IJecl 1l1111k I.

    thing. thc primc plus sub IIIIHk! nlfL'r'> the spllllsnr 11110 C(ll'portltilln Slate OITlce s~vcrlil benefits ,
    For L',xam pk, the "POIIStl!' ~. " II II Sl' IhL' Lo( i I ,\11 IS rUllel illlllli ily to )wkl a compel i I ion for ils
    subrecipiclIIs . In additilln, the ... poll"(\r :IlId Cllrpnralillil Slale Oflke Cilll track progress of indiviuull)
    slIbrccipienls, F111'1 hcr. C (lIP! Il'al ion SI ~IIL' Onices arc pi'll' iJeLl wil h lile Ilc x ioi I ity to J iv ide I he
    sllbrec ipicnl maI1ilg.CIllL'I1( :lnd Illl)1I ilming rcspollsihi I il its t\ r a Illil It i·~itc project ::llllong LI i fTerc nt
    program     sp~l:ialisls .




    MUlti-State Projects
    Sponsors somL'lillles wish to develor a project that has sites in sCVl'ral slaks . Sponsors have two
    opt ions I'm Lleve loring. these lind t i--;tatc projL:c\s.

    In the rl(st opt illll, sites "j IIlpl) work \V It h c-a~h CI)rporat ion Stale Ofrice i ndcpcndcntly. for
    c.'<umplc. sites ill Alahal1la \1,-111'1\ uirectly with the Alahaillil Slate Ortice, siks in Montana work
    directly with the MOlltana Siale Ol'licc, 'lild s() Ilil. When applying through cC,rants, sponsors should
    follow the guilklinc'i for /I ~iJlglc ., ite Dr Illulli-,ile project, as described above,

    11\ Ihe SCCOIH.i option. the prillll.: Sp11l1S0\' \\orks with lllle Corpor'llioll Slate Ofticc 10 coordinal\! the
    devl:lopl1lCIlI uf pn1jcct sill'S across "Iatc~ . III this tlrtioll. the SPOllsor [}ruroscs tht! number of sites
    and Ihe IllllnnCr or VIS'I !\~ at cncb silt'. buseu 011 the t:Xpcctcd outcomes of lhc project. Generfilly.
    V 1ST As in Ihis muuel wor).. Im\ ;Ird large. spolIsnr-iJenlifil:u goals, however, each site may have
    d i ITl!n.:nl outl:OI11l:S. In deVL'llljllllL'nt and m,lIli1gClnelll () r SlIl:h a mult i-state rfoject, the Corporation
    SlUt<: Of'lit,;c l:OorJi nat ing I hc pnljct:1 (.'0 Il\ ilL' IS Corporal iun Sin Ie Office starr in Ihe other slates with
    prt)posed projCl:I sill'S to:
          •      In Form I henl I hal II "pnl1snr ;~ request i II!,!. 10 pIUl:l' iI projcd ." ile in thei r jurisujct ion
          ..     t>nlviJe in"ofl)J<llion III L'lIahk IIK'Ill to III <I I..l' <I JC!l'flnini\tioll ahuut thc need for such a
                 prllject in lheir jllTistlll'lIon
          • Oblain Iheir :I[}pw\,<ll/disilpprovllltll aCL'cpt iI projl!l:\ site in Iheir jlJrisdiction

    When applying. Ihrough c(inlnls in Ihis sct:nnJ opti,,", the Corporation State Of1icc stall delermines,
    in consultation with lhe prime .'pOIIS!))", whL'lhcr the projcl:t is a ·'prime" or "prime plus sub" model.
    Th<: dec ision is bused on !;IL' I(HS "til': h it!; the aIlHWIl\ of resronsib i I ity Ihe sponsor lakes when there
    Life su b-appl il'III1IS, Il\agll i I!llk II r I he projel:!. ;lI1J pro~ i 111 ity or the sites .

    I r t he sponsor ilpplics liS ill!! I he pril11c projcct model. the nri Ine snnnsor suhm i IS une concept pftper
    and fuJI 'I[}p) kat iOIl I()r the ellt i rc project (r igun: I ,). 1ft he Spollsor applies usi ng Ihe prime pi us sub
    model. the sponsor sllbmil~ <I l:1)I1Cc.:pl parer and full ilprlk<1tion fi>r the overall project; sub-
    applicali()n~ arc ~l\bll1iltcd lilr the sites ill thL' rrojcC\ in L'ClCh slille , Figure 1, shows some
    charactcri sl1l:s 0 f II prime f1 hl'\ sub rrlljl:CI lllodl'l. SUInC ul I hL' tid vantages in using the pri me pi u~
    sub i.Ipproaeh arc mentiulled jllst abovt'.




                                                                                                                                           17
                                              r                           I'rllll': _\PIIII\',III""
                                                                                                                                  ~

                                                     •        l '''''pic'I,· ,I (',,11\""(11 I':IPCI
                                                     •        l ','illpldC ,I 11111 .IPI,lo. ,,0,111
                                                     •        W..rk __ nil 'PLl"" IT" ILlc,ol 'illll.: Ullk.:
                                                              ,'LIIIIJIII:lh: L}\'t:I.IIIIU(\II."4..1
                                                                                                                             (u




                                              \.                                                                                  ~




                                        I
                                                                                       I                                              I
     I' ~~l1Jl1i.mll)'\.
                                                                                ~            f :'1.1 b. :~!l1! IK.nJilln..
                                                                                                                 . on
       •    ComJlklc iI l"ul\"l1fll"I\(II"', thlllliWI prUlle
            nppllcalll')I\, 10 ~llc ' ~ II.~"I Shllc (1IIi,.:
                                                                                                •       {",'Iuple)c II lull .IflphcUII"11 Ihmll~ romc
                                                                                                        "pplieallon,lu ~11~'s lu~,,1 :-'1,,1.' lHr,ce
        •   R~<:t'\"e ;tppli.:,,((Uo "I"()('I',II. (11111("( I\hllliltlnil~
            tUl(1 m.:mbcr ~tlflPUri frollt ,il':' s I,,~al Siale (Hlicc
                                                                                                •       I<nt:jvc IIpplicllli<lo "1'11""-111, pmJcclllIHnlloring,
                                                                                                        ~1IL1l1lclnhc( SIIIlP'II1 It"", "IC', 111,,,1 '\1,111: Office


     \.
        •   I hIVe ,In.:. ilf U\lllr V 1\ I A~ (11111.".:11111 , He
                                                                                             \.
                                                                                                •       Iluvc ,"'r Of n1or~ VISTAs pl~ctd ul site




                                            Figun' 2, Prime..' plus suh proje..'d model

     Involving all Corpilralioll SI;ltc Ol'ril:l:s in which VISTAs arc placed is necessary 10 ensure thai:
         •   Collaboralion               or
                                          ill: I jv illc~ ;llTIl}llg \Wgilll i lal il)llS Worli.illg In com m un il ics lakes place and
             dtl pi iI;;n il In (II' oil: Ii", i I il:s b~ 'II hlT CIlI it i\.',\ I" (1\' t Jilkd
         •   SPIlIlSIHS have Illli :\ I rl:ad \ I'l'4.."l·; \ cd V I S I ,.\ r\'~, IIll'l:CS in Ille slale for Ihe same purpose
         •   K~qu i rCInClllS (hI' 11111 i I~' i I\~ ,I at\.' L!\l\ l'nt"r ... "I pI" jCd ad i \' i lies Llrt! I'll Hi lied
         •   V ~ STAs arc 01 blc III rc'.:l' i \ l' \h\., slipplirl lit' I he IpLd (" tlrroral iOll SInle Onice sla n- and other
 l           lo(;al VIS I"As during Ihl:ir servil'l'
         • VISTAs call hl' in(;llIlkJ in 10l'<11 jn-~cr\,jt.;l: Iraining opportunities
         •   V ISTAs call he CllllI<lcll'd ill the event of:J disa~ler
         •   l{cqtlirclllclHs fur projl'd 111 on iluring alld \}"'l'rsighl :Ife t"llllillcJ
         •   Repurting III (\)ll!.!,I·C;iS. gOVlTIlOl'S. alld Ihc puhlie 1)11 the 10c<llion of VISTA Llcliv;lics is
                II\;C lITU Ie




     National Demonstration Projects
     Frtll1lliilH::·llI - lllltl'. VI\ I A dl'v\.'lllp~ n:tlllIll:ll dl'l1l1l1hU:lllllil l)rtllL'(;I<:; , rhl' ~ l' JCllHlllstralill1l projecls,
     which art' illill:lll'd ,:llllI (;11I~nllll;(led h~ VIS I i\ hl'lldqllarlc,-", hml: rillile ll'nllS antI hnve Ihe prifllilry
     PlJrpo~ c lIr Il', ~ il11! W,lIlI<l S IIIL! II ~lIl'l'JlIS Ilcd III 111l' l:/";hlical iU Ii\ pi" povt'ny. At ClllllpicllOIl, Ihe
     ('orpl)I':lIil./1 :)"<'l::' ~ l' :- Jk'rfllntlalh,~' )'111 Ih~' Ir:llioll;d d~' llh)lhlr;ililll\ pmjl'cl (JnJ captures best practices
     and kssnn~ lL'anll:d 1"111111 1I1l: dl'lilll,,:-ll"alilll\,



     VII. VISTA Project Resources
     Corporation State Office
     I he Corporation 1\11' N,lIll lI lal H.lld              ('1I1I1I,l llillil .V     \l'rvkt' Illis 1'll'llI '\l1IfT working ill Slate O l licl:.s
     IhrollgntlUI Ihl' lillil\:d ~1:11L'~. Ihe I )i~ll"id or ('t" llIIlIbia. 1'1I1.·rhl Ri.Cl), um.lthe Virgin Islands. The
     roll; il l" Ill.: ~I;ltl' (\rn":l~ i, 11IIIfL';idL prn~ ra1l1 de\ d 'P"tt'"l'. I l:l: 1111 i(:l1 I )l ssislan\!C, IIIlmiloring .md
r.   evailiul iOIl ill suppllfl (II' Iltl: ('urp"r"l iPll's nal i,)lIit'l                       ,"'I'\'
                                                                               il"t' nL't wnrk, untl Amcri Cllrps"V ISTA



                                                                                                                                                                        18
!ilL' III hcr ~\I ppml, ;\ ~llI\lp kl~' t i<;1 (\ I" S 1,11l: ()11"1":l:~ ... :111                         t1l'   fll\l\ld   ill.
l,-!..U.?.:.u\~,_\\   \\ .\1,11 i l lila I' . .·n   i_L'e ~l 'I al1l'-' 1I:'Ll '-'l!;I~ lI~1 al~l' Iii ...·...·">. :.1 'po



VISTA Campus
Launeht:J in .luly                      ~()()X.
                               Ihc VIS 1;\ L.IIllPlIS i~ an llillim: kurning t:nvironmcnt ror the
VISTA commllnity. I'hl: ,Iilll is 10 support VISTAs in thcir dcvdopmcnt, narrowly defined
by rroll:ssiol1al [(lies ami broadly defincd hy lik's palh. The VISTA Campus contains
tUlori" Is. cOllrscs. I'C";ou n.:l'S :lIld II n "-S for V IS 1'/\ S. Sll pc rv isors ant! Corporal iun staIr.
W\V w.        vislac.;U))ill!Sj_1 rg

Resource Center
ThL' Natiollill      Sl'I'\'iCl' U.('SIILU'l·L' ('l'ntcr is ;1 \\l'b-basctl l'h:ii'l i'H!.houSL' Ihal (;()llI<liIlS over
2,SOD do I~ 1\ Ioadahk' to\ I h ;11 HI l'-l'()l! rses, 1'111': puhl icat iOlls. lip ,heets, wc h I i'nks, 100 Ik i Is,
illlJ 01 her rl'SUllrCL'S (;0\',,'1' d \\ idl' 1':111);;1: III' topics. Sp()Il.':;I,rl·d hy thl: Corporation for
N;ll(On:d :Ind (\lIl1lllllllill- SL'!"llI;'l'. till' \1'L'b-;ill' nl;.lkl:S il t'asy 10 lind resources II1:.1t hdp
nat i unal serv icC' ant.! I'() hi rlll:l: r programs grow illl<..l thri Vl:.
hlltU:/ ioa I i_ona ISC'I'\ il"~ ~ "Illi reI.; lj .11 rg{


Technical Assistance
l'l'"{)jl'Ct S'L' n i~ 1Ill' <"'111'1'111';11 illll'" Il'\..' 1111 It.; :1I ;1:;' i:-,t;III\'"~                pn 'Ii ider It II' p""l'ii)l"lllanc(' llIea'wrclIlcnl,
( )11-1 inl.: I'll III" i l ..     ,ll1d   IlIt, )filii .. PI', \ \, it!", "ll·p. llI - S\L:p I!lI i d ('I'I I\," • !III IIc\ clopilrg pl'r fO flinal\!,;l' llIeasures.
uc:H i1l!!. prn,IL:cl rl:tm. ;11111                     dn e IlIpiJ\ ~ (bla elll Icc I it'll               ill ., lrU11lcnls, "alll pic 1\I'lljCl'1 plaliS.   VISTA
;lS.s IglIJllCIII dl':\ 'rlplll 111~ :11 v                 :lisl)     a i l;d~1c _ ;\l:tL'~' Ih~ V <1') I ,:\ -\I!L'L: ItiL' PI'l ~iL:l' t S IAR wl·hpilg.e by
                                                                    ;1\
gnJ ng III        hUlhi         1I1111 "II,d, t' l I     Il'L"lL',' "llc' L", "I;;' 1:11' ', ~ :II :ll11ll'Il\l\\~lfI}.!: Ihe VI ~ fA lupi\.: ~ct.:li ~ )I1.



ListServs
W LInt tll !';lIllnec( \v i1 h (II ill'r pel Ip k: \\ urk ing ill lhc nlll i0I1:11 scrv It.:C lic Id? The C orporat iOIl sponsors
scvera I Iistsc rvs \vh iL' h :In.: t,ll"g,l'led \U\\;" rds d i fkn:n I <l1«J il'llcl's and topic arc as. Dcscri ptions 0 f' lhe
listscrvcs (lIlU instru.:liolls Oil h(m 10 "ign lip ~all he l(lUlld ()n Ihe RCSllurcc Center at
h!.tp:/I,wt illll-'.!l~· !Y iCl'rL' ~ \ \lII'Cl' ~ ,I 'r~ ~ Il Il~iJ..:J ~ti

Online Resources
I'herc are 1ll<1IlY olher lIlllille I'l:S()lIn.:cs whidl (,Ill hc h\"!rI"LII (Il lhe VIS I'A communilY. Thc
f(llluwing list il1t.:1l1dl'~ " "Uril'l) (If I'cs()urces foclised (111 pOVCrly. aSsel development. and other
lopics,

Poverty and IJ uvcrty-re/lltl'd L.. sucs:
   • lJS CCllS(IS PO\'l·rt~ pag.e: hIIP..:/"I~\\\\ ,~~I_l~l_l~ gIll 'lill",,'ij~,:~~~vlplw\::rl\./ DO"l:rtv,hll11l.
   •   Instilutc lilr l{c~e:1I'l;h (III PIH'l·rl). Ulliv. of' Wisconsin: l!.!. 1.2 :) i\'1 \'\w. j ~\'~isc.eduj
        •       lJNC SdlOul                 01"     l.lIw. ('tlllcr        Oil   Povl'rly. Work ami Opponuri ity'
                ht:pl:\~_~\'>:..,I:l\\·(lIll l:dlUCt;lltl'f~ip0..I'l~rt) id.;I':ltdl :1~1~0
        •       N"liollal Pmcrly ('l'lIter at lJlliv(:r"ily (If Mi\:higulI, hl.!J);j,\~~ W ' I! PL lI\l1i ~ h , cJuhbolJt 11,,1
       •        Rural rov(.:ri Y !{CSl';\fLh ('cllll:f': 1I1Ij) \\ ~\ \\ fprLl-111 j) ~rgf
       •        Ullivcrsily (If KCIlIlll'ky Cenler f(\r jl(lvCI1) /{l',ean.:h: hl1p : II\V\V\".!I.kul!'i~.!Y
       •        Wl'sl Coasl jlOVl'r1) (' ...·111er· hJW_!}}\\:l'[1t,.:, ~~'~.hill~l,\.:~J.!.!l



                                                                                                                                                                          [9
   •   I II IS, POYl!rIY, 111(.'{lllle, and 1\ SSl!iS',
       hi 1H./!'JsPl!. hII,.!:!.{ I," _' Ii Ipi~ 'II lPI(,~ I"tll',ll,ppic III II cl'l) :',;,~ () IHO: .~lIlle.,''/,)~lHHI%JO/\SSCIS
   •   W{Hld Ilullgl'I' YI.!.lr : 11111<:" \~-'V,~\'~rldl\l!!I!!sr)c:II:::!.II.:g(il.C!~I.lIlt-.ill:J2

Asset DeVelopment Links:
   •   California Ihsocialilln I"llr Micr(ll!nll!l'pri~c Opportllnity - lWp:/j~ww.microbiL.orW
   •   M iero 13w;illcss I )eve lormelll Program - h! Ipj/~ \~'~. 'v 1III ie r<\hll~il\css.t\rg/
   •   Nul ional hHllldal iOIl for I'L'U\,: II ins Lntrepn:nc lIrsh ip - h1!~:j6~ww . 1l ftc .com/
   •   Pilll - hIJP:/!\~:\V" .p;\e! ,"'-.nrld .llrg!
   •   The Viriliall.ihral) 1111 MicrIlLredil- hllr:l/\v\ .. ~ ... ,g,(,h:~\rlWcm/
   •   Institute I'm Puver1Y Research at Nllr1i1wL'slern Ulliversi1y-
       !.lli.I?:I/V-:'_,~,-~. ~\L2P.J.1!)n b~'~_\0 !..c_nu:~I/;( l}~ J/
   •   eFI ': !)· l.llliL0·'~\\-,\ . ~I~.t..I.L~nt(




                                                                                                                                       20
                        ,
                        ,
                             ,    ,\0' ....... ,
                                 .'   ~fIII"
                                                      F'Y'" -.; ' ..
                                                   ~.O:.I'lr·   .•  '01
                                                                          -r 1.    '.'
                                                                                  " . ,
                                                                                          .        '.'
                                                                                                         .~
                                          I "~~.,,         •     '.

              How to No.mlnate VISTA Applicants to Serve at Your Project                                                                "
                             .'       .; ••...l~~~,
                                      _   ~4'JCl~'
                                                       :1," • ,     >,
                                                                    ~ t   ~
                                                                           '
                                                                                     I        ..              _




     All VISTA applil:ants IllliSl hc ~Ippmvcd by Ihc CNCS NY Slule Office before they may bl.!gin service, 1\
     J~~ision will hI: m;Kk' h,lscd Oil compklL'I1CSS ll!'''rriicillion. limeliness of nominal ion, qualifications oflhc
     oprl kant, sui luhil i I) [llr I hI: posi I ion, ;ll\d resourccs uva i lable at Ihe time of nomination. CunJidatcs In ust,
     except in ran: drClllllst,mcl'S, ,tlll'lld a Pre Service Orknt:.ltion (PSO) before they may begin their service,

     (Jncoming PSOs:
     Scheduled for May, Junc, July,                      i.1Il(j   August. Spccilic uuks TAl\. Deadlines TBA, no later thi:ln 6 weeks
     prior to c<.lch pso,

     Ir you want                 nUl' apr' ic;,tn I 10 ull~nd onc II r t h~se PSO.s. yuu mu~t com plcte t he no min al ion
                    10 IWIIl i nlile ~
     prllccss (stc~ 1-(-, helow) hy no lull'r than the dea(.Binc that will bc announced. Your Program
     Manager wi I! revicw )'()lIr arr!irant's mUleri:ds anJ make a Jeterminalion as to whether the applicant will
     be approveJ or no\.

     Il ow lO numin all.: :l VI S I jL~[ll)' ic:II Itj9.L.lPProvJI rn~l!1 lill: N Y_SJ;lte onicc :
     Complete, detailed user guiJes ,Ire ~lvaj lubk at bHP/h~ \~ \\·Di.H i()Ili.lIset'vl(;cre:;(HJr~es.(l~~_- .I!~ljJ)j.!.U:'-SllPP()n

-j
      I) Applicant must           ~Irrly In        your project online viu the nL'w Recruitment System: My AmeriCorps.
          h!J u "/ \\ \\ \\ ·iI1l1l'IIC' '1'1'')· ,p ~" ) r_iltilivid~I:lIs!.rL'~lill /!Ild(,.~\ .a;m.
     2) Sponsor ca.n        <.lCCCSS    !ist oj' :Ippl k;lll\S und their <.Ippl icaLion malcrials under
                                                                                          on your cGrants
          (h.lt p~;//t,!g!,allhl'11:" ld-l1 y Icspall/illil i "ling; n. ISP) homepugc. This wi II ori ng you to your
                                   <Jnd                                  ,,; .. :'. II.· ,: .( '.:',

     3) Sponsor will scc thalt\\(l rdl.'rcnces arc Incorporated into the upplicatiun materials . If they are not
        bDth complete, ~Oll will haH' ~In oplion \0                                ' ", to remind the reiercnce to complcte the
        l(lrn). I r t Ill' rL'l~'l'cll(t: sl I II doL'S nol com ple-tc Ihc assessment. you can ~lJtnplCIC a "reICrcnce ovcrriJc"
        by Wl1I;H.:I i Ilg till' r\' I \:I'CllCe personally <lIld j nL~rv i ew ing hi rn/her. J r you d kk on t he name 0 r the
        incl)ll1pk'le n:i'L'rl'lln' (i.e ,                        ). djrants wililcad you through sc\cral s<.:rl'Cns where you
        (ilO \~llllIPlcll~ lilt I'('qlllr~~d inrnnnil\ioll ilhoul lh~ :lrrlicnol'S suitability, When Jil)~"I1('d, click f?lVE>J .
        You cun usr a si m dar process i r YOLI ha v(' rree i vcd it paper rc fercm:c tl> make a nule :IS such on \hl~
        rcJercm.:c overriue Sl'Tl'en, but thl'\) he sure to send the Slate Ollicc a <.:opy 0 f (he paper reference.




                                 ( "Ip,r."""l 1"11' ""IIIOlm! .1IIe! ('''l1l1l1tlllll\ SCI"\ l(l' * :--"nv \ ork Stall' orrll(:
                            I .,'" (1Il,"'" l'!'d"l:IllllIIldll\)!," I (.IIllIOIl :><{ll,IIC. ~ll1l(' (JIIII * \Iballv. ~:\' 122117
                                         IL·I 'IIX III 11"l11*l'Ill;III.,H(t/ ·CIlS.gO\ *f:l!\' )IX 1)1 ·115-1
                                         ~l' nior Corp!>" "m~riCorpb * 1.~"lrl1 a"d Serve America.




     Page 1of 3
    4) For each arplil":1I1\ \h;\l ~ 1\\1 (.<\,lIIni'ur) \\\Hdd like [0 n(\l1lin~ltc I()r ~lrprl)vaL you will neeu to Cllmpktc

o      (he Sronsor RL'ClJllllnC Ilda( it)i]. rhl.' SpOllsor l~ L'CllIn tnl.:11Jat ion i Ill' I uJcs:
                      a.
                      b.
                            Cili/.L'llship status
                            1\ SSt'SS1llL'I\\ (\  r,)
                                                    pp\ie:lIlI
          The (' i I ill.: nsh i r i'lInn rcq 1I i re ~ :\ Ull tu rc ~ ie "" appru rriatl.' due Ull1C ntat ion and enter in (he documenl
          numbcrs online, I'hL' IIsseSSIlIL'nL rL'quin.:s ;'·(HI to ~lnS\\\.'r questions about the applicant's suitabi lity . AI
          the enu u r the assessillent. yut! "" i II sekcllaccep~. I~L'minuer: the NY State Office reserves the right of
          linal i1pprovJI t"l\r ;1l1 <lpplicillllS,

    5) The a prl iClln t "" i II III I\V necu 10 :I((I.'PI .' our (\ ITa. I (l d(l ~(). he or she will need LO log into My
       J\ meriCorps. On his/hcr hom\: p~lL..'I.'. '" IiL' \\ i II ~L'l' 111,1\ hls,'lle!' ;Ipplici.llion to your program is now in the
       stalus "sekclcu." S.:hc \\ ill h;l\'~ ,Ill llPPllJ'tlillily III ,ll'CL'PI (lIr dCl.'lin<.') your offer, Assuming the
       applic.l1I1 dcccplS. ~,llI.' \\ ill S~L' !hal lll'. ,'IlLT ~I,-,lll.' hd~ clMllgt't.! hI "Penuing SLate: Ollice Approval."

    6) [n audition, YllU (Sp4)nSor) ll1ust scnu your SPS \wo ()f three papa forms. Send them by email, if
       possihl\.' ,
                u. PSO HI!Kixlru/iol1 ,,"urm. Pkas ..: <.:nSlIfC lhatlhis i'orm is complete, including the applicant's
                    SOL'ial Sc ...'urily nurnb<.:r, project number, uepLlrturc city lIlIt.! relocation plLlns,
                b. Vol""It!t'f .-1,\·,\·igllme,,' Dt!.\'cripli,," (V/J 0)
                c, Travl!llo VIS1A Servi(1:! /.om/ion Form, This third rorm is only required if the VISTA
                    "ppliL'Uhl needs \0 r<.:llK::llL' in order (0 serve. Relocation is hanuled by the YMSU (VISTA
                    M<:mner SI.'rvicL' [Ini\). nOlthc Slal<: (HIke. so pkase I.'nsurc that the form is complete iflhc
                    VISTA \\11l hc 1'I.:1(II.'Jting.

    7) Thc NY State OlflL'L' \\ill hL' I1tl\i!ieu tllal )ot( havL':.I rL'nding applicanl ['or your program. We
       reCOtnllH'nd !hut .l'()/Il1i.1-o (,1111/1/ ·CUIl.I'OII!' SIJS in the ,\'llIl~ Ol/ic!! /0 /et 1/.1' know ,hul un applicunt is
       r/!oilyji)}' (JIlT rel'/(' I\' W L' \V ill r<.:v i L'W I he nppl i c.1l ion IHJ(crials, i I1cl ud i ng re fcrences and your sponsor
       rccommcnuilti()n. WI.' \vil! verily thilt thL' (lpplicanl is not lislcu in (he Nl.ltional Sex Offender Publk
       Regi st ry, ami t lwo ei I her (/cc('!>' or deny (hc appl i can L Ir accepted, we .11 so take the a~tjon of placi ng
       lh~m at yuur projc(:\, The syslem v. ill sl.'nd your candiJulc un email letting them know.


    H) Once the clIndit.latc is 'IceerlL'd '.lIld pliIL'cd, s/he \.,.ill necu (0 log back inLo My AmeriCorps and will
       Ii nu a list {) r forms Ihal s/he IlL'<.:ds 10 complete, A II 0 r these must be completed before your candidate
          Lltlends PSO.

    9) In oruer III conuuct IravL'1 wllil..: on assignmellt (i,e. "on thL' job LTUyel") or to relocate via personal
                                                                                                       r
       vehic Ie, I he cand icJ a tc III ust COlll rklL' form V -81. "lise 0 Vchic ks or Publ ie Transportation 1\. S/he
       will lind J link 10 Ihis rorlll (111 his/hcr hOInL' page in My AmcriCorps. ;\ ncr your candidate completes
       it, you will neeu (t) arpfl1VC il. I:rulll your <.:(iran\s home rwge clil:k on                      , :          '
                                                                               . This will bring you to your .. ',  .'
                    und ' , '                              I lere you l..'an vicw and lhl'n approve or edit, save and then
       view ami <.lprHl\/l',

    10) l3clore       ;Ilt~nding      PS()' \he cnodidult .....,ill (1ls(I lise My AmcriCorps to luke the online Terms,
          Cunditions. and BcndilS ~uUI''''C, anu to c(1mrktc I)'reet Dcpo!lit information, tax forms and other
          such paperv.urk that s/he ma) nul huvc l'umplcteu <11 stL'P H. I'hL'se forms must be completed prior to
          the PSO.


    \\CHGOLDF so IIMsYO/SSefl/,ceOffir:eICIVIC GOlpSICIVIC Corps F YrOIViS rAlVIS rA Nomina/Jon Process 1l1lolma!iOlJ doc
    Page 2 0/ J
    M8n:h 2009
;\ [1P 1i(alll   N~lIlle:



      o      I have n:vil'wl'd Illl'lllbcr            ~lprli(~ltioll compollcnts anu                illlL'rviewcd the applicant.

      o       The applle,II1t' s t"At) (~) required rl' Icrl'llces arc compldc in cGrunts or [ have completed a
             rl'rerClll'l' oVl'rritk" alld ~elll any n:l(lteu doclllllcnts 10 IhL: Statl' o I'Iice ,

      o      J ha\'L' (ompkt<..'d Ihc Spul\.;ur Rl'COnllllend"tioll in c(jraills ror thc i1prJicJnt I wish to accept
                 o      Citi/l'"silip St~ltliS
                 o      ;\sSl'~"tlH!1l1 01 ,\ppliGlllt
                 o      Click ",Icccpl"

      o       rhc ;ll1r IkLint has ":len: ptcJ" () ur ol'fl:-r () Il the My 1\ meri Corps systcm.

      o       I have checked III he ~lIrl' thaI the applicullt's PSt) Registration Form is wmp1cte, including Sociu[
             Securily number, projcct Ilumber, lkparture eily and relocation pluns.

      o      I h<.lv\: SL'llt the ,lpplicallL's J>SO Rcgislrution I:nrm 10 Iht: Statc Ortice (email preferred).

      o       I have Sent       ,I   C(lp~    ,Ii' the applicUlll'S VAI)         I,) Ihe   Stall' Orli\.:c (emull preferred),

      o       I r the applicant is i'eloc;lt ing, I ha\'l' l'hc<:ked thL' i'r<lwl 10 V ISlA Service Location Form to be sure
             iL is Lompll'lt:,

      o       If the applicant is rclo\.:'lling, I have scnt the applicanl's Travel tu VISTA Service Location Form to
             Lhl' Slate 0 nicL',
                                             \IIIJI' tlil' ahll\ l' 1!lIIst hIke pliu:e heron' tnt' J'SO Dl,t.I(lIinc.

    ["                                                               Additional steps

      o Th~         Stutc ()rJiCl:       h:l~ "ppruvnl ~Inu          placcd the applicant

      o       Thl' Cillldid"Le
             ;\ mcril'orps,
                                      h<ls    l'olllpkled the V-H I llSl'          or Vehicles Ill' Public Transportation form on My

      o      I havL' approved the V -81 lise llr Vehicles or Public Transportation form in cGrants. (deadline:
             bd~Hl:  member docs any "(In-lhc-juh" travel)

      o      The c:ll1uidale has cOll1plcteu <III uuminislrulive I()rms on My AmeriCorps and has taken the Terms,
             Conditiolls and Iknci"lts ()nline course, (dcudline: bcl()rc attending PSO)

      o      I havL' providl:u the call(Jid,lle with a copy orhis/hcr V;\\) and instructed him/her LO bring illo
             PSO. (deadlim:: hci'un: alll.:lluing PSO)


IICHGOLDFSO lIMB~'o'sSelViceOfficcICI~IC Q)rpsICIVIC Corps FY, 01 VIS T" \VIS TA Nomlno/ion P'ocess informa/lon,doc
Pi1ge 3 013
March 2009
